APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eighth Circuit
(January 21, 2021) . . . . . . . . . . . . App. 1
Appendix B Jury Trial Proceedings Transcript
Excerpts in the United States District
Court for the Northern District of
Iowa Eastern Division
(April 20-25, 2018) . . . . . . . . . . . App. 45
Appendix C Judgment in a Criminal Case in the
United States District Court Northern
District of Iowa
(January 3, 2019) . . . . . . . . . . . App. 114
Appendix D Plea Agreements with the United
States Attorney for the Northern
District of Iowa . . . . . . . . . . . . . App. 131

App. 1

APPENDIX A
United States Court of Appeals
For the Eighth Circuit
No. 19-1127, 19-1491, 19-1523, 19-1897
[Filed January 21, 2021]
__________________________________________
United States of America
)
)
Plaintiff - Appellee
)
)
v.
)
)
Alston Campbell, Jr., Alston
)
Campbell, Sr., Willie Carter, and
)
William Marcellus Campbell
)
)
Defendants - Appellants
)
__________________________________________)
____________
Appeal from United States District Court
for the Northern District of Iowa - Waterloo
____________
Submitted: September 24, 2020
Filed: January 21, 2021
____________
Before LOKEN, SHEPHERD, and ERICKSON, Circuit
Judges.
____________

App. 2
SHEPHERD, Circuit Judge.
After a multi-year investigation featuring
confidential informants, controlled buys, wiretaps, and
surveillance, a grand jury indicted William Marcellus
Campbell (William), Alston Campbell, Jr. (Junior),
Willie Junior Carter (Carter), Alston Campbell, Sr.
(Senior), “A.M.”, “J.P.”, and “D.S.” on various drug
trafficking charges. The government moved to sever
J.P.’s and Carter’s trials for a separate joint trial to
precede that of the remaining co-defendants, and the
district court granted that motion. The grand jury then
returned a superseding indictment. A.M., J.P., and D.S.
entered guilty pleas, and a jury convicted the four
remaining defendants (William, Junior, Carter, and
Senior). William, Junior, Carter, and Senior now
appeal. We have jurisdiction under 28 U.S.C. § 1291,
and we affirm.1
I.
In 2016, a task force began investigating illegal
drug trafficking activities within Eastern Iowa.
Specifically, the task force began investigating the
Campbell family organization after confidential sources
provided information that the organization was
trafficking narcotics throughout the Waterloo, Iowa
area. The Assistant United States Attorney (AUSA) for
the Northern District of Iowa submitted a wiretap
application for the surveillance of target cell phones
1

The Honorable Linda R. Reade, United States District Court for
the Northern District of Iowa, adopting in part the reports and
recommendations of the Honorable C.J. Williams, United States
Magistrate Judge for the Northern District of Iowa.

App. 3
belonging to William. The wiretap application was
supported by an affidavit containing sworn testimony
from an investigator with the City of Cedar Rapids
Drug Enforcement Task Force, Officer Bryan Furman.
Officer Furman stated that the wiretap would intercept
communications between William, Junior, Senior,
A.M., J.P., and “others yet unknown.” R. Doc. 127-1, at
18. Officer Furman identified William as a “retail level”
crack cocaine distributor within a distribution
operation led by Junior. R. Doc. 127-1, at 26. Officer
Furman testified that intercepted communications
from the target cell phones would likely identify the
leadership of the distribution network and the
location(s) of narcotics and provide evidence concerning
the target offenses; drug supply; transporters;
financiers; manufacturers; distributors; and customers.
In his affidavit, Officer Furman further testified that
because the affidavit served the “limited purpose of
securing authorization for the interception of wire and
electronic communications,” he included only those
facts that he believed were “necessary to establish the
foundation for an order authorizing” that interception.
R. Doc. 127-1, at 21-22. Officer Furman also testified
that “[n]ormal investigative procedures have been tried
and have failed, appear unlikely to succeed if tried, or
are too dangerous to employ.” R. Doc. 127-1, at 19.
In the wiretap application, Officer Furman testified
that investigators had previously engaged two
members of the organization as cooperators, and those
cooperators participated in controlled narcotics
purchases. However, these cooperators continued
participating in uncontrolled criminal activity, and
investigators quit engaging with them to protect the

App. 4
investigation’s secrecy. In addition to relying on
cooperators, investigators had employed surveillance,
cell site location tracing, pen registers, trash searches,
and search warrants. Although these investigative
techniques provided some helpful information—
revealing the identity of retail-level distributors and
the patterns of individuals’ movements and resulting in
the seizure of small amounts of narcotics—
investigators were still unable to uncover information
such as supply sources, organizational hierarchy, and
major inventory locations. In the application, Officer
Furman also discussed investigative techniques that
the task force had not employed but that would likely
prove unfruitful or too dangerous: financial
investigations using subpoenas and search warrants;
undercover agents; field interviews; or grand-jury
subpoenas of persons associated with the organization.
The district court issued a wiretap order authorizing
surveillance of the cell phones on October 24, 2016.
On July 10, 2017, a grand jury indicted William,
Junior, Carter, Senior, A.M., J.P., and D.S. on various
drug-trafficking charges. William and Junior each filed
a motion to suppress the government’s wiretap
evidence. In their motions, William and Junior both
argued that the government, in its Title III application,
did not provide the magistrate judge with a “full and
complete” statement of facts. R. Doc. 117, at 2; R. Doc.
115, at 2. Instead, they argued, Officer Furman
provided only those facts that he found pertinent to the
district court’s evaluation of necessity rather than
allowing the court to make an independent finding of
necessity from all available facts. Junior separately

App. 5
argued that the government failed to properly
minimize intercepted communications.
On January 22, 2018, the magistrate judge issued
a report and recommendation, recommending that the
district court deny Junior’s and William’s motions to
suppress as to the issue of necessity. Junior then filed
a supplemental brief addressing alleged minimization
violations, which the government opposed. On January
30, 2018, the magistrate judge issued a second report
and recommendation, recommending that the district
court deny Junior’s motion asserting minimization
violations. The district court adopted the magistrate
judge’s report and recommendations in part.2
On February 22, 2018, a grand jury issued a
superseding indictment. This indictment included
fourteen total counts, but only six of those counts
charged Appellants. In Count 1, the grand jury charged
all defendants with conspiracy to distribute cocaine and
cocaine base. In Counts 3 and 4, the grand jury charged
Senior (Count 3) and William (Count 4) each with
distribution of cocaine base. In Count 12, it charged
William with distribution of cocaine. In Count 13, the
grand jury charged Carter with possession with intent
to distribute cocaine base. Finally, in Count 14, the

2

In his first report and recommendation, the magistrate judge
opined that, even if the application did not establish necessity, the
Leon good-faith exception, United States v. Leon, 468 U.S. 897
(1984), would save the fruits of the Title III order from
suppression. However, because the district court was “satisfied”
that the necessity requirement had been met, the court did not
decide whether Leon would apply and therefore did not adopt that
portion of the magistrate judge’s report and recommendation.

App. 6
grand jury charged Junior with possession with intent
to distribute cocaine. Ultimately, a jury convicted:
Junior of Counts 1 and 14; Senior of Counts 1 and 3;
William of Counts 1, 4, and 12; and Carter of Counts 1
and 13.
II.
A. William’s Appeal
A jury convicted William of conspiracy to distribute
cocaine and cocaine base (Count 1), distribution of
cocaine base (Count 4), and distribution of cocaine
(Count 12). On appeal, William alleges that the district
court erred by: (1) denying his motion to suppress the
wiretap evidence; (2) limiting cross-examination;
(3) denying his request for a multiple conspiracies jury
instruction; and (4) applying witness intimidation and
aggravated role enhancements.
1.
William first argues that the district court erred by
denying his motion to suppress the wiretap evidence.
“We review the denial of a motion to suppress de novo
but review underlying factual determinations for clear
error, giving due weight to the inferences of the district
court and law enforcement officials.” United States v.
Milliner, 765 F.3d 836, 839 (8th Cir. 2014) (quoting
United States v. Thompson, 690 F.3d 977, 984 (8th Cir.
2012)).
“Title III of the Omnibus Crime Control and Safe
Streets Act of 1968 [(codified as amended at 18 U.S.C.
§§ 2510-23) (Title III)] prescribes the procedure for
securing judicial authority to intercept wire

App. 7
communications in the investigation of specified
serious offenses.” United States v. Giordano, 416 U.S.
505, 507 (1974). Each wiretap application must include
a “full and complete statement of the facts and
circumstances relied upon by the applicant, to justify
his belief that an order should be issued . . . .” 18 U.S.C.
§ 2518(1)(b). Similarly, applicants must include “a full
and complete statement as to whether or not other
investigative procedures have been tried and failed or
why they reasonably appear to be unlikely to succeed
if tried or to be too dangerous.” Id. § 2518(1)(c). Before
authorizing a wiretap, a judge must determine, based
on the facts submitted by the applicant, that a wiretap
is necessary. Id. § 2518(3). Suppression of wiretap
evidence is appropriate where any one of Title III’s
statutory requirements is unsatisfied. Giordano, 416
U.S. at 527.
Here, William argues that the government failed to
establish necessity. He maintains that investigators
chose to target his phones—rather than those of other
retail-level dealers in the organization—because of his
familial relationship with Senior and Junior, and by
not disclosing this motivation to the district court,
Officer Furman did not provide the district court with
a “full and complete statement of the facts and
circumstances.” 18 U.S.C. § 2518(1)(c). Further,
William asserts that by omitting this information,
Officer Furman evaluated necessity using the facts
that he found pertinent (rather than providing the
district court with all available facts), improperly
stripping the court of its fact-finding function. We
disagree.

App. 8
A district court’s finding of necessity is a finding of
fact, which we review for clear error. United States v.
Jackson, 345 F.3d 638, 644 (8th Cir. 2003). As a
reviewing court, we must “accord broad discretion” to
the district court’s authorization of a wiretap. United
States v. Garcia, 785 F.2d 214, 221-22 (8th Cir. 1986).
Wiretaps should be authorized only when necessary,
but in drafting an affidavit in support of a wiretap
application, investigators “need not explain away all
possible alternative techniques.” Id. at 223. “If law
enforcement officers are able to establish that
conventional investigatory techniques have not been
successful in exposing the full extent of the conspiracy
and the identity of each coconspirator, the necessity
requirement is satisfied.” United States v. Turner, 781
F.3d 374, 382 (8th Cir. 2015) (citation omitted).
Here, Officer Furman’s affidavit was exhaustive. He
detailed each technique that investigators had tried
and explained why those techniques had failed to
achieve the investigation’s goals. Similarly, he
discussed outstanding investigative methods and
explained why those methods either would be
unhelpful or inordinately dangerous. Officer Furman’s
failure to expressly state that the application was
motivated, in part, by William’s familial relationship
with Senior and Junior does not invalidate the district
court’s finding of necessity. Further, any potential
advantage to be garnered from William’s familial
relationships was apparent from the extensive facts
Officer Furman offered. Finally, Officer Furman
dedicated much of his affidavit to explaining why
“conventional investigatory techniques” had not been
successful, and why other, unattempted techniques

App. 9
would not be successful, in exposing the full extent of
the conspiracy. Id. We find that the district court did
not clearly err in finding that the wiretaps were
necessary and ultimately did not err in denying
William’s motion to suppress the wiretap evidence. 3
2.
William next claims that the district court erred by
limiting his cross-examination of the government’s
cooperating witnesses at trial. When reviewing a
district court’s limitations on cross-examination, we
apply an abuse of discretion standard; we will reverse
only if a clear abuse of discretion occurred and if that
error prejudiced the defendant. United States v.
Wright, 866 F.3d 899, 905 (8th Cir. 2017). “If the record
establishes a violation of the rights secured by the
Confrontation Clause of the Sixth Amendment, we
must determine whether the error was harmless in the
context of the trial as a whole.” Id. (citation omitted).
The Sixth Amendment’s Confrontation Clause
affords criminal defendants the right to be “confronted
with the witnesses against him.” U.S. Const. amend.
VI. At the heart of the Clause is a defendant’s
opportunity to cross-examine. Delaware Van Arsdall,
475 U.S. 673, 678 (1986); see also United States v.
Wright, 866 F.3d 899, 906 (8th Cir. 2017) (“The
primary purpose of this right is to guarantee the
opportunity for effective cross-examination,
particularly with respect to a witness’s potential bias.”
3

Because we find that the necessity requirement was met, we
need not reach the government’s argument that the Leon good
faith exception applies.

App. 10
(citation omitted)). Yet, this right is not without limit.
“[T]rial judges retain wide latitude insofar as the
Confrontation Clause is concerned to impose
reasonable limits on such cross-examination based on
concerns about, among other things, harassment,
prejudice, confusion of the issues, the witness’ safety,
or interrogation that is repetitive or only marginally
relevant.” Van Arsdall, 475 U.S. at 679. “A limitation
on cross-examination does not violate the Sixth
Amendment unless the defendant shows that a
reasonable jury might have received a significantly
different impression of the witness’s credibility had
defense counsel been permitted to pursue his proposed
line of cross-examination.” United States v. Dunn, 723
F.3d 919, 934 (8th Cir. 2013) (citation omitted).
Here, the district court allowed defense counsel to
cross-examine the government’s cooperating witnesses
about looming mandatory minimum or “substantial”
sentences they faced, the possibility of receiving an
increased sentence based on prior criminal history, and
their hopes of earning a reduced sentence through their
cooperation. However, the court did not allow
cross-examination that would reveal the precise
amount of incarceration, in years, that any witness was
facing.
Although this Court has recognized the sanctity of
a defendant’s ability to expose witness bias, see, e.g.,
United States v. Walley, 567 F.3d 354, 358 (8th Cir.
2009), here William has not shown that the district
court abused its discretion. Our analysis in Walley is
instructive. Id. at 358-60. There, we found no error
where the district court prevented defense counsel from

App. 11
asking about the witness’s potential five-year minimum
sentence but instead allowed questioning about the
witness’s potential “significant sentence.” Id. Important
to our analysis was the fact that while the cooperating
witness hoped for a reduction in his sentence, the
government had not yet granted him leniency in
exchange for his cooperation. Id. Because this leniency
had not yet been granted, the degree of leniency—and,
more significantly, the consideration granted to the
witness for his cooperation—was unascertainable at
the time of cross-examination.
William cites cases like United States v. Caldwell,
88 F.3d 522 (8th Cir. 1996)—and Junior, as discussed
below, cites United States v. Roan Eagle, 867 F.2d 436
(8th Cir. 1989)—in which we found that a district
court’s limitation on cross-examination was an abuse of
discretion. However, in Caldwell and Roan Eagle, we
found that the district court had erred by forbidding
cross-examination concerning potential minimum and
maximum sentences because the government had
already extended leniency to the cooperating witnesses.
“Our decisions in Roan Eagle and Caldwell, therefore,
emphasized that the accused should have been able to
contrast the original punishment faced by the witness
with the more lenient punishment contemplated by the
plea agreement—not merely that the original
punishment alone was evidence of bias.” Walley, 567
F.3d at 360. Roan Eagle and Caldwell are
distinguishable from cases like Walley—and from
William’s case. Stated simply, where a cooperating
witness simply hopes that his cooperation will manifest
into some undefined degree of leniency, a district court
does not abuse its discretion by limiting

App. 12
cross-examination to generalized phraseology like
“significant sentence.” Walley, 567 F.3d at 358-60.
At trial, the government revealed that it had
cooperating witnesses and that four of those witnesses
had plea agreements. William has provided “no offer of
proof that [the witnesses] expected that a particular
benefit would flow from [their] cooperation.” Id. at 360.
Instead, the record shows only that the witnesses
“hoped through [their] assistance to reduce by an
undefined degree the sentence that [they] otherwise
faced.” Id. Therefore, because William’s requested line
of questioning would have shown only that the
cooperating witnesses hoped to reduce their sentences
by an undefined degree through their cooperation, the
district court did not abuse its discretion in limiting
cross-examination to, among other things, the potential
“substantial sentences” they faced. Because we find no
error, we do not reach the prejudice inquiry.
William also contends that the district court erred
by prohibiting his introduction of the government
witnesses’ plea agreements. However, whether to
admit a cooperator’s written plea agreement into
evidence is “an issue committed to the district court’s
discretion.” United States v. Morris, 327 F.3d 760, 762
(8th Cir. 2003). Here, as in Morris, the jury was aware
of the plea agreements’ existence, that the witnesses
faced “substantial sentences,” and that those witnesses
hoped to receive a reduction in those sentences through
their cooperation. Therefore, the district court did not
abuse its discretion in limiting William’s crossexamination of the government’s cooperating
witnesses.

App. 13
3.
Prior to trial, William, Junior, and Senior jointly
requested that the district court give a multiple
conspiracies jury instruction. The district court, finding
that such instruction was not supported by the
evidence, denied their request. Post-conviction, William
moved for a new trial and argued that the evidence
supported a multiple conspiracies instruction because
it revealed a second, separate conspiracy between
Junior and N.S.
“A defendant is entitled to an instruction explaining
his defense theory if the request is timely, the proffered
instruction is supported by the evidence, and the
instruction correctly states the law.” United States v.
Faulkner, 636 F.3d 1009, 1020 (8th Cir. 2011) (citation
omitted). “[A]lthough district courts exercise wide
discretion in formulating jury instructions, when the
refusal of a proffered instruction simultaneously denies
a legal defense, the correct standard of review is de
novo.” United States v. Bruguier, 735 F.3d 754, 757
(8th Cir. 2013) (en banc) (alteration in original)
(emphasis omitted) (quoting United States v. Young,
613 F.3d 735, 744 (8th Cir. 2010)).
William (and Junior and Senior) moved for a
multiple conspiracies instruction that mirrored Eighth
Circuit Model Criminal Jury Instruction 5.06B. The
proffered instruction read:
The indictment charges that the defendants
were members of one single conspiracy to
commit the crime of Conspiracy to Distribute
Cocaine and Cocaine Base.

App. 14
The government must convince you beyond a
reasonable doubt that each defendant was a
member of the conspiracy to commit the crime of
(insert name of crime), as charged in the
indictment. If the government fails to prove this
as to a defendant, then you must [find] that
defendant not guilty of the conspiracy charge,
even if you [find] that he was a member of some
other conspiracy. Proof that a defendant was a
member of some other conspiracy is not enough
to convict.
But proof that a defendant was a member of
some other conspiracy would not prevent you
from returning a guilty verdict, if the
government also proved that he was a member
of the conspiracy to commit the crime of
Conspiracy to Distribute Cocaine and Cocaine
Base, as charged in the indictment.
[A single conspiracy may exist even if all the
members did not know each other, or never met
together, or did not know what roles all the
other members played. And a single conspiracy
may exist even if different members joined at
different times, or the membership of the group
changed. Similarly, just because there were
different subgroups operating in different places,
or many different criminal acts committed over
a long period of time, does not necessarily mean
that there was more than one conspiracy. These
are factors you may consider in determining
whether more than one conspiracy existed.]

App. 15
R. Doc. 249, at 48-49 (bracketed paragraph in original).
This proffered instruction was timely offered and
correctly states the law. Therefore, the only issue we
must decide is whether this instruction was supported
by the evidence. We find that it was not.
“Whether a given case involves single or multiple
conspiracies depends on ‘whether there was “one
overall agreement” to perform various functions to
achieve the objectives of the conspiracy.’” United States
v. Radtke, 415 F.3d 826, 838 (8th Cir. 2005) (quoting
United States v. Massa, 740 F.2d 629, 636 (8th Cir.
1984)).
To determine whether multiple conspiracies
exist when a single large conspiracy has been
charged by the government, this Court considers
the totality of the circumstances, “including the
nature of the activities involved, the location
where the alleged events of the conspiracy took
place, the identity of the conspirators involved,
and the time frame in which the acts occurred.”
United States v. McCarthy, 97 F.3d 1562, 1571 (8th
Cir. 1996) (citation omitted). “A single conspiracy may
be found when the defendants share a common overall
goal and the same method is used to achieve that goal,
even if the actors are not always the same.” United
States v. Gilbert, 721 F.3d 1000, 1005 (8th Cir. 2013)
(quoting United States v. Bascope-Zurita, 68 F.3d 1057,
1061 (8th Cir. 1995)). Additionally, “[t]he fact ‘that a
number of separate transactions may have been
involved . . . does not establish the existence of a
number of separate conspiracies.’” United States v.
Spector, 793 F.2d 932, 935 (8th Cir. 1986) (second

App. 16
alteration in original) (quoting United States v.
Brewer, 630 F.2d 795, 799 (10th Cir. 1980)).
At trial, an agent involved in the investigation
testified for the government. That agent explained that
he wiretapped N.S.’s phone and discovered that Junior
was N.S.’s supplier. N.S. also testified for the
government. During his testimony, N.S. explained that
he would buy cocaine from William when he was
unable to reach Junior. Although William alleges that
this indicates the existence of a separate conspiracy
between Junior and N.S., we disagree. Junior’s
distributions to N.S. occurred in the same location—
Waterloo, Iowa—during the same time period as the
distributions for which William is charged. In fact,
N.S.’s testimony establishes that Junior and William
were interchangeable: N.S. could get the same product
from William as he could from Junior when Junior was
unavailable. And although William’s identity as
Junior’s brother is not dispositive to our analysis, his
familial relationship to Junior—a co-defendant in this
case—is something we may consider. McCarthy, 97
F.3d at 1571. Because the location and time of the
transactions between N.S. and Junior—as well as the
identity of the persons involved and the product being
sold—support the government’s theory of a single
conspiracy, we find that the district court did not err in
denying a multiple conspiracies instruction.
4.
Finally, William challenges the district court’s
application of witness intimidation and aggravated role
enhancements to his United States Sentencing

App. 17
Guidelines offense level. He also challenges the
substantive reasonableness of his sentence.
First, William argues that the evidence did not
support an aggravating role enhancement because he
was a low-level, occasional drug dealer. “We review de
novo the district court’s construction and application of
the Sentencing Guidelines, and we review for clear
error its factual findings regarding enhancements.”
United States v. Wintermute, 443 F.3d 993, 1004 (8th
Cir. 2006). The Guidelines allow for a four-level
sentence enhancement “[i]f the defendant was an
organizer or leader of criminal activity that involved
five or more participants or was otherwise extensive
. . . .” USSG § 3B1.1(a).
To distinguish an organizer or leader from a
manager or supervisor, the court may consider:
(1) the exercise of decision[-]making authority,
(2) the nature of participation in the commission
of the offense, (3) the recruitment of accomplices,
(4) the claimed right to a larger share of the
fruits of the crime, (5) the degree of participation
in planning or organizing the offense, (6) the
nature and scope of the illegal activity, and
(7) the degree of control and authority exercised
over others.
United States v. Gaye, 902 F.3d 780, 790 (8th Cir.
2018).
William’s Presentence Investigation Report (PSR)
noted that officers intercepted a phone call in which
William discussed not only who worked for him, but
also how much he paid those that worked for him.

App. 18
William objected, stating, “[William] notes that he does
not recall the intercepted phone calls being played
during the jury trial and that his discussions regarding
paying workers may have been in regards to the
employees who were paid for their work at his
[construction] business . . . .” R. Doc. 429, at 7. William
again objected to this at his sentencing hearing,
stating, “[W]e disagree with the witness intimidation,
the two levels there, and with the four levels for
aggravating role.” R. Doc. 539, at 2. At this time, the
court recognized William’s objection, stating, “The
defense objects to the witness intimidation and role in
the offense. Both of those enhancements are the
government’s burden by a preponderance of the
evidence.” R. Doc. 539, at 2.
Where a defendant objects to facts included in his
PSR, the court has an obligation to make a factual
finding on the disputed issue. United States v.
Camacho, 348 F.3d 696, 700 (8th Cir. 2003). “In
making its finding, the district court is bound to do so
on the basis of the evidence and not the presentence
report because the presentence report is not evidence
and not a legally sufficient basis for making findings on
contested issues of fact.” Id. (quoting United States v.
Stapleton, 268 F.3d 597, 598 (8th Cir. 2001)). “We
recognize that the Sentencing Guidelines do not
mandate a full evidentiary hearing when a defendant
disputes a PSR’s factual representation. But some
investigation and verification of the disputed
statements in the PSR is required.” Stapleton, 268 F.3d
at 598 (citation omitted). Further, the court may make
“its findings with respect to the disputed [facts] based

App. 19
on the evidence at trial.” United States v. Theimer, 557
F.3d 576, 578 (8th Cir. 2009).
At William’s sentencing hearing, an officer with the
Waterloo Police Department testified that Carter “had
been middling crack cocaine for William Campbell a
little over a year and up to four times a month and
anywhere from one to four ounces each trip.” R. Doc.
539, at 6. The government also called Officer Furman
as a witness. Officer Furman testified that the
organizational structure of the Campbell family
business, ascertained via wiretapped communications,
consisted of Junior and Senior “at the top” with
William operating as a retail distributor to others. R.
Doc. 539, at 4. Officer Furman also testified that,
through wiretapped calls, investigators learned that
individuals would call William to find crack cocaine.
One audio recording (a government exhibit played
at William’s sentencing hearing) depicted an
unidentified individual calling William “looking for
work.” R. Doc. 539, at 4. Although this could support
William’s claim that he was simply a leader within a
legitimate construction business, the government
presented evidence disputing this claim. Government
counsel asked Officer Furman, “[A]s part of this
investigation, have you seen any evidence indicating
that [William] was operating a construction business?”
to which Officer Furman replied, “No.” R. Doc. 539, at
4. Government counsel specifically asked Officer
Furman whether, during surveillance, the investigators
saw William “meeting with others that looked like they
were doing construction work” or “with either a vehicle
or construction related items” to which Officer Furman

App. 20
replied, “No.” R. Doc. 539, at 4. On cross-examination,
defense counsel asked Officer Furman, “So when
[William] talks about people working for him and talks
about jobs, is that in reference to his business?” R. Doc.
539, at 5. Counsel clarified, stating, “His rehabilitation
business that worked on houses and so forth.” R. Doc.
539, at 5. Officer Furman responded, “We didn’t see
any evidence of that while we were doing the
investigation.” R. Doc. 539, at 5.
At trial, the government introduced as exhibits
intercepted text messages between William and a
supply source in Chicago, Illinois, in which William
negotiated the purchase price for a pound of cocaine.
Officer Furman also testified to these messages’
content. Intercepted phone conversations showed that
William was the supply source for Carter and others.
Further, the government introduced wiretapped calls
in which William used coded language to discuss “cuts”
of profits between him, Junior, and Senior. This trial
evidence demonstrates that William had decisionmaking authority in the narcotics’ distribution and
purchase price and that he claimed a right to a “cut” of
the profits to be shared between him, his brother, and
his father. It is also apparent (through William’s
discussions with the Chicago supplier, specifically) that
he facilitated the transport of out-of-state narcotics to
the Waterloo area for distribution. He then directed
that distribution by employing other members of the
organization—like Carter—to distribute the narcotics
on his behalf. After carefully considering this evidence,
we find that the district court did not clearly err in
finding that William served as an organizer or leader
of the organization. Gaye, 902 F.3d at 790.

App. 21
Next, William argues the district court’s two-level
witness intimidation enhancement was unsupported by
the evidence. USSG § 2D1.1(b)(16) provides, in part, “If
the defendant receives an adjustment under § 3B1.1
(Aggravating Role) and the offense involved . . . witness
intimidation . . . increase by 2 levels.” As discussed
above, William did receive an adjustment under
§ 3B1.1 and was therefore eligible for an enhancement
under § 2D1.1(b)(16).
At trial, A.M. (a government witness) testified that
William threatened him for wearing a wire. When
cross-examined about this threat, A.M. was unable to
recall the exact date of the threat but testified that it
occurred sometime in 2018. William argues that A.M.’s
testimony was not credible, but any assessment of a
witness’s credibility is within the “province of the trial
court” and, on appeal, that credibility finding is
“virtually unreviewable.” United States v. Heath, 58
F.3d 1271, 1275 (8th Cir. 1995). The district court
heard A.M.’s testimony and found it to be credible, and
we do not disturb that finding. And, because the
district court found that William had intimidated a
witness, it did not err by applying a two-level
enhancement under § 2D1.1(b)(16).
Finally, William asserts that his sentence is
substantively unreasonable because the district court
did not properly consider the sentencing factors under
18 U.S.C. § 3553(a). Specifically, referring to the
sentence imposed on Junior and Senior, William claims
the district court did not properly consider § 3553(a)(6),
which requires courts to consider “the need to avoid
unwarranted sentence disparities among defendants

App. 22
with similar records who have been found guilty of
similar conduct.”
“This [C]ourt
reviews the substantive
reasonableness of a sentence for abuse of discretion.”
United States v. Funke, 846 F.3d 998, 1000 (8th Cir.
2017). A district court abuses its discretion where it
“fails to consider a relevant factor that should have
received significant weight”; “gives significant weight
to an improper or irrelevant factor”; or “considers only
the appropriate factors but in weighing them commits
a clear error of judgment.” Id. (quoting United States v.
Farmer, 647 F.3d 1175, 1179 (8th Cir. 2011)).
While William received a four-level enhancement,
Junior and Senior received a three-level enhancement
and no enhancement, respectively, for their roles in the
criminal activity. However, “[t]he statutory direction to
avoid unwarranted disparities among defendants, 18
U.S.C. § 3553(a)(6), refers to national disparities, not
differences among co-conspirators.” United States v.
Pierre, 870 F.3d 845, 850 (8th Cir. 2017).
Further, any broader claim of substantive
unreasonableness William presents also must fail.
“Where, as here, a sentence imposed is within the
advisory guideline range, we typically accord it a
presumption of reasonableness.” United States v.
Scales, 735 F.3d 1048, 1052 (8th Cir. 2013) (quoting
United States v. Deegan, 605 F.3d 625, 634 (8th Cir.
2010)). “[I]t will be the unusual case when [this Court]
reverse[s] a district court sentence—whether within,
above, or below the applicable Guidelines range—as
substantively unreasonable.” United States v.
Feemster, 572 F.3d 455, 464 (8th Cir. 2009) (en banc).

App. 23
Further, “[t]he district court has wide latitude to weigh
the § 3553(a) factors in each case and assign some
factors greater weight than others in determining an
appropriate sentence,” United States v. Bridges, 569
F.3d 374, 379 (8th Cir. 2009), and a defendant’s
disagreement with the district court’s balancing of
relevant considerations does not show that the court
abused its discretion, United States v. Ruiz-Salazar,
785 F.3d 1270, 1273 (8th Cir. 2015).
The district court sentenced William to 360 months,
and his advisory guideline range was 360 months to life
imprisonment. Because the district court imposed the
minimum possible sentence within William’s advisory
guideline range, we presume that the sentence was
substantively reasonable. Scales, 735 F.3d at William
presents no evidence to overcome this presumption.
The court noted William’s criminal history; his status
as a recidivist or career offender; his threat to a
co-defendant and witness; and his status as a leader,
organizer, and recruiter for the organization. It opined
that the mitigating factors were “far outweighed” by
the aggravating factors. R. Doc. 555, at 8. It engaged in
a thorough discussion of William’s history and
characteristics and noted his mental health issues,
substance abuse issues, financial stressors, and regular
gambling habits. Finally, the court—twice—expressly
recognized the § 3553(a) factors and their application,
stating first, “The Court finds no basis for a downward
variance and no basis for a downward departure. I
have analyzed the case using the 3553(a) factors of
Title 18.” R. Doc. 555, at 8. Then, later, “The 3553(a)
factors of Title 18 were analyzed by this Court,
remembering, of course, that I was the trial judge and

App. 24
I had the benefit of additional evidence at the
sentencing hearing back in March.” R. Doc. 555, at 8-9.
Therefore, the district court did not abuse its discretion
in applying the § 3553(a) factors or in imposing the
within-guidelines sentence.
B. Junior’s Appeal
A jury convicted Junior of conspiracy to distribute
cocaine and cocaine base (Count 1) and possession with
intent to distribute cocaine (Count 14). Junior asserts
four claims on appeal: (1) that the district court erred
in denying his motion to suppress the wiretap evidence;
(2) that the district court erred by granting the
government’s motion to sever; (3) that the evidence was
insufficient to sustain his convictions; and (4) that the
district court erred by limiting cross-examination.
1.
Junior first argues that the district court erred in
denying his motion to suppress the wiretap evidence
because the government did not properly minimize
irrelevant communications. The issue of whether
the government properly minimized intercepted
communications “is one of fact, and we review the
district court’s determination under the clearly
erroneous standard.” United States v. O’Connell, 841
F.2d 1408, 1417 (8th Cir. 1988).
Investigators must conduct surveillance “in such a
way as to minimize the interception of communications
not otherwise subject to interception.” 18 U.S.C.
§ 2518(5). Under this statute, investigators must
properly minimize communications which do not
“concern the offense under investigation.” United

App. 25
States v. Macklin, 902 F.2d 1320, 1328 (8th Cir. 1990).
“This provision is nothing more than a command to
limit surveillance as much as possible.” United States
v. Daly, 535 F.2d 434, 441 (8th Cir. 1976).
When determining whether the government
complied with 18 U.S.C. § 2518(5)’s minimization
mandate, we ask whether its conduct was reasonable
by applying an objective reasonableness standard. Id.
Our inquiry looks to several factors, including the
criminal activity’s scope, the investigating agents’
reasonable expectations of the communications’
content, the authorizing judge’s continuing judicial
supervision, the communications’ length and origin,
and whether the speakers relied on coded or ambiguous
language. Macklin, 902 F.2d at 1328; see also Daly, 535
F.2d at 441-42.4 In Scott v. United States, 436 U.S. 128,
139-40 (1978), the Supreme Court emphasized the
flexibility of this inquiry:
Because of the necessarily ad hoc nature of any
determination of reasonableness, there can be no
inflexible rule of law which will decide every
case. The statute does not forbid the interception
of all nonrelevant conversations, but rather
instructs the agents to conduct the surveillance
in such a manner as to “minimize” the
interception of such conversations. Whether the
agents have in fact conducted the wiretap in

4

In Daly, we explained that although these factors are instructive,
“[w]e do not imply that a trial or reviewing court should not
consider other factors in cases presenting different circumstances.”
535 F.2d at 441.

App. 26
such a manner will depend on the facts and
circumstances of each case.
Here, the district court included in its wiretap order
instructions to investigators to minimize the number of
communications intercepted that did not relate to the
investigation. Officer Furman testified that, to comply
with the court’s minimization instructions, the AUSA
created a team of investigators responsible for
minimization. This minimization team was responsible
for monitoring the voice and text communications from
the target cell phones, and no investigator could
participate as a member of this team until receiving
these instructions. This team intercepted phone calls in
real time and determined their relevance; it ceased
listening to and recording irrelevant calls. When the
team believed a call might be relevant, it would
forward that call to the drug task force which would
then listen and independently determine its relevance.
If a drug task force investigator deemed the call
irrelevant, the investigator would stop listening to the
call and instead intermittently spot check the call to
determine whether the call had become relevant. The
minimization team also employed procedures specific
to their interception of text communications: if the
team found that an intercepted text message was
irrelevant to the investigation, it did not forward that
message to drug task force investigators.
After reviewing this record, we agree with the
district court that the government properly complied
with 18 U.S.C. § 2518(5)’s minimization mandate. The
surveilled criminal activity was expansive, stretching
from April 2015 to March 2017, involving multiple

App. 27
individuals and numerous drug transactions. Drug task
force agents were not privy to irrelevant
communications except for those that they
spot-checked. In Daly, this Court found that
investigators substantially complied with § 2518 where
their only exposure to irrelevant communications was
through spot-checking. 535 F.2d at 441-42 (“We
recognize that monitoring agents are not gifted with
prescience. . . . Because even innocent conversations
often times turn to criminal matters, spot-checking of
such conversations is permissible especially in a case
such as this involving a broad scope of criminal activity
and a sophisticated criminal element.” (citation
omitted)). Additionally, the district court was apprised
of the investigation and its minimization: The
government asked for an extension of the court’s
wiretap order four times and each time presented
evidence of the communications that they had
intercepted. These minimization techniques were
objectively reasonable, and because of this, the district
court did not err in denying Junior’s motion to
suppress.
2.
Junior next argues that the district court erred by
granting the government’s motion to sever the trial of
co-defendants J.P. and Carter from that of Junior and
the other defendants because it did so only one month
prior to the scheduled trial date and because the
government did not show that actual prejudice,
sufficient to outweigh the strong preference for a joint
trial, would occur absent severance. Rule 14 of the
Federal Rules of Criminal Procedure permits severance

App. 28
of defendants’ trials where the moving party would be
prejudiced by a joint trial. “The general rule is that
persons charged in a conspiracy should be tried
together, particularly where proof of the charges
against the defendants is based upon the same
evidence and acts.” United States v. Lee, 743 F.2d
1240, 1248 (8th Cir. 1984). However, “[a] motion to
sever rests within a district court’s sound discretion,
and we will not reverse that decision absent a showing
of clear prejudice indicating an abuse of discretion.”
United States v. Garcia, 785 F.2d 214, 220 (8th Cir.
1986).
The government argued that it would incur
prejudice if J.P. and Carter were tried with the other
defendants. J.P.’s and Carter’s statements implicated
Junior, Senior, and William, and because Junior,
Senior, and William would not have been able to
cross-examine J.P. and Carter—their co-defendants—
the statements could not have been admitted in full.
Further, the government argued, the statements could
not have been redacted in a way that would have
comported with the standard set out in Bruton v.
United States, 391 U.S. 123 (1968). Because the
statements were important in proving that a
conspiracy existed, the government argued, severance
was necessary.
In Bruton, the Supreme Court demarcated the
proper function of limiting instructions in joint trials,
explaining that even “clear” instructions are not
“adequate substitute[s]” for a defendant’s right to
cross-examination. Id. at 137. The Eighth Circuit later
explained:

App. 29
[A] defendant’s constitutional rights are violated
when the court admits the out-of-court
statements of a codefendant, which, “despite
redaction, obviously refer directly to someone,
often obviously the defendant, and which involve
inferences that a jury ordinarily could make
immediately, even were the confession the very
first item introduced at trial.”
United States v. Gayekpar, 678 F.3d 629, 636-37 (8th
Cir. 2012) (quoting Gray v. Maryland, 523 U.S. 185,
196 (1998)); see also United States v. Long, 900 F.2d
1270, 1280 (8th Cir. 1990) (“We [have] distinguished
cases where presentation of the redacted statement
draws the jury’s attention to the fact that a name was
omitted and invites the jury to fill in the blank, and
cases where the redacted statement does not invite
speculation.”).
J.P. and Carter both gave detailed statements to
Waterloo police. After Carter was arrested, he stated
that he did not sell drugs but acted as a middleman,
delivering cocaine from a distributor (who he then
identified as “T.R.”) to retail-level dealers. R. Doc. 191,
at 3. However, in a later proffer interview, Carter
identified William as his distributor. In his interview,
Carter characterized the Campbell family as a major
source of cocaine in the Waterloo area and stated that
Senior had provided him with “a lot” of cocaine. R. Doc.
191, at 3. After J.P. was arrested, he made
post-Miranda5 statements to Waterloo police, admitting
his involvement in a drugtrafficking organization and

5

Miranda v. Arizona, 384 U.S. 436 (1966).

App. 30
naming some of his suppliers and customers. R. Doc.
191, at 3. He then worked as a cooperator for the
government and made several controlled payments to
Junior to pay off his drug debts. In a proffer interview,
J.P. named Junior, Senior, and William as members of
the organization, stated that he had first discussed
joining the organization with Junior, and described
purchasing large amounts of cocaine from Junior on
several occasions (which he then distributed for retail
sale). R. Doc. 191, at 4.
The district court was tasked with deciding whether
the government could redact J.P.’s and Carter’s
statements in a way that would not “invite[] the jury to
fill in the blank” or “invite speculation.” Long, 900 F.2d
at 1280. The court found that the statements “[could
not] be sufficiently redacted to comply with the dictates
of Bruton without substantially compromising their
evidentiary value.” R. Doc. 191, at 5. We agree. J.P.’s
and Carter’s statements were crucial to the
government’s case because those statements were
strong evidence of the men’s involvement in the larger
conspiracy. Even when redacted, Carter’s description of
a family prominent in the Waterloo drug trade and
J.P.’s description of his supplier and the controlled
payments he made to that supplier would “invite[] the
jury to fill in the blank” in violation of Bruton. Long,
900 F.2d at 1280. As the district court explained: “The
statements would inevitably ‘le[ad] the jury straight to’
the other Defendants. The government would be forced
to omit them entirely to avoid running afoul of Bruton.
The inability to use the statements, however, would be
a substantial blow to the government’s case, creating
severe prejudice.” R. Doc. 191, at 5-6 (alteration in

App. 31
original) (citation omitted). The government met its
burden of establishing that it would suffer prejudice if
the severance was not granted. Therefore, we affirm
the district court’s severance of J.P. and Carter from
Junior and the other defendants for trial.
3.
Junior also contends that there was insufficient
evidence to sustain his convictions for conspiracy to
distribute cocaine and cocaine base and possession with
intent to distribute cocaine. At the conclusion of trial,
Junior moved for judgment of acquittal or in the
alternative, a new trial. We therefore “review the
sufficiency of the evidence to sustain [this] conviction
de novo, viewing the evidence in the light most
favorable to the jury’s verdict and reversing only
[where] no reasonable jury could have found the
defendant guilty beyond a reasonable doubt.” United
States v. Ramos, 852 F.3d 747, 753 (8th Cir. 2017)
(citation omitted). After reviewing the record, we find
that there was sufficient evidence to sustain Junior’s
convictions.
On appeal, Junior argues that the government
failed to present evidence that he was knowingly
involved in a conspiracy to distribute cocaine and
cocaine base. “To establish that a defendant conspired
to distribute drugs, the government must show that
there was an agreement to distribute drugs, that the
defendant knew of the conspiracy, and that the
defendant intentionally joined the conspiracy.” United
States v. Davis, 826 F.3d 1078, 1081 (8th Cir. 2016).
“The government [does] not need to show a formal
agreement; showing a tacit agreement by

App. 32
understanding proven wholly by circumstantial
evidence or by inferences from the parties’ actions is
sufficient.” United States v. Casas, 999 F.2d 1225, 1229
(8th Cir. 1993) (quoting United States v. Searing, 984
F.2d 960, 964 (8th Cir. 1993)). Merely showing the
defendants’ knowledge of the conspiracy is insufficient,
however; instead, the government must establish
“knowing involvement and cooperation.” Id.
Three different cooperators, who later testified at
trial, arranged to purchase cocaine from Junior. J.P.
made four controlled cash payments to Junior, which
were each captured on an audio recording device and
later played at trial, and at trial, J.P. testified that
these payments were reimbursements for narcotics
that Junior had advanced to J.P. for retail sale. N.S.
testified that he purchased cocaine and cocaine base
from Junior on multiple occasions. Finally, A.M.
testified that he observed Junior delivering a kilogram
of cocaine to another retail dealer. When testifying
about the government’s wiretap of Junior’s phone,
Officer Furman stated that Junior spoke in coded
language—frequently used by narcotics traffickers—
when speaking to co-defendants William and Senior.
Additionally, this wiretap revealed Junior’s
conversations with a narcotics supplier in Texas. In
these intercepted communications, Junior discussed
sending $63,000 to the Texas supplier for cocaine.
Junior then met with an associate assigned to
transport money to Texas. Officers stopped this
associate and, after searching her car, seized $19,600
in cash. Investigators later intercepted communications
between Junior and the Texas supplier in which they
discussed the loss of this seized cash. Finally, after

App. 33
executing several search warrants on Junior’s
residence and Junior’s storage unit, officers recovered
firearms; ammunition; equipment to convert cocaine
into cocaine base with cocaine residue on it; materials
for packaging cocaine for retail sale and chemicals
commonly used as cocaine cutting agents; and a coffee
can with a false bottom containing approximately 37
grams of cocaine base, four grams of powder cocaine,
and cutting agents.
We have explained that a jury’s determination of
witness credibility should not be disturbed absent a
showing that the testimony was implausible on its face.
See Ramos, 852 F.3d at 753 (“[A]ccomplice testimony
need not be corroborated to support a conviction.
Unless the testimony is implausible on its face . . . we
defer to the jury’s determination of whether an
accomplice is credible.” (citation omitted)); see also
United States v. Mallett, 751 F.3d 907, 916 (8th Cir.
2014) (“‘[W]e do not consider attacks on witnesses’
credibility when we are evaluating an appeal based
upon the sufficiency of evidence.’ And ‘[w]e have
repeatedly upheld jury verdicts based solely on the
testimony of co-conspirators and cooperating witnesses,
noting that it is within the province of the jury to
make credibility assessments and resolve conflicting
testimony.’” (second alteration in the original)
(citations omitted)). Junior presents no evidence that
the cooperators’ testimony was implausible on its face,
and we therefore defer to the jury’s determination of
credibility.
As to Junior’s possession conviction, he claims that
the government failed to produce sufficient evidence of

App. 34
his knowledge of the controlled substance to support a
theory of constructive possession. Specifically, Junior
asserts that the government failed to present evidence
that he knew of the coffee can (with a false bottom
containing approximately 37 grams of cocaine base, 4
grams of powder cocaine, and cutting agents) or that he
used the storage unit from which officers seized the
can.
Constructive possession exists where a person has
knowledge of the presence of contraband and control
over that contraband. United States v. Wright, 739
F.3d 1160, 1168 (8th Cir. 2014). “Evidence showing a
person has ‘dominion over the premises in which the
contraband is concealed’ establishes constructive
possession.” Id. (quoting United States v. Ojeda, 23
F.3d 1473, 1475 (8th Cir. 1994)). At trial, the
government presented evidence that Junior had rented
the storage unit, that officers found mail addressed to
Junior inside the unit, and that officers found a receipt
for the unit in Junior’s residence. Further, one of
Junior’s own witnesses testified that she gave Junior
the coffee can. Finally, the cutting agents found in the
can’s false bottom were the same kind of cutting agents
recovered from the search of Junior’s residence. In light
of this evidence, we cannot say that no reasonable jury
could find Junior guilty under a theory of constructive
possession. Ramos, 852 F.3d at 753. Therefore, after
reviewing the government’s evidence presented, we
conclude that Junior’s convictions are supported by
sufficient evidence.

App. 35
4.
Finally, Junior claims that the district court erred
by limiting crossexamination of the government’s
cooperating witnesses. For the reasons discussed above,
see supra Section II.A.2, we find that the district court
did not err.
C. Carter’s Appeal
A jury convicted Carter of conspiracy to distribute
cocaine and cocaine base (Count 1) and possession with
intent to distribute cocaine base (Count 13). Carter
presents three claims on appeal: (1) the district court
erred by denying his request for a buyer-seller
instruction; (2) there was insufficient evidence to
sustain his convictions; and (3) his sentence is
substantively unreasonable.
1.
First, Carter claims that the district court erred by
denying his request for a buyer-seller jury instruction
because, contrary to the government’s theory, only a
buyer-seller relationship existed between him and the
Campbell family. As explained above, see supra Section
II.A.3, we apply a de novo standard where the district
court’s refusal of a proffered jury instruction
simultaneously denies a legal defense. Bruguier, 735
F.3d at 757. After reviewing de novo the government’s
evidence, we find that the district court did not err in
denying Carter’s request for a buyer-seller instruction.
This Court recently emphasized that a buyer-seller
instruction is only appropriate in limited
circumstances. See United States v. Harris, 966 F.3d

App. 36
755, 761 (8th Cir. 2020) (“But we have emphasized that
such buyer-seller cases involve only evidence of a single
transient sales agreement and small amounts of drugs
consistent with personal use.” (quoting United States
v. Shelledy, 961 F.3d 1014, 1019 (8th Cir. 2020)).
Where there is evidence that a defendant engaged in
multiple sales of large quantities of narcotics, a
buyer-seller instruction is inappropriate. Id.; see also
United States v. Conway, 754 F.3d 580, 592 (8th Cir.
2014) (“Where the conspiracy involves large quantities
of drugs and significant interaction between dealers
and users over an extended period of time, the
instruction is inappropriate.”).
In January 2017, law enforcement conducted a
traffic stop of Carter after he left William’s residence.
During that stop, officers seized 12.94 grams of crack
cocaine; a government witness testified at trial that
this amount of cocaine is not consistent with a
drug-user but rather, a drug-trafficker “just by the
sheer volume of it.” R. Doc. 549, at 107-108. Further, at
Carter’s trial, the government presented a cooperating
witness who testified that he first bought crack cocaine
from Carter in 2015 or 2016 and continued buying from
him until Carter’s 2017 traffic stop and arrest. The
witness explained that he purchased crack cocaine
from Carter almost every day—sometimes twice a day.
That witness further testified that Carter acted as a
middleman: Carter obtained cocaine from William,
which he then sold to the witness. The government also
presented an investigator who testified that a search of
Carter’s residence uncovered items consistent with
drug trafficking: a scale and a large number of baggies.
Most telling, perhaps, is the multitude of phone

App. 37
conversations and text messages exchanged between
Carter and William and introduced by the government
at trial: in them, the two men discussed the availability
of cocaine; disruptions in the narcotics supply chain; a
third, unidentified person who owed Carter money; and
William offering Carter a decreased price because of his
bulk cocaine purchase. Further, these exhibits revealed
that Carter had his own customers.
This evidence does not support a buyer-seller
instruction. Instead, the evidence portrays multiple
drug sales spanning an extended period of time and
involving multiple transactions of drug amounts much
larger than those required for personal use. Harris, 966
F.3d at 761; Conway, 754 F.3d at 592. Carter
maintains that the 93 text messages and 92 phone calls
exchanged between him and the Campbells and
intercepted via wiretap were not indicative of his
involvement in the conspiracy, but rather, were
indicative of his familial relationship to the Campbell
family: one of Carter’s children is married to one of the
Campbell children. However, the phone calls and text
messages introduced do not support this claim because,
in each, the two men discuss narcotics sales. However,
even if we assume that Carter is correct, a buyer-seller
instruction would still be inappropriate in light of the
other evidence presented at trial. Therefore, we find
that the district court did not err in denying a
buyer-seller instruction.
2.
Carter next alleges that there was insufficient
evidence to support his convictions for conspiracy to
distribute cocaine and cocaine base and possession with

App. 38
intent to distribute cocaine base. Because Carter did
not move for acquittal at the close of the government’s
case, at the close of all evidence, or after the jury’s
verdict, “we reverse only if the district court, in not sua
sponte granting judgment of acquittal, committed plain
error.” United States v. Calhoun, 721 F.3d 596, 600
(8th Cir. 2013). Plain error only exists where the
district court’s error affected the defendant’s
substantial rights and “seriously affect[ed] the fairness,
integrity, or public reputation of judicial proceedings.”
Id.
Carter cannot meet that high standard here. The
government “must [only] show that there was an
agreement to distribute drugs, that the defendant
knew of the conspiracy, and that the defendant
intentionally joined the conspiracy.” Davis, 826 F.3d at
1081. As we explained supra Section II.B.3, the
government need not show a formal agreement to
sustain a conspiracy conviction. Casas, 999 F.2d at
1229. Carter argues that the evidence was insufficient
to support a conspiracy conviction because only a
buyer-seller relationship existed between him and the
Campbells. However, as we discussed above, see supra
Section II.C.1, the evidence supports the finding that
his relationship with the Campbells exceeded that of a
buyer-seller, and therefore, this argument fails.
Further, Carter argues that the government’s
evidence was insufficient to support his conviction for
possession with intent to distribute cocaine base. To
convict a defendant of possession with intent to
distribute a controlled substance, the government must
prove beyond a reasonable doubt that the defendant

App. 39
“both knowingly possessed and intended to distribute
the drugs.” United States v. Morales, 813 F.3d 1058,
1065 (8th Cir. 2016) (citation omitted). When
explaining why the evidence was insufficient to support
his conviction for possession with intent to distribute
cocaine base, Carter simply argues that evidence
presented at trial on Count 13 is “inextricably
intertwined” with the evidence for Count 1. Again,
because his relationship with the Campbells was much
more extensive than that of a buyer-seller, this
argument fails. We conclude that the evidence was
sufficient to support Carter’s conviction.
3.
Finally, Carter argues that his sentence is
substantively unreasonable. Specifically, Carter argues
that the district court erred in denying his motion for
a downward variance and that the court failed to
adequately consider mitigating factors. As explained
above, see supra Section II.A.4, we review substantive
reasonableness under an abuse of discretion standard.
Funke, 846 F.3d at 1000.
The district court sentenced Carter to a
within-guidelines sentence of 360 months. Because this
sentence is within the advisory guideline range, we
presume it to be reasonable. Scales, 735 F.3d at 1052.
Carter alleges the district court did not adequately
consider mitigating factors and, as a result, incorrectly
denied Carter’s motion for a downward variance.
However, the district court specifically explained that
a downward variance was inappropriate because the
“aggravating factors far outweigh[ed] the mitigating
factors.” R. Doc. 565, at 12. The district court looked at

App. 40
Carter’s “many” state court drug convictions and noted
that he is a “recidivist drug dealer.” R. Doc. 565, at 12.
Carter suggests that the court did not consider his
battle with substance abuse issues, but the court noted
its “hope” that Carter would request assistance with
his “serious substance abuse history.” R. Doc. 565, at
13. As we have previously explained, “[s]imply because
the district court weighed relevant factors . . . more
heavily than [the defendant] would prefer does not
mean the district court abused its discretion.” Farmer,
647 F.3d at 1179. The district court exercised its wide
latitude, Goodson, 569 F.3d at 379, and found that 360
months was appropriate after “considering each and
every factor under 18 United States Code Section
3553(a),” R. Doc. 565, at 13. We conclude that the
district court did not abuse its discretion in sentencing
Carter.
D. Senior’s Appeal
A jury convicted Senior of conspiracy to distribute
cocaine and cocaine base (Count 1) and distribution of
cocaine base (Count 3). Senior asks this Court to
consider three contentions on appeal. First, he
contends the district court erred in denying his
requests for a multiple conspiracies and a buyer-seller
instruction. Second, he argues there was insufficient
evidence to support his convictions. Finally, Senior
claims the district court erred in denying his motion for
a new trial.
1.
First, Senior argues the district court erred in
denying his requests for a multiple conspiracies jury

App. 41
instruction and for a buyer-seller jury instruction.
Because above, see supra Sections II.A.3 and II.C.1, we
discussed the applicable law in great detail, we do not
engage in that analysis again, here. Rather, we look
only to the facts unique to Senior’s trial, applying de
novo review. Bruguier, 735 F.3d at 757.
Like William, Senior argues that N.S.’s testimony
evidences a separate conspiracy between N.S. and
Junior. Again, we disagree. At trial, the government
presented robust evidence indicating that Senior was
a member of the same conspiracy as N.S. and Junior.
A cooperator for the Waterloo police, using a
cooperating witness and $200 of preserialized bills,
purchased cocaine base from Senior while wearing a
recording device. At trial, that cooperator identified
Senior as the supplier who sold cocaine base to him
during the controlled buy. A different cooperator
testified that he had observed Senior and Junior
delivering a kilogram of cocaine to another member of
the organization. Further, wiretap evidence revealed
that Senior was aware that he was under investigation;
during intercepted communications between Junior
and Senior, the two men referred to the “task” and its
surveillance of Junior. The nature of Senior’s
activities—i.e., the sale of cocaine and cocaine base—
are identical to that of the other co-conspirators
charged. Like N.S., Junior, William, and Carter, Senior
operated within the Waterloo area. Further, he
frequently communicated—in coded language—with
the other conspirators. Because the nature of his
activities, the location in which he operated, and the
identity of the persons involved are virtually identical

App. 42
to that in Junior’s case, the evidence supports the
government’s single-conspiracy theory.
Senior also claims that he and N.S. did not know
one another. Even if this is true, it does not defeat the
government’s single conspiracy theory. “Furthermore,
‘[a] conspirator . . . need not know all of theconspirators
orbe aware of all the details of the conspiracy, so long
as the evidence is sufficient to show knowing
contribution to the furtherance of the conspiracy.’”
United States v. Johnson, 719 F.3d 660, 666 (8th Cir.
2013) (alterations in original) (citation omitted); see
also United States v. Benford, 360 F.3d 913, 914 (8th
Cir. 2004) (“A single conspiracy may exist even if the
participants and their activities change over time, and
even if many participants are unaware of, or uninvolved
in, some of the transactions.” (emphasis added)).
Therefore, we affirm the district court’s denial of
Senior’s request for a multiple conspiracies instruction.
Additionally, because the evidence evinces Senior’s
role—one involving multiple transactions and a large
quantity of narcotics sold—a buyer-seller instruction
was also inappropriate, and the district court did not
err in denying the proffered instruction. Harris, 966
F.3d at 761.
2.
Senior next argues that the evidence presented at
trial was insufficient to support his convictions for
conspiracy to distribute cocaine and cocaine base and
distribution of cocaine base. Senior moved for acquittal
after the close of the government’s evidence—and
renewed that motion at the close of Junior’s evidence—

App. 43
but the district court denied it. We therefore conduct
de novo review. Ramos, 852 F.3d at 753.
We have previously discussed the government’s
burden to sustain a conspiracy conviction, supra
Section II.B.3, and we do not reiterate that here. To
sustain a conviction for the distribution of a controlled
substance, the government must prove beyond a
reasonable doubt that the defendant “intentionally
transferred cocaine base to another person” and that,
at the time of the transfer, the defendant knew he was
dealing a controlled substance. See, e.g., United States
v. Thompson, 686 F.3d 575, 582 (8th Cir. 2012).
Senior claims that because the controlled buy,
previously discussed supra Section II.D.1, was not
observed, videoed, or photographed, and because the
preserialized money was never recovered, it cannot
support his convictions. We disagree. Although officers
observed the wrong car during the controlled buy, the
cooperator wore an audio recording device, an officer
testified at trial that the voice on the recording was
that of Senior, and the cooperator who participated in
the buy also identified Senior (at trial) as the supplier
during that buy.
Senior also challenges the credibility of the
government’s witnesses. For example, he challenges
Officer Furman’s credibility and asserts Officer
Furman’s interpretation of Senior, Junior, and
William’s coded language is “speculative.” However, as
we discussed supra Section II.B.3, we do not consider
attacks on witness credibility when evaluating the
sufficiency of the evidence, and the jury’s credibility
determinations of cooperating witnesses will not be

App. 44
disturbed absent evidence that the testimony was
implausible on its face. Mallett, 751 F.3d at 916;
Ramos, 852 F.3d at 753. Senior presents no evidence
indicating that the cooperator’s testimony was
implausible on its face, and therefore, we leave the
jury’s credibility determination undisturbed. Further,
the abundance of evidence against Senior, which we
outlined in our discussion of the district court’s denial
of Senior’s requested multiple conspiracies instruction,
is also relevant here. See supra Section II.D.1. After
reviewing the record, we find that the government
presented sufficient evidence to support Senior’s
conspiracy and distribution convictions.
3.
Finally, Senior argues that the district court erred
in denying his motion for a new trial. “We review the
denial of a motion for a new trial for an abuse of
discretion.” Southland Metals, Inc. v. Am. Castings,
LLC, 800 F.3d 452, 461 (8th Cir. 2015). In light of our
finding that there was sufficient evidence to sustain
Senior’s convictions, supra Section II.D.2, we similarly
find that the district court did not abuse its discretion
in denying Senior’s motion for a new trial.
III.
For the above-stated reasons, we affirm the district
court in full.
______________________________

App. 45

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
17-CR-2045
JURY TRIAL PROCEEDINGS
VOLUME I
[Filed: June 4, 2019]
[Trial Held: April 20-25, 2018]
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
VS.
)
)
ALSTON RAY CAMPBELL, JR.,
)
ALSTON RAY CAMPBELL, SR.,
)
and WILLIAM MARCELLUS CAMPBELL, )
)
Defendant.
)
__________________________________________)
JURY TRIAL PROCEEDINGS,
HELD BEFORE THE HON. LINDA R. READE,
on the 20th day of April, 2018, at 111 Seventh Avenue
S.E., Cedar Rapids, Iowa, commencing at 8:28 a.m.,

App. 46
and reported by Patrice A. Murray, Certified
Shorthand Reporter, using machine shorthand.
Patrice A. Murray, CSR, RPR, RMR, FCRR
United States District Court
111 Seventh Avenue S.E., Box 4
Cedar Rapids, Iowa 52401-2101
(319) 286-2338
APPEARANCES:
ATTORNEY EMILY K. NYDLE AND RICHARD L.
MURPHY, US Attorney’s Office, 111 Seventh Avenue
S.E., Box 1, Cedar Rapids, Iowa 52401, appeared on
behalf of the United States.
ATTORNEYS ALFRED E. WILLETT AND DILLON
JOHNATHAN BESSER, of the firm of Elderkin &
Pirnie, 316 Second Street S.E., Suite 124, Cedar
Rapids, Iowa 52401, appeared on behalf of Alston Ray
Campbell, Jr.
ATTORNEY BRIAN D. JOHNSON, of the firm of
Jacobsen, Johnson & Wiezorek, 425 Second Street S.E.,
Suite 803, Cedar Rapids, Iowa 52401, appeared on
behalf of Alston Ray Campbell, Sr.
ATTORNEY CLEMENS ERDAHL, of the firm of
Nidey, Peterson, Erdahl & Tindal, 425 Second Street
S.E., Suite 1000, Cedar Rapids, Iowa 52401, appeared
on behalf of William Marcellus Campbell.

App. 47
INDEX
WITNESS

D

C

RD

RC

Kelly Meggers
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl

17

66
46

69

56
63

Samuel Landfair
By Ms. Nydle
By Mr. Willett
By Mr. Erdahl

72
79
81

87

Michael Girsch
By Ms. Nydle

88
EXHIBITS
O

Exhibits 1 through 7 ------------------------------- 89
Exhibit 12 --------------------------------------------- 40
Exhibit 21 --------------------------------------------- 42
Exhibit 23 --------------------------------------------- 92
Exhibit 25 --------------------------------------------- 95
Exhibit 27 --------------------------------------------- 96
Exhibit 129 -------------------------------------------- 20
Exhibit 150 -------------------------------------------- 36
Exhibit 151 -------------------------------------------- 37
Exhibit 152 -------------------------------------------- 38
Exhibit 153 -------------------------------------------- 38
Exhibit 154 -------------------------------------------- 40

R
89
40
42
92
95
96
20
36
37
38
38
40

App. 48
(The following proceedings were held in open court.)
*****
THE COURT: We are outside the presence of the
jury in the case of United States of America versus
Campbell, et al., Case 17-2045, outside the presence of
the jury.
MS. NYDLE: Your Honor, as I mentioned earlier
this morning, there have been some discussion with
regard to proposed defense exhibits. We have
cooperating witnesses. Out of those, four have
cooperation agreements. Earlier, in the form of defense
exhibit notification, we were informed that defense
intends to admit those, and at this point I believe that’s
fully admit them. They contain a large amount of
information that’s concerning. Certainly the fact that
the defendants have -- or the codefendants and
testifying witnesses have cooperation agreements is a
proper area for impeachment, but the admission of
those documents is not proper. There’s also a lot of
issues, including 403-related issues, confusing things in
there about guideline calculations, there’s penalty
sections, it draws a concern that then -- jury
nullification becomes an issue both with regards to
drug quantity as well as a conviction in general. And so
because we have a cooperating witness scheduled for
this afternoon and we weren’t able to work things out,
we thought it would be best to draw it to the Court’s
attention now outside the presence of the jury.
THE COURT: Is the first witness a cooperator?
MS. NYDLE: No, Your Honor. Kelly Meggers will be
testifying first, but the second one is scheduled to be a

App. 49
cooperating witness. And since I assumed we would -Ms. Meggers’ testimony will not take us to the end of
the day, I anticipate the cooperating witness will testify
before the end of the day.
THE COURT: Which of the defendants intended to
offer those? Was that you Mr. Willett?
MR. WILLETT: Your Honor, if it please the Court,
I was going to offer Defendant’s Exhibit C, which has
been supplied to the Court earlier. It’s the plea
agreement for Samuel Landfair. Now, Your Honor, I’ll
be very candid, I’m not sure Mr. Landfair is going to
say much, if anything, about my client. This is really
more -- a larger issue for Mr. Erdahl in his defense of
Mr. William Campbell. The discussions that I had with
Ms. Nydle, which I think were basically e-mail
discussions and maybe one telephone conversation, was
that -- her concern about the paragraph talking about
a polygraph examination, and I’ve been informed -that’s Paragraph 9 of the plea agreement, Your Honor.
I’ve been informed that Mr. Landfair did not take a
polygraph, so if the Court wishes that to be redacted,
that I’m open-minded to. I just didn’t know the Court’s
philosophy on that from the Court during our -- during
my conversations with Ms. Nydle. The rest of the plea
agreement, Your Honor, I think contains paragraphs
that would involve classic cross-examination to dispute
the credibility of Mr. Landfair; the fact that he has a
mandatory minimum sentence, the fact that he’s
cooperating, the fact that based upon his prior criminal
record he would be a career offender and what that
sentence would potentially look like. I believe it’s
present in this plea agreement, Your Honor, that Mr.

App. 50
Landfair had one 851 notice applied to him, which of
course raises another sentencing discussion with Mr.
Landfair. And then, of course, we have the basic
calculations.
Now, I haven’t even gotten to what I think is the
most interesting question about Mr. Landfair’s plea
agreement. I don’t see any paragraph in his plea
agreement for a factual basis. And unless something
has changed drastically very recently that I’m unaware
of, this is the first time in my career I have ever seen a
plea agreement without a factual basis, so -THE COURT: So what?
MR. WILLETT: Well, maybe that’s just curiosity.
THE COURT: I think that’s curiosity, because
there’s no requirement in the law that they have that.
MR. WILLETT: And I can set that aside. But all I
was going to do, Your Honor, is I was going to lay the
proper foundation with Mr. Landfair that this is his
plea agreement, that this is his signature, that these
are his initials next to each paragraph indicating that
he’s read them, that he’s approved them, that they’re
correct, for lack of a better word, and then I was going
to get out of the way and let Mr. Erdahl dive into the
areas that at least Mr. Erdahl and I believe would be
classic areas of cross-examination.
Now, having been told by Ms. Nydle that Mr.
Landfair never took a polygraph exam, after entering
this exhibit, if you want Paragraph 9 redacted, we have
no objection, Your Honor. We have no objection,
because we’re not trying to mislead the jury. The other

App. 51
paragraphs that Ms. Nydle’s concerned about we’re not
in agreement upon, and I don’t think it opens this
Pandora’s box of concerns that Ms. Nydle raised. Now,
I don’t know if Mr. Erdahl wants to add to anything I’m
saying, since I said he’s got a bigger issue in this
particular witness than I do, but that’s the basis of
where we’re at, Judge.
THE COURT: Mr. Erdahl.
MR. ERDAHL: Well, I join with Mr. Willett and
with his arguments, that Exhibit C, which is set forth
as -- and is -- as an exhibit for Alston Campbell, Jr., is
very important to Mr. William Campbell’s case. But I
guess I understand that there was a prior plea, and
that’s part of the unusual nature of this and why
there’s no factual basis here, because he had already
pled, so that is unusual. I don’t think that affects
anything because what we’re really talking about is
that it’s a cooperation plea, that there’s a mandatory
minimum, that he’s a career offender, what his
potential sentence is, the 851 notice not being given -is -- is in the agreement or you could read that in, but
that wasn’t something I was going to dwell on. As far
as any concerns about the public, I mean, I think we
can admit this -- we can admit this under seal, and
then it would go to the jury but it would not be
accessible to the public.
MR. WILLETT: The only thing, if I might add one
thing, Your Honor.
THE COURT: Uh-huh.
MR. WILLETT: Obviously, the Court’s already
instructed this jury on Instruction Number 7, and so

App. 52
the Court has already apprised this jury about plea
agreements with the government, and the Court’s
already apprised this jury that these people may hope
to receive a reduced sentence.
THE COURT: I don’t think that’s really the issue. I
don’t think there’s any question that you can ask a
cooperating witness all the questions you want about
their plea agreement, their agreement with the
government, but it’s quite another thing to put this
document in that has all kinds of other legalese and
provisions in it. So I think it’s fair game to talk about
the sentence they’re facing, if they were career
offenders, and the fact that they’re looking for a
particular -- or they’re looking for a reduction. But I’m
not going to let the document in because there’s all
kinds of other stuff in here that isn’t relevant, and that
will lead to confusion of the jurors. So you can certainly
talk about it but the document, I think, is not going to
be admitted.
MR. WILLETT: Your Honor, so there’s no confusion
to the jury, could we just make a record now that it
would be, on behalf of Alston Campbell, Jr., it would be
the defense’s intent to offer this plea agreement and
the Court, of course, is saying it’s not going to come in,
and we would like to note our objection for the record?
Would that be -THE COURT: That’s fine. And I’m excluding it
under 401 and 403 of the Federal Rules of Evidence.
Again, I am not limiting you into [sic] getting into the
subjects that may be in this plea agreement, but the
agreement itself won’t come in.

App. 53
MR. WILLETT: May I ask one other thing, Your
Honor, just for purposes of knowing how to handle the
witness.
THE COURT: Yeah.
MR. WILLETT: Say, for example, Mr. Landfair
doesn’t remember something. Can his memory be
refreshed by showing him the exhibit?
THE COURT: Sure.
MR. WILLETT: Thank you, Your Honor.
Mr. Erdahl.
MR. ERDAHL: I would just take exception to the
ruling and make that part of the record.
THE COURT: Okay. And keep in mind, I’m not
trying to limit your cross-examination. It’s just the
document itself.
MR. ERDAHL: I completely understand, Your
Honor.
THE COURT: All right. And besides that, it would
be cumulative, so there’s another problem.
Mr. Murphy, did you have -MR. MURPHY: Yeah, just one other thought, Your
Honor. I would ask the Court to direct that the
examination be conducted in such a way that it doesn’t
-- it’s not used in some way to try to compare those
defendants and the penalties they’re facing to the
penalties that these individuals are facing; this is what
I’m talking about. The Court -- as the Court knows, as

App. 54
the Court instructs the jury, punishment is not for
them. The Court typically does not allow any evidence
of what the penalties are. And to the extent they are
saying you’re facing a 5-year mandatory minimum
because you’ve got 28 grams of crack or whatever it is,
that is then extrapolated -- or can be extrapolated by
the jury to determine what the penalty is that applies
in this case, I think is inappropriate. I think -- and so
I would object to anything along those lines, and I
would suggest that really, to the extent that anything
is admissible, it’s really not for impeachment. There’s
nothing here based on impeachment. It goes to bias.
The fact of bias goes to the fact that they are facing an
extended period of imprisonment, period. And as to
what that period of imprisonment is, whether it’s a 5year mandatory minimum or whether it’s a 10 or if an
851 notice was filed, it might have been a 20, or it
might have been this or that, which are legal issues, I
would respectfully ask the Court direct that we don’t
need to get into that; that the question simply is
whether or not the person is facing an extended period
of imprisonment and they’re trying to get a benefit
from that. And beyond that, everything else is
irrelevant, whether it’s a 20-year period of
imprisonment or it’s a 10-year period of imprisonment.
The bottom line is, they’re trying -- from the
defendant’s standpoint, they’re trying to curry favor
with the government in hopes of getting a motion that
will allow them to get a reduced sentence, and that’s it.
THE COURT: Well, because I think that we would
get into potential issues that the jury is not to decide
and that is punishment, that is not admissible, because
it’s the judge alone who makes that decision based on

App. 55
the law as the Court understands it. I will let you
question the witnesses who have agreements as to
whether they’re facing a substantial amount of time.
I’m not going to let you get into the code sections and
the amount of the dope and the 851 notices, because
jurors don’t have that kind of legal background to
introduce those. But you certainly can bring out the
fact that they’re facing a substantial amount of time.
MR. WILLETT: May I ask one clarifying question,
Your Honor?
THE COURT: Yes.
MR. WILLETT: Thank you. And I understand at
this point where the Court is coming from, I am
making the assumption that Mr. Erdahl and I would be
able to ask them if they were facing a mandatory
minimum sentence -THE COURT: Uh-huh.
MR. WILLETT: -- or their understanding of what
the time they are facing right now might be.
THE COURT: Certainly that they are facing a
mandatory minimum is, in my opinion, admissible, but
we do not need to get into the exact amount of time
that they’re facing -MR. WILLETT: Okay. So -THE COURT: -- under 401 and 403.
MR. WILLETT: And obviously, I would ask the
Court to note my objection to the Court’s ruling.
THE COURT: Certainly.

App. 56
MR. WILLETT: And the one other example I’m
going to give because I think it will come up, I believe
there are individuals who will present themselves to
you in this trial who are career offenders, and that is
harkening back to the question I just asked you. Would
Mr. Erdahl be able to discuss, for example: Well,
currently you are looking at this range of time because,
based upon your prior criminal record, you currently
have this label?
THE COURT: I don’t want you to get into the exact
amount of time that anybody is facing; however, it
would certainly be fair game to say or ask the
defendant if that defendant is facing an increased
amount of time in prison because of their prior criminal
history.
MR. WILLETT: Okay.
THE COURT: But I don’t want to get into the
specifics of it.
MR. WILLETT: I understand the Court’s guidance.
But a mandatory minimum sentence, that’s fair game.
THE COURT: Yes.
MR. WILLETT: Thank you, Judge.
THE COURT: All right. Taken care of?
(No response.)
THE COURT: All right. Anybody else?
MR. ERDAHL: So the way to deal with it is without
getting into specific number of months.

App. 57
THE COURT: Right.
MR. ERDAHL: And you are facing an increased
sentence because you’re a career offender or -THE COURT: Or words to that effect.
MR. ERDAHL: -- without getting into any numbers
or the nature of the charge.
THE COURT: Right. And for the jury’s benefit,
career offender might not have meaning, so you may
want to say “because of your extensive criminal
history” or something that this jury will understand
without having an education in federal criminal law.
MR. MURPHY: Well, Your Honor, and again, to
avoid the confusion to the jury, I would ask that the
question be directed towards “You’re facing an
enhanced penalty because of your prior conviction for
X and Z,” which is what career offender is, as opposed
to having them speculate as to what does career
offender mean, if it means you have 47 convictions or
whatever. It’s a very specific term that we understand,
and it’s on account of specific prior convictions.
THE COURT: I think that’s the way to handle it.
MR. ERDAHL: I’m sorry, I thought that’s what Mr.
Murphy was trying to avoid, because then you’re
talking about drug offenses and you’re talking about -I thought the more general approach of just saying
“because of your past record,” you’re doing that would
give -- would tip the jury off less to, you know, what
sentences these gentlemen may be facing.

App. 58
MR. MURPHY: If you want to tip them off less, I’m
all for that.
MR. ERDAHL: Okay, it’s up to the judge but that’s
what I understood, and I wanted to be real specific that
the judge was schooling me on was not to give away
that these were drug charges and so forth; and when
we start talking about specific prior offenses, then
we’re -MR. MURPHY: I think -MR. ERDAHL: -- then we’re telling the jury how
these gentlemen would be sentenced, it seems to me.
THE COURT: Well, I don’t know if any of these
defendants face career offender. I don’t know enough
about them.
MR. MURPHY: Then might I suggest just say “On
account of your prior criminal record”?
MR. ERDAHL: Yeah.
THE COURT: Yeah, “extensive criminal record.”
MR. WILLETT: Your Honor, if it please the Court,
I think the only person you may see today who would
qualify would be Mr. Landfair. And my understanding
is, he may very well qualify as a career offender.
THE COURT: All right. I don’t know.
MR. MURPHY: But the jury doesn’t know what that
is either.
THE COURT: No, and I don’t know anything about
him at this stage. Okay. Ready for the jury.

App. 59
(Whereupon, the jury entered the courtroom.)
THE COURT: Members of the jury, we’re ready to
continue in the United States of America versus
Campbell, et al. This is Case 17-2045. Thank you for
your patience. We ran a little long on the break because
I wanted to take up some things with the lawyers. They
were ready and -- ready to go, but I needed to talk to
them. So thanks for your patience.
All right. We’re now ready to continue with the
trial. And we’re ready for any evidence that the
government would like to offer.
MS. NYDLE: At this time, Your Honor, the
government would call Kelly Meggers.
THE COURT: Good afternoon. Will you please come
forward and take the oath.
KELLY MEGGERS,
called as a witness, being first duly sworn or affirmed,
was examined and testified as follows:
THE CLERK: You may take the witness stand.
DIRECT EXAMINATION
BY MS. NYDLE:
Q. Would you please state your name and spell it for
the record, please.
A. Sure. My name is Kelly Meggers, M-E-G-G-E-R-S.
Q. And where are you currently employed?

App. 60
****
[pp. 81]
Q. Okay. Does that -- does that timeframe sound
appropriate to you, that it was sometime last month?
A. It was somewhere around there.
Q. Okay, okay. Have you had -- have you ever had any
problem or conflict with the Campbell family?
A. No.
Q. Okay, okay.
MR. WILLETT: Judge, thank you.
THE COURT: Mr. Johnson, anything?
MR. JOHNSON: No questions, Your Honor.
THE COURT: Mr. Erdahl?
MR. ERDAHL: Yes, thank you, Your Honor.
CROSS-EXAMINATION
BY MR. ERDAHL:
Q. Good afternoon, Mr. Landfair.
A. How you doing?
Q. So you said you never got any from Alston Senior,
correct?
A. No.
Q. Never got any from Alston Junior?

App. 61
A. No.
Q. And you never got any from William Campbell
either, right?
A. No.
Q. And did you tell Ms. Nydle and the officer on April
13th that Mr. William Campbell was a user of cocaine?
A. That’s the only thing I know him to do. I never seen
him sell drugs.
Q. And you -- in your plea, it indicates that you are
facing a mandatory minimum 10 years, correct?
A. Correct.
THE COURT: All right. You can ask the next
question.
Q. Do you have a -MR. ERDAHL: May we approach, Your Honor?
THE COURT: Yes.
(The following was held at a sidebar.)
THE COURT: All right. We are at sidebar. And let
me see if the defendants have their headsets.
(Defendants indicated.)
THE COURT: All right. The problem is, we talked
on the record, you’re not to bring up any specifics about
time.
MR. ERDAHL: Oh.

App. 62
THE COURT: Yeah. You can say -MR. ERDAHL: Okay. I just -- I was going -- and the
next thing I was going to do is ask enhanced penalty
and try to say it the right way and I thought I could
talk about the mandatory minimum, but I can’t -THE COURT: Yeah, you can say mandatory
minimum, but not any specifics.
MR. ERDAHL: Okay, okay. I just wanted to make
sure. I realized I probably made some kind of mistake.
I didn’t want to make another one, Your Honor.
THE COURT: Okay, all right.
MR. WILLETT: Your Honor, I just want to note my
continuing objection, because I guess I was confused. I
thought we could articulate the amount of time of the
mandatory minimum sentence. What we weren’t
supposed to do was the guideline calculations, advisory
ranges, and getting into the guts of the plea agreement,
so -THE COURT: No.
MR. BESSER: Substantial and mandatories -THE COURT: Substantial and mandatory -MR. WILLETT: Okay, okay.
THE COURT: -- but we don’t want to get into the
number of years, the amount of dope, that sort of thing.
MR. WILLETT: Okay. Just so the record is clear,
Your Honor, on behalf of Mr. Campbell, Jr., I’m just
going to note my continuing objection.

App. 63
THE COURT: All right. And again, you can get in
on cross the fact that he’s facing a mandatory, that he’s
facing a substantial amount of time, but under 401,
403, I’m limiting you on how deep we get into that.
MR. MURPHY: Just so I’m clear on the objection,
you are objecting to the question asked by Mr. Erdahl?
Because she didn’t ask the question.
MR. WILLETT: No. What I am objecting to, but I
guess I was confused, I thought Mr. Erdahl could
articulate the question of a mandatory minimum
sentence of a term of years, and now I understand that
he can ask about a mandatory minimum but he cannot
articulate a term of years.
MR. MURPHY: So you’re objecting for him?
MR. WILLETT: I am objecting on behalf -THE COURT: He’s just trying to clarify.
MR. ERDAHL: To the judge’s ruling, he’s taking
exception to the ruling -MR. MURPHY: Okay.
THE COURT: Okay, thank you.
MR. JOHNSON: Your Honor, I’m sorry, just one
last clarification.
THE COURT: Okay.
MR. JOHNSON: Because we’re all talking in
shorthand, because we all know what mandatory
minimum means, we can say mandatory minimum

App. 64
sentence of imprisonment or anything along those
lines, correct?
THE COURT: Uh-huh, sure.
MR. JOHNSON: Okay, i just wanted to make sure.
MR. WILLETT: Thank you, Your Honor.
(The following was held in open court.)
THE COURT: All right. We’re ready to proceed, Mr.
Erdahl.
MR. ERDAHL: Yes, thank you, Your Honor.
Q. Mr. Landfair, you were facing an enhanced number
of years because of your extensive criminal record; is
that correct?
A. Yes.
Q. Okay. And will you be able -- is there a possibility of
your getting a reduction in the number of years you
were facing if a motion is made by the government on
your behalf?
A. It’s possible.
Q. You’d like that to happen, wouldn’t you?
A. Yes.
Q. Yeah. And is it possible for there to be a reduction
below a mandatory minimum if the right motion is
made by the government?
A. Yes.
Q. Do you have a cousin named Billy Olive?

App. 65
A. Yes.
Q. And do you know whether he worked for Mr. Will
Campbell?
A. I can’t say for sure.
Q. Okay. Are you aware of Mr. Campbell’s business or
properties?
A. He told me something about it.
Q. Do you know whether your cousin worked when he
was on work release at one point? Was he -- did he get
a job when he was on work release?
A. He was working somewhere.
Q. Okay. But you don’t know where?
A. (Indicated negatively.)
THE COURT: Did you answer yes or no?
A. Yes, he was working somewhere.
Q. Okay. And do you know Mr. William Campbell’s
cousin Anthony Cole?
A. Yes.
Q. Okay. And how do you know him?
A. He shot me and my cousin.
Q. So you had a dispute with him some time ago?
A. Yes.

App. 66
Q. Okay. Do you have any grudge against the Campbell
family because of that?
A. No, I don’t even have a grudge against him for it.
MR. ERDAHL: No further questions, Your Honor.
THE COURT: All right. Any redirect?

App. 67
****
[pp. 99]
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
17-CR-2045
JURY TRIAL PROCEEDINGS
VOLUME II
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
VS.
)
)
ALSTON RAY CAMPBELL, JR.,
)
ALSTON RAY CAMPBELL, SR.,
)
and WILLIAM MARCELLUS CAMPBELL, )
)
Defendant.
)
__________________________________________)
JURY TRIAL PROCEEDINGS,
HELD BEFORE THE HON. LINDA R. READE,
on the 23rd day of April, 2018, at 111 Seventh Avenue
S.E., Cedar Rapids, Iowa, commencing at 8:33 a.m.,
and reported by Patrice A. Murray, Certified
Shorthand Reporter, using machine shorthand.
Patrice A. Murray, CSR, RPR, RMR, FCRR
United States District Court
111 Seventh Avenue S.E., Box 4

App. 68
Cedar Rapids, Iowa 52401-2101
(319) 286-2338
APPEARANCES:
ATTORNEY EMILY K. NYDLE AND RICHARD L.
MURPHY, US Attorney’s Office, 111 Seventh Avenue
S.E., Box 1, Cedar Rapids, Iowa 52401, appeared on
behalf of the United States.
ATTORNEYS ALFRED E. WILLETT AND DILLON
JOHNATHAN BESSER, of the firm of Elderkin &
Pirnie, 316 Second Street S.E., Suite 124, Cedar
Rapids, Iowa 52401, appeared on behalf of Alston Ray
Campbell, Jr.
ATTORNEY BRIAN D. JOHNSON, of the firm of
Jacobsen, Johnson & Wiezorek, 425 Second Street S.E.,
Suite 803, Cedar Rapids, Iowa 52401, appeared on
behalf of Alston Ray Campbell, Sr.
ATTORNEY CLEMENS ERDAHL, of the firm of
Nidey, Peterson, Erdahl & Tindal, 425 Second Street
S.E., Suite 1000, Cedar Rapids, Iowa 52401, appeared
on behalf of William Marcellus Campbell.

App. 69
INDEX
WITNESS

D

C

RD

RC

Michael Girsch
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl

231

106

235

184
217
228

Rich Gehrke
By Ms. Nydle
By Mr. Willett

238
253

Eryn Hageman
By Ms. Nydle
By Mr. Willett

256
260

Anna Young
By Ms. Nydle
By Mr. Willett

262
270

John Phillips
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl

306

272
289
299
304

Michael Wempen
By Mr. Murphy
By Mr. Willett

309
321

307

App. 70
Antionne Franklin
By Ms. Nydle
By Mr. Johnson
By Mr. Erdahl

322
331
335

Matthew Isley
By Ms. Nydle
By Mr. Willett
By Mr. Nydle
By Mr. Willett

336
344
347
347

Kyle Bassett
By Ms. Nydle

349

App. 71
EXHIBITS

O

R

Exhibit 29 --------------------------------------------- 108 108
Exhibit 30 --------------------------------------------- 107 107
Exhibit 32 --------------------------------------------- 152 152
Exhibit 40 --------------------------------------------- 111 111
Exhibit 44 --------------------------------------------- 112 112
Exhibit 49 --------------------------------------------- 113 113
Exhibit 59 --------------------------------------------- 118 118
Exhibit 60 --------------------------------------------- 120 120
Exhibit 63 --------------------------------------------- 135 135
Exhibit 64 --------------------------------------------- 136 136
Exhibit 66 --------------------------------------------- 137 137
Exhibit 67 --------------------------------------------- 136 136
Exhibit 68 --------------------------------------------- 140 140
Exhibit 71 --------------------------------------------- 354 354
Exhibit 74 --------------------------------------------- 357 357
Exhibit 75 --------------------------------------------- 127 127
Exhibit 76 --------------------------------------------- 127 127
Exhibit 77 --------------------------------------------- 125 125
Exhibit 78 --------------------------------------------- 129 129
Exhibit 79 --------------------------------------------- 143 143
Exhibit 80 --------------------------------------------- 145 145
Exhibit 81 --------------------------------------------- 150 150
Exhibit 82 --------------------------------------------- 150 150
Exhibit 84 --------------------------------------------- 148 148
Exhibit 85 --------------------------------------------- 151 151
Exhibit 86 --------------------------------------------- 147 147
Exhibits 93 through 95 ---------------------------- 316 316
Exhibit 105 ------------------------------------------- 173 173
Exhibit 106 ------------------------------------------- 175 175
Exhibit 107 ------------------------------------------- 241 241
Exhibit 108 ------------------------------------------- 249 249
Exhibit 109 ------------------------------------------- 250 250

App. 72
Exhibit 110 ------------------------------------------- 362
Exhibit 111 ------------------------------------------- 366
Exhibit 112 ------------------------------------------- 173
Exhibit 113 ------------------------------------------- 160
Exhibit 114 ------------------------------------------- 176
Exhibit 115 ------------------------------------------- 174
Exhibit 116 ------------------------------------------- 177
Exhibit 117 ------------------------------------------- 181
Exhibit 118 ------------------------------------------- 180
Exhibit 119 ------------------------------------------- 181
Exhibit 136 ------------------------------------------- 264
Exhibits 140 and 141 ------------------------------ 249
Exhibit 142 ------------------------------------------- 269

362
366
173
160
176
174
177
181
180
181
264
249
269

App. 73
****
[pp. 282]
Q. Which was where -- or meaning to meet up with law
enforcement officers afterwards?
A. Yes.
Q. And what would you do when you met up with
them?
A. Talk with them.
Q. And would you tell them what had occurred?
A. Yes.
Q. And would you return their equipment?
A. Yes.
Q. And were you then searched?
A. Yes.
Q. And was your car searched?
A. Yes.
Q. Now, when you received substances from Alston
Campbell Junior, was it always in the form of cocaine?
A. Yes.
Q. Were you aware of the quantities that he was
receiving of cocaine?
A. I didn’t know directly or -Q. Did you believe he was receiving in excess of a kilo
at a time?

App. 74
A. I could assume that, but I never got that or -Q. Would -- you mentioned that the three of them
would come to your bar. At times did you have
discussions with William Campbell where he indicated
he had to go to work?
A. Go to work, yes.
Q. And did he mean a legitimate job or did he mean
something else?
A. No, he didn’t have a legitimate job.
Q. What was he doing?
A. Working -- sometimes he did work with his father,
but in his car, probably just out hustling.
Q. “Out hustling” meaning selling cocaine or cocaine
base?
A. Yes.
Q. Did he ever show you any cocaine?
A. No.
Q. Approximately how much cocaine did you receive
between January and the time that you were arrested
or until the search warrants occurred at your bar and
house?
A. 13 ounces.
Q. And that was all from Alston Campbell Junior?
A. Yes.

App. 75
Q. Did you ever see Alston Campbell, Sr., with any
cocaine?
A. No.
Q. Did you hear the three of them discuss the sale of
either cocaine or cocaine base?
A. I never heard the three of them discussing nothing
or nothing of that.
Q. Did you have any discussions with either William
Campbell or Alston Campbell Junior about their sales?
A. Just what I had.
Q. What about Alston Campbell, Sr.?
A. No, never talked to him about it.
Q. Did Alston Campbell, Sr., frequently come to your
bar for the purposes of making change?
A. Junior did.
Q. Junior, pardon me. Explain this -- explain that.
A. I would probably ask for change or he would take
some -- just small bills and change them in for larger
bills because I needed ones or fives during the
weekend.
Q. Do you know why he had a large amount of small
bills?
A. Probably I could assume.
Q. Well, I don’t want you to assume. Do you know why
he had a lot of small bills?

App. 76
A. Probably doing what he was doing.
Q. Which is what?
A. From selling drugs.
Q. Do you know whether he was working with his
father and brother?
A. I didn’t know directly, no.
Q. How frequently would he come to make change with
you?

App. 77
****
[pp. 376]
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
17-CR-2045
JURY TRIAL PROCEEDINGS
VOLUME III
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
VS.
)
)
ALSTON RAY CAMPBELL, JR.,
)
ALSTON RAY CAMPBELL, SR.,
)
and WILLIAM MARCELLUS CAMPBELL, )
)
Defendant.
)
__________________________________________)
JURY TRIAL PROCEEDINGS,
HELD BEFORE THE HON. LINDA R. READE,
on the 24th day of April, 2018, at 111 Seventh Avenue
S.E., Cedar Rapids, Iowa, commencing at 8:29 a.m.,
and reported by Patrice A. Murray, Certified
Shorthand Reporter, using machine shorthand.
Patrice A. Murray, CSR, RPR, RMR, FCRR
United States District Court
111 Seventh Avenue S.E., Box 4

App. 78
Cedar Rapids, Iowa 52401-2101
(319) 286-2338
APPEARANCES:
ATTORNEY EMILY K. NYDLE AND RICHARD L.
MURPHY, US Attorney’s Office, 111 Seventh Avenue
S.E., Box 1, Cedar Rapids, Iowa 52401, appeared on
behalf of the United States.
ATTORNEYS ALFRED E. WILLETT AND DILLON
JOHNATHAN BESSER, of the firm of Elderkin &
Pirnie, 316 Second Street S.E., Suite 124, Cedar
Rapids, Iowa 52401, appeared on behalf of Alston Ray
Campbell, Jr.
ATTORNEY BRIAN D. JOHNSON, of the firm of
Jacobsen, Johnson & Wiezorek, 425 Second Street S.E.,
Suite 803, Cedar Rapids, Iowa 52401, appeared on
behalf of Alston Ray Campbell, Sr.
ATTORNEY CLEMENS ERDAHL, of the firm of
Nidey, Peterson, Erdahl & Tindal, 425 Second Street
S.E., Suite 1000, Cedar Rapids, Iowa 52401, appeared
on behalf of William Marcellus Campbell.

App. 79
INDEX
WITNESS

D

C

RD

RC

Kyle Bassett
By Mr. Willett
By Mr. Erdahl
By Ms. Nydle

407
413

416

Alexander Martin
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl
By Ms. Nydle
By Mr. Willett

418
441
449
456
462
466

Nicholas Berry
By Mr. Murphy
By Mr. Besser
By Mr. Johnson
By Mr. Murphy

467
482
490
491

Jason Feaker
By Mr. Murphy
By Mr. Besser

492
497

Albert Bovy
By Mr. Murphy
By Mr. Erdahl

499
504

App. 80
Nick Smith
By Mr. Murphy
By Mr. Besser
By Mr. Murphy

505
511
512

Jerry Sallis
By Ms. Nydle

514

John Austin
By Ms. Nydle
By Mr. Besser

524
533

Thomas Marshall
By Ms. Nydle
By Mr. Johnson
By Ms. Nydle
By Mr. Johnson

538
548
555
557

Bryan Furman
By Ms. Nydle

558
EXHIBITS
O

Exhibit 51 --------------------------------------------- 470
Exhibits 61 and 62 --------------------------------- 526
Exhibit 69 --------------------------------------------- 528
Exhibit 97 --------------------------------------------- 502
Exhibit 98 --------------------------------------------- 503
Exhibit 130 ------------------------------------------- 559
Exhibits 200 to 203 -------------------------------- 579

R
470
526
529
502
503
559
579

App. 81
Exhibits 225 to 228 -------------------------------- 585
Exhibits 250 to 260 -------------------------------- 590
Exhibits 300 to 317 -------------------------------- 601
Exhibit 318 ------------------------------------------- 607
Exhibit 319 ------------------------------------------- 607
Exhibit 350 ------------------------------------------- 609
Exhibit 351 ------------------------------------------- 609
Exhibit 352 ------------------------------------------- 610
Exhibit 355 ------------------------------------------- 612
Exhibits 356 to 360 -------------------------------- 613
Exhibits 361 to 364 -------------------------------- 616
Exhibit 400 ------------------------------------------- 620
Exhibits 401 to 411 -------------------------------- 621
Exhibits 425 to 427 -------------------------------- 626
Exhibits 450 to 460 -------------------------------- 627

586
590
601
607
607
609
609
610
612
613
616
620
621
626
627

App. 82
****
[pp. 385]
agreements obviously are not going to come in. There
are some other exhibits, and is there any objection to
them? It looks like A, B, C, and D I’ve already covered.
E we’ve already covered, E and E1. And then we’ve got
F, G, H, I, J, K. I’m not sure if those are admissible or
what the purpose of the offer is.
MR. WILLETT: Your Honor, F and G would come in
through Attorney Max Kirk, as well as -- H would come
in through a different witness, H and I, J and K. But
those would come in through defense witnesses.
THE COURT: All right. Is there any dispute on the
admissibility of those that we might be able to handle
this morning?
MS. NYDLE: Your Honor, essentially it comes down
to relevance, and I think until we know what defense’s
theory is, it’s tough for us to comment with regard to
that.
THE COURT: Okay. All right. And, let’s see, Mr.
Erdahl, are you still planning to offer Exhibit A, which
is, it looks like, a Linn County document?
MR. ERDAHL: I don’t know until -THE COURT: Okay.
MR. ERDAHL: The prosecution, Ms. Nydle, knows
what that exhibit is about, and I don’t know whether
that -- she’s going to get into that issue or not. But we
do have an agreement that I don’t have to have the
caretaker, the custodian of the document.

App. 83
THE COURT: All right. There’s no question of the
legitimacy of the document, authenticity?
MS. NYDLE: Yeah, Your Honor, at this point we’re
not concerned about that. It’s just, as Mr. Erdahl
mentioned, whether it becomes relevant based on
testimony of a witness today.
THE COURT: All right. Very fine. Well, then let’s
talk in general about the case and when you want to
argue it.
I’m sorry, Mr. Erdahl, I didn’t mean to ignore you.
MR. ERDAHL: No. I’m very concerned, as you
know, about the schedule and Your Honor, but I do
want to make a little bit more of a record on a legal
matter.
THE COURT: Okay.
MR. ERDAHL: And this is dealing -- I want to
revisit the plea agreements and just clarify the Court’s
ruling, because as the Court knows, we had two rulings
at sidebar and then we had some discussion in the
meantime. I ran afoul of the Court by accident on the
mandatory minimum, mentioning the 10 years. I had
not gotten that I couldn’t talk about that. I must say
that in this case, to some extent, the 10 years seemed
like small potatoes to me. I wasn’t trying to put it out
there to make a point -THE COURT: Understood.
MR. ERDAHL: -- given that the penalties faced by
a couple of these defendants are quite a bit higher, but
I’m trying to avoid any more of that. Yesterday I had

App. 84
an internal debate, because I want -- I was thinking of
refreshing the recollection of the witness who was on
the stand, and in the agreement, it says “mandatory
minimum 10 years,” so I thought, well, I can underline
the mandatory minimum part, cross out the 10 years,
but, of course, then I’m refreshing his recollection with
a document. Then I get to Paragraph 23 and see that
there is a place where it talks about getting a motion to
go below the mandatory minimum and doesn’t talk
about the 10 years, but I was trying to avoid his
inadvertently mentioning a number.
And so just to clarify all of this, it’s my
understanding, with the mandatory minimum and with
the potential sentence under the guidelines, that the
most important thing the Court is trying to avoid is
mentioning a number or, if it were to be life,
mentioning life, and that would go to Mr. Murphy’s
point that because the punishment -- the crimes are
similar, that it might tip off the jury to the punishment
faced by these -- some of these individuals. Am I pretty
much correct on the Court’s ruling on that?
THE COURT: Yes, sir.
MR. ERDAHL: Okay. So -- and the Eighth Circuit
decisions in this support the Court. I just want to make
that clear before I go into my discussion.
THE COURT: Uh-huh.
MR. ERDAHL: We’re facing, as I understand it, a
situation in which this issue is potentially going to the
Supreme Court because of a split in the circuits. As I
understand the briefing, the -- the government is
arguing that there is no split in the circuits and Mr.

App. 85
Wright’s attorney is arguing that there is. So the case
against us -THE COURT: And this is a case that talks about
what can be impeachment material in a plea
agreement; is that it?
MR. ERDAHL: Yeah. And I’m just going -- I think
there’s a short segment I can read that just focuses, but
let me get the case to the Court so you have it right off
the top. United States v. Wright, spelled W-R-I-G-H-T,
866 F.3d 899, 906-07, Eighth Circuit, 2017. And what
they say is, “Here, the Court limited cross-examination
pertaining to Anderson’s potential life sentence because
it was concerned that the jury would realize that
Wright also faced a life sentence if convicted. This
concern was well-founded, as Wright’s counsel
explained to the jury why Anderson would have faced
a life sentence--he had a prior felony drug-dealing
conviction and was charged with conspiracy, the same
situation that Wright faced.”
And so the Court goes on to say “We have previously
held that a federal jury can be informed but not” -- “a
federal jury about a defendant’s punishment would
only introduce improper and confusing considerations
before it.” And so the point goes on, and there’s
discussion in the briefs, is that the danger that the
Eighth Circuit sees, and I believe it’s what Mr. Murphy
was arguing, is that the jury might try to nullify or
otherwise be influenced because of knowing the -thinking it knows the penalty that the defendants
before it are facing, because of the impeachment
mentioning specifically -- and here, the Wright case is
about mandatory life, so it’s very focused.

App. 86
On the other hand, there are two cases that do say
that the confrontation right -- and again, I want to
make it clear that that’s what we are talking about
here. I think when you have the sidebars, it’s hard to
get it articulated.
THE COURT: Sure.
MR. ERDAHL: I’m sure that counsel and the Court
knew we were talking about the confrontation clause.
But that the confrontation clause allows an accused -the information about the witness’ sentencing exposure
would alert the court to the maximum sentence that
the accused could face if convicted. Courts have
generally -- well, let me go to what the -- courts have
generally, I’m sorry, Your Honor, overruled the
prosecution’s objections on grounds of prejudice and
have allowed the accused to impeach the witness with
evidence of his sentencing exposure. That is from
another circuit. I want to make clear; I’m not saying
that the Eighth Circuit has said this at all. And that
would be United States v. Larson, 495 F.3d 1094, 1105,
Ninth Circuit 2007; United States v. Chandler, 326
F.3d 210, 223, Third Circuit 2003.
Again, this is the type of thing that we usually try
to brief and discuss more thoroughly. We’re doing a lot
of heavy lifting in terms of trying the case, but I
wanted to make clear that we are saying that we
should be able to at least get into the nature of the
penalties.
Now, the Court said yesterday in terms of the -- in
terms of career offender, that we could use some
language to say he was facing a much higher sentence

App. 87
because of that, and I think that’s the type of language
that the Eighth Circuit is approving, questions about
decades more. I think in the Wright case, he wasn’t
allowed to say mandatory life but he was allowed to say
decades more.
So but I want to say that, on behalf of William
Campbell, that I believe we should be able to get into
the actual number, that is, the guideline range, that a
defendant understands -- a witness understands he
may be facing in order to explain to the jury or have the
jury be able to discern the extent of the benefit more
specifically and without euphemistic discussion. Short
of that, you know, we can discuss things here or there.
I understand then -- so I want to continue to take
exception to the judge’s rulings. I join with Mr. Willett
on they should be admitted as exhibits, but even if
they’re not admitted as exhibits, that we’d be able to
articulate through cross-examination of the witness the
actual range of penalty the witness understands he
may be facing. I don’t think we’re dealing with
mandatory life here, so we’re not quite at the threshold
level of Wright.
But again, it’s a little bit difficult stance to explain
to the Court at this time, but it seems to me that I need
to preserve this for my client’s sake because the Wright
case might get decided contrary to the Eighth Circuit,
at which point I think we have a potential problem
here, and it’s all based on William Campbell and
perhaps the other defendants’ right to confront and to
do that in a way that they have an informed jury; and
that the right of confrontation would trump the more
remote or existential concern of a jury nullification

App. 88
based on knowledge that is not being argued to the
jury.
And again, in all of these cases, there is discussion
that we do -- as we say very often, and there are many
cases cited for it in the cases that I’ve given to the
Court -- have a right to expect that the jury will follow
the instructions. And so if they were not allowed to, you
know, look at that punishment, they’re not allowed to
look at punishment, and the jury should honor that,
despite hearing or perhaps being able to glean the level
of punishment faced by these defendants.
THE COURT: All right. Thank you. Let me just ask
in general, because I don’t either know the answer or I
don’t remember. Of the cooperating witnesses, is there
anybody who’s actually been sentenced so that the
guidelines have been computed?
MS. NYDLE: No one has been sentenced, Your
Honor. We’re in the process of working through the
PSR process with them.
THE COURT: All right.
MS. NYDLE: And for the Court’s knowledge, Mr.
Landfair, who I believe will be a career offender,
testified. Mr. Martin then faces a 20-year mandatory
minimum. Mr. Phillips faces a 10-year mandatory
minimum, and I believe Mr. Spates is in a similar
situation, with a 10-year mandatory minimum. So -but I believe that Mr. Landfair was our only career
offender.
THE COURT: All right. And there’s certainly
nothing wrong with talking about, which I believe you

App. 89
did, the fact that he’s facing a longer sentence because
of his criminal history or I gave you the permission to
talk about that. What about the Campbells? I don’t
know what their -- how they would compute out or
what the statutory punishment would be for them.
MS. NYDLE: Your Honor, at this point, assuming
that they’re all -- they were all convicted under the
(b)(1)(A), so the most severe penalty, Alston Campbell,
Jr., had no qualifying prior offense so he did not receive
an 851 notice. He’s, therefore, facing a 10-year
mandatory minimum. As noted in our exhibit, Alston
Campbell, Sr., does have a single 851, and he,
therefore, faces a 20-year mandatory minimum. My
calculations of the guidelines put him approximately at
that. William Campbell, on the other hand, we have
calculated as a career offender. As the Court may recall
in the stipulations, it laid out three offenses, but out of
those offenses, all of them indicated they were not first
offenses. My calculations, based on that, put William
Campbell at the career offender, and the jury would
have been given notice that he has multiple drug
crimes. And similarly, they would be -- have been given
notice that Alston Campbell, Sr., has a prior drug crime
and, therefore, if we’re looking at how can they
extrapolate, it certainly -- there is some concern with,
if we are talking about priors causing greater
sentences, that they would be aware of that then.
THE COURT: Uh-huh. So what is the government’s
position with regard to this Wright case and older cases
within the circuits that are not binding on this Court?
MR. MURPHY: Your Honor, I think -- we believe
the Wright case was --

App. 90
THE COURT: Wrightly decided?
MR. MURPHY: Well, I wasn’t going to say that.
Correctly decided. Tempted to say that, but -- the Court
knows me too well. So, no, we believe that’s correctly
decided. And in this case, I mean, again, I think you
need to look at what is the purpose that this evidence
is being offered for. Presumably, it’s offered to show
bias.
THE COURT: Uh-huh.
MR. MURPHY: That’s it. I mean, there’s really no
impeachment purpose that I’m aware of, so it’s really
to show bias. So what the Court has allowed is for
these people to be questioned about facing substantial
sentences based upon their criminal histories, all of
that. I mean, that effectively does that. And under 401
and 403, I mean, the Court really has to do a balancing
act, and I think that’s what the Court has attempted to
do, as I understand it, in its rulings, by allowing the
inquiry.
Mr. Willett yesterday asked one of the witnesses if
he wasn’t facing a mandatory minimum sentence. I
mean, I don’t know really how it significantly advances
the ball by specifying the number of years. Mr. Erdahl
says that it was necessary to show the extent of the
benefit. I don’t understand that, because the extent of
the benefit -- I mean, if they’re facing life, what’s the
extent of the benefit? We don’t know what the extent of
the benefit is that’s coming off of that.
I mean, potentially, there’s, yeah, from life down to
zero, I mean, potentially, that’s a bigger range than
from 10 years down to -- down to zero. Potentially,

App. 91
that’s a bigger number. But the extent of the benefit
can’t be determined by the mandatory sentence. That
can only be determined by what the judge decides to do
in the event that a motion is made. And it’s based upon
the quality and the extent of the assistance, if you will.
So I don’t know that putting a number, defining the
number, as to the maximum that they are facing -THE COURT: Adds anything.
MR. MURPHY: -- advances the extent of the benefit.
And as the Court has I think noted in its question, we
don’t even know what the guidelines are going to be on
these defendants. These are points that are going to be
litigated, as to drug quantity and so forth, at least to a
certain extent. I mean, certainly, there are some
mandatory minimums that apply, but, you know, then
to go into guidelines issues, which, again, are beyond
the comprehension, I would submit, based upon the
testimony that’s already come in, beyond the
comprehension of the witnesses, you know, whose
liberty is at issue -- I mean, they’ve -- I think it’s fair to
say, I mean, the Court can judge, certainly, but in their
testimony, they -- you know, all they know is that
they’re here hoping to get a lower sentence.
They don’t know what it is or even necessarily how
it works. One of them said, yes, he understands there’s
a motion process. The other one didn’t seem to really
even be aware of that, which, in my experience, is not
unusual. Defendants who are cooperating are hoping to
get, you know, a reduced sentence, but beyond that,
they don’t quite know how it works or exactly what to
expect. And certainly, we would have to venture into
then some type of an explanation to the jury,

App. 92
theoretically, as to what does something like this merit,
what does the US Attorney’s Office typically grant if
somebody does testimony cooperation, if they do on-thestreet cooperation, if they do other things like that; and
certainly we’re not going to get into that.
But those are factors that go into the extent of the
benefit, if you will, in terms of what we are willing to
recommend and then how do we assess -- or do we
assess that they are telling the truth, do we assess that
they are minimizing, do we assess that they are lying?
And all of those things are deliberative processes as far
as our side goes and really invade the province of the
jury in terms of their assessment as to whether or not
somebody is telling the truth.
So the real essence of the issue here is are they
doing this for some reason, which they have admitted
they are; they are doing it hoping to get a lower
sentence. And as to the degradation of that -- the
degree of that and how that’s all calculated, I submit
that goes well beyond anything that would be
reasonable to present here. It would be confusing to the
jury and it’s not known. It’s factors that are even
beyond determination right now, so it would be
misleading to try to cross-examine and suggest one
thing when nobody knows what the end of that
calculation looks like. And we can’t know.
And just as one other aside, this is somewhat of a
tangential issue, but I would also just want to put on
the record that every cooperator that’s coming in here
is coming in in an orange jumpsuit and they’re coming
in with chains around their wrists and chains around
their legs, and we’d ask the Court to note that. But just

App. 93
in terms of the -- sort of the prejudice, if you will, to the
government, I mean, these people aren’t allowed to put
on street clothes or, you know, to put on their suit and
come in here and that thing, so there’s already, you
know, this added, I would suggest, bias, if you will, or
added factor that goes against how the jury might
perceive these witnesses, and that’s slightly different
than the bias that we are talking about.
But nonetheless, I think that’s something that the
Court needs to consider in its calculous here, that are
these defendants having a fair opportunity to confront
these witnesses? I think that’s a factor that goes into
confrontation, that they’ve got somebody who is not
just here saying, “Yeah, I’m in jail,” but they’re sitting
10 feet from the jury box, in chains, with a marshal
sitting next to them, and that starts, you know, with
them in the hole, beyond really, I mean, even what an
in-custody defendant certainly would be allowed to do.
I mean, we wouldn’t allow that for an in-custody
defendant, to be sitting here in an orange suit and
chains, because there is a perception or there is a bias,
that we want to guard against the jury having that
negative impression, and that’s already starting when
these witnesses, these in-custody witnesses, take the
stand.
So I think when the Court balances all of this, some
of the issues are slightly different, some of the concerns
are slightly different, but in trying to -- the bottom line
is, trying to assess whether or not the defendants are
properly able to confront the witnesses against them
and whether or not both parties are receiving a fair

App. 94
trial. And I think on balance, what the Court has
suggested here strikes a fair and proper balance.
THE COURT: All right. Well, the Court appreciates
the effort that Mr. Erdahl made to bring these matters
to the Court’s attention. Again, I think this case is
slightly different than some that we face where the
cooperators are -- have not been sentenced, so we don’t
know where they’re going to end up. As I understand it
from the government, none of them are facing
mandatory life. At most, 20 to life or 10 to -- 10 to 40 -no, it’s 5 to 40, and 10 to -- anyway, no mandatory life.
It’s fair game, get into the priors.
It’s fair game to get into the fact that they are facing
mandatory minimums, below which the Court couldn’t
go even if it wanted to, without a government motion.
It’s great to go into the 5K process and -- all of those
things are fair game. But we’re not going to get into
specific numbers under 401, 403 of the Rules of
Evidence. And we’re not going to get into drug
quantities because that, of course, doesn’t have bearing
either, because -- well, that just doesn’t have any
relevance at all at this stage of the process for any of
them, since the Court hasn’t made any findings on
quantities for any of them.
MR. MURPHY: Your Honor, and I assume that
when the Court says not getting into drug quantities,
it’s still fair game for them to question the witnesses
about quantities that they were involved in, but just -if I understand -THE COURT: I mean in terms of sentencing.

App. 95
MR. MURPHY: In terms of sentencing what the
adjustment might be or how that impacts -THE COURT: Yeah, exactly. I’m sorry if I said
something that was confusing.
Mr. Willett?
MR. WILLETT: Your Honor, the Court’s already
clarified its ruling. I just want to make a very brief
additional record on behalf of my client Mr. Campbell,
Jr. Mr. Erdahl raised really today I think for the first
time the confrontation clause issue that the Court has
now considered. In addition to the previous sidebars
that were made in regards to these plea agreements
that I made on behalf of Mr. Campbell, I would join in
Mr. Erdahl’s concern about a confrontation clause issue
as it pertains to Mr. Campbell, Jr., today. Thank you,
Judge.
THE COURT: All right. Mr. Johnson?
MR. JOHNSON: Your Honor, I would also join Mr.
Erdahl’s motion. One of the primary concerns I had
specifically about one of the witnesses today, the
individual who has a 20-year mandatory, during trial
prep, at one point, he disclosed he thought he was only
going to do a year in prison and also mentioned
something of a 75 percent reduction in his sentence. My
concern is wanting to show the -- frankly, I think he’s
probably being overly optimistic, but my concern is,
again, going somewhat to bias and showing the lengths
in which these people think this cooperation is going to
benefit them. If not a specific number of years, does the
Court consider something along the lines of a

App. 96
statement of a 75 percent off of his sentence motion -is that on the table for us to question?
THE COURT: Well, the problem with that is it’s
ridiculous at this stage for him to harbor that view.
MS. NYDLE: Your Honor, to add a little bit of
information with regard to this -THE COURT: Who -- which witness are we talking
about?
MR. JOHNSON: It’s Alex Martin, Your Honor.
THE COURT: Okay.
MS. NYDLE: Mr. Martin, in a previous prep
session, provided that information. His counsel was not
available at that prep situation. We ended up ending it.
He has had the opportunity to talk to counsel. We’ve
met since then with defense counsel present to clarify
that, one, no decisions had been made by the
government and they will be made down the road with
regard to percentages. That ultimately, whatever we
recommend, the Court would be the one to make the
ultimate determination, but it was made clear that a 75
percent motion would be an extreme outlier. He is
facing, as noted previously, a little bit ago, that he has
a 20-year mandatory minimum, so he was also told the
idea that you will only do a year is extremely unlikely.
Obviously, because we can’t make anyone promises, we
couldn’t indicate that the Court would absolutely not
take him down to a year, but we were able to say that’s
not typically what happens. And my understanding is,
his understanding is that no promises have been made
and he doesn’t know the percentage at this point.

App. 97
THE COURT: Well, I think that in terms of that,
you can -- depending on what he says on direct, you
could go in that direction. I don’t know what he’s going
to say -MR. JOHNSON: Absolutely.
THE COURT: -- when you ask him or when the
government asks him “Have there been any promises
made?” I don’t know what he’s going to say. I don’t even
think I’ve ever had him in court. He must not be my
case.
MS. NYDLE: Your Honor, he ultimately is, but he
hasn’t been before Your Honor, I believe.
THE COURT: Okay.
MS. NYDLE: He ended up pleading, I believe,
before Judge Williams, and so because we haven’t
gotten to sentencing, you haven’t seen him.
THE COURT: All right. I appreciate that. I don’t
know what he’s going to say, Mr. Johnson.
MR. MURPHY: Your Honor, to be clear, again, I
recognize, you know, the right to confrontation. And in
my view -- obviously, it’s up to the Court, but, you
know, I think certainly it’s fair to question him. If he
thinks he’s going to get a number of years knocked off
and get it knocked down to no time in jail or, you know,
as low as 1 year, the big thing is, you know, just the
jumping off point, if you will. And I think, again, in all
fairness to both sides here, that can be achieved
through proper cross-examination without referencing
the exact statutory penalties. Thank you. That’s it.

App. 98
THE COURT: All right.
MR. ERDAHL: Your Honor, if I may just respond to
a couple of points.
THE COURT: Sure.
MR. ERDAHL: I agree that this is a bias question,
but it comes within the rubric of impeachment. It may
not be prior recollection -THE COURT: It’s impeachment by bias.
MR. ERDAHL: By bias, right.
THE COURT: Yeah, sure.
MR. ERDAHL: And few circumstances are likely to
cause bias as much as the offer of leniency, and courts
have recognized that. I did want to say that, in
reference to the Chandler case, that in Chandler they
allowed impeachment to explore the maximum
potential sentence if the government did not grant
leniency, the difference between the worst case
scenario and then the negotiated disposition to show
the defendant’s desperation to help the government. So
that is what I think we are talking about.
As far as confrontation, I believed we were objecting
on the basis of confrontation and the Sixth Amendment
on the last few times, but when you are at sidebar, you
don’t articulate all these things. We were definitely
talking about cross-examination before, but I did, for
the record, want to amplify that today. I would not
concede that the issue wasn’t raised by talking about
cross-examination, because that obviously falls under
the right to confrontation and the Sixth Amendment.

App. 99
THE COURT: And I think that’s implicit.
MR. ERDAHL: Yeah, I thought the Court agreed
with me, but I didn’t want to say you nodded your head
when I said it.
THE COURT: Yeah, no, yeah, I think you’re right.
MR. ERDAHL: Thank you, Judge.
THE COURT: I think you are right on confrontation
clause is implicated.
All right. It’s 4 minutes after 9:00. Are we ready to
go?
I would just note, if you are -- if defense counsel is
talking to the gallery, yesterday, we had a couple
people who came in here and were taking a nap, and
this is not a nap room, and so I didn’t want to
embarrass anybody, but today I may. It’s appropriate
for people to be here. We want them here. But they
can’t visit and they can’t come in here and take their
naps. So hopefully -- I don’t see any of those people in
the courtroom at the current time, but we may have to
remind people this isn’t a nap room.
Okay. Are we ready for -- yes, Mr. Willett?
MR. WILLETT: Could we have 5 minutes to stretch,
Your Honor?
THE COURT: 5 minutes max.
MR. WILLETT: Thank you.
(Whereupon, a brief recess was taken.)

App. 100
(Whereupon, the jury entered the courtroom.)
THE COURT: Good morning, members of the jury.
We’re ready to continue in the case of United States of
America versus Campbell, Campbell, and Campbell,
Case 17-2045. I’m sorry we’re a little late getting
started this morning. I had some matters I wanted to
take up with the lawyers. Everybody was here ready to
go, but I think I talked too long. So that’s why we’re
starting a
****
[pp. 436]
A. Yeah.
Q. Now, other than the -- that purchase that you made
for law enforcement, were you also getting cocaine or
cocaine base separately from William Campbell?
A. Yeah.
Q. When did you start doing that?
A. Oh, shit.
Q. Was it after you got in trouble with law
enforcement?
A. Yeah.
Q. Okay. Approximately how much did you get from
him?
A. Ounce or 2.
Q. An ounce or 2 total?
A. Yeah.

App. 101
Q. And was that in crack cocaine or cocaine powder?
A. Crack.
Q. You and I spoke at the same time. Go ahead.
A. Crack.
Q. Now, you and the Campbells also did a decent
amount of gambling, correct?
A. Yeah.
Q. You said you would go basically daily to be involved
with these dice games?
A. Yeah.
Q. At some point after a gambling loss, did you ask
William Campbell for some cocaine so -- or crack
cocaine so you could make up some of that debt?
A. Yeah.
Q. Was he willing to do that?
A. No.
Q. Did Alston Campbell, Sr., agree to give you any
crack cocaine?
A. Yeah.
Q. How much did he give you?
A. At that time, he fronted me an ounce and I had to
pay him 1,500.
Q. And how long did it take you to pay that 1,500 back?

App. 102
A. A couple days.
Q. How many more times did you get cocaine or crack
cocaine from Alston Campbell, Sr.?
A. I just kept getting it from him.
Q. Okay. Well, how often would you get it?
A. I think every 2 weeks, something like that.
Q. Every 2 weeks. And for about how long? Would you
have gotten more than 10 ounces from him?
A. Yeah.
Q. Okay. And out of that -- would you have gotten more
than 15 ounces?
A. I think so, yeah.
Q. Okay. Would you have gotten more than 20 ounces?
A. Probably so.
Q. Do you think it’s many more than 20 ounces?
A. I don’t know. I don’t know.
Q. Well, I don’t want you to guess, but what’s your best
estimate of how much specifically cocaine in powder
form you would have received from Alston Campbell,
Sr.?
A. When I was getting it, it was already cooked up.
Q. Okay, it’s already cooked up. So how many -approximately, what’s your best estimate of how much
you would have received from Alston Campbell, Sr.?

App. 103
A. Probably like 15 to 20, 15, somewhere in there.
Q. 15 ounces of crack?
A. Yeah.
Q. At some point did you consider -- or did you switch
to powder cocaine so you could do the same thing you
were doing before and -- stretching your profit?
A. Yeah.
Q. Okay. So how much powder cocaine do you think you
got?
A. About 15; about 15 ounces, somewhere in there.
Q. 15 more ounces or -A. No, all together.
Q. 15 total?
A. Yeah, yeah.
Q. Okay. So -- now, did you ever personally receive any
cocaine or crack cocaine from Alston Campbell, Jr., or,
as you knew him, Ace?
A. Ace, no, no.
Q. Did you ever talk to Ace about dealing or selling
cocaine?
A. No.
Q. Did you talk to Senior about other people that he
was supplying?
A. I don’t remember. I don’t know.

App. 104
Q. Now, we talked a little about gambling at different
points. Would these be large scale gambling events?
And by that, I mean basically was there a lot of money
on the table?
A. Yeah.
Q. What’s the largest amount of money you ever saw on
the table?
A. About 10,000 or more.
Q. 10,000 total or 10,000 by one person?
A. Probably more than that, yeah.
Q. You said probably more than that. So how much
total do you think was on the table in a single pot?
A. About 10, yeah, about 10,000.
Q. Now, sir, after you got in trouble with law
enforcement, you agreed to work with them with the
hopes of reducing the charges you were facing or
hoping to

App. 105
****
[pp. 644]
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
EASTERN DIVISION
17-CR-2045
JURY TRIAL PROCEEDINGS
VOLUME IV
__________________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
VS.
)
)
ALSTON RAY CAMPBELL, JR.,
)
ALSTON RAY CAMPBELL, SR.,
)
and WILLIAM MARCELLUS CAMPBELL, )
)
Defendant.
)
__________________________________________)
JURY TRIAL PROCEEDINGS,
HELD BEFORE THE HON. LINDA R. READE,
on the 25th day of April, 2018, at 111 Seventh Avenue
S.E., Cedar Rapids, Iowa, commencing at 8:31 a.m.,
and reported by Patrice A. Murray, Certified
Shorthand Reporter, using machine shorthand.
Patrice A. Murray, CSR, RPR, RMR, FCRR
United States District Court
111 Seventh Avenue S.E., Box 4

App. 106
Cedar Rapids, Iowa 52401-2101
(319) 286-2338
APPEARANCES:
ATTORNEY EMILY K. NYDLE AND RICHARD L.
MURPHY, US Attorney’s Office, 111 Seventh Avenue
S.E., Box 1, Cedar Rapids, Iowa 52401, appeared on
behalf of the United States.
ATTORNEYS ALFRED E. WILLETT AND DILLON
JOHNATHAN BESSER, of the firm of Elderkin &
Pirnie, 316 Second Street S.E., Suite 124, Cedar
Rapids, Iowa 52401, appeared on behalf of Alston Ray
Campbell, Jr.
ATTORNEY BRIAN D. JOHNSON, of the firm of
Jacobsen, Johnson & Wiezorek, 425 Second Street S.E.,
Suite 803, Cedar Rapids, Iowa 52401, appeared on
behalf of Alston Ray Campbell, Sr.
ATTORNEY CLEMENS ERDAHL, of the firm of
Nidey, Peterson, Erdahl & Tindal, 425 Second Street
S.E., Suite 1000, Cedar Rapids, Iowa 52401, appeared
on behalf of William Marcellus Campbell.

App. 107
INDEX
WITNESS

D

C

RD

RC

Bryan Furman
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl
By Ms. Nydle

657
667
683
697
701
705
706
708
711

Naiquondis Spates
By Ms. Nydle
By Mr. Willett
By Mr. Johnson
By Mr. Erdahl
By Ms. Nydle

712
726
738
738
739

Benjamin Carter
By Ms. Nydle
By Mr. Willett

742
761

Tatahneeka Holmes
By Mr. Besser
By Mr. Mr. Murphy
By Mr. Besser
By Mr. Murphy

779
784
796
797

App. 108
Max Kirk
By Mr. Besser
By Mr. Murphy

797
801

EXHIBITS
O
Exhibits 125 and 126 ------------------------------ 665
Exhibits 500 to 503 -------------------------------- 750
Exhibits 504 to 509 -------------------------------- 753
Exhibits 510 to 514 -------------------------------- 755
Exhibit 527 ------------------------------------------- 757
Exhibit 529 ------------------------------------------- 760

R
665
750
753
755
757
760

App. 109
****
[pp. 718]
A. July.
Q. July. So let’s work from there. If you were arrested
in July, what would have been the last time before that
that you would have received crack cocaine from Alston
Campbell, Jr.?
A. Like in December or January.
Q. December or January of 2000 and -A. 17.
Q. ‘17? But you would have been in custody then, so
2016?
A. I mean 2016.
Q. Okay. So from roughly February of 2016 until
December or January of the next year?
A. Yeah.
Q. So closer to a year then?
A. Yeah.
Q. So you said you were receiving quarter ounces. How
frequently did you receive quarter ounces?
A. Every two days, every -- yeah.
Q. And was it always in crack form?
A. Yeah.

App. 110
Q. Now, in addition to the substance that you were
getting for yourself, were you also buying for other
people or doing something called “middling”?
A. Yeah.
Q. Can you tell the jury what is “middling”?
A. I was buying for other people too.
Q. So other people would give you money, and then you
would actually make the purchase?
A. Yeah.
Q. Did those people include an individual named
Devonte Jenkins?
A. Yeah.
Q. And what controlled substance were you buying on
behalf of Mr. Jenkins?
A. Half ounces and ounces.
Q. And was that sometimes in crack form?
A. Yeah.
Q. And was it also sometimes in powder cocaine form?
A. Yeah.
Q. How would you get ahold of Mr. Campbell, Jr.?
A. I’d text him.
Q. Do you recall off the top of your head what his phone
number was?

App. 111
A. No.
Q. Now, over the course of the little less than a year
that you received controlled substance from Alston
Campbell, Jr., how -- approximately how much crack
cocaine do you think you received?
A. Probably like 20 ounces.
Q. And how much powder cocaine?
A. Probably like 5 ounces.
Q. When you -- when you were middling deals, what
quantity would that have been that Mr. Jenkins would
typically receive?
A. He would probably receive like an ounce.
Q. And how many ounces do you think he received over
the course of the time that you were getting that from
Alston Campbell, Jr.?
A. Like 20.
Q. So it would be 20 for you and then separately 20 for
Mr. Jenkins?
A. Yeah.
Q. And do you recall what your phone number would
have been during that time?
A. I had a couple of them. I can’t remember them.
Q. Now, with regard to your phone, at some point one
of your phone numbers was actually wiretapped,
correct?

App. 112
A. Yeah.
Q. And you found that out later?
A. Yeah.
Q. And is it your understanding that some of your
conversations with Mr. Alston Campbell, Jr., were
captured?
A. Yeah.
Q. If you would have sent a message that said that you
wanted “a whole soft and a quarter hard,” what would
that have meant?
A. An ounce and a quarter of an ounce.
Q. So the “whole,” that would be the ounce?
A. Yeah.
Q. So a whole ounce soft. What does soft mean?
A. Powder cocaine.
Q. And -- and “a quarter hard”?
A. Crack cocaine.
Q. What about the term “zip”? What would a “zip” be?
A. An ounce.
Q. What about the term “quake”?
A. It’s a quarter.
Q. What about “a ball”?
A. It’s an 8-ball.

App. 113
Q. An 8-ball is how much? Is that an 8th of an ounce?
A. Yeah.
Q. If you sent a text message that said “Q and B,” what
would that mean?
A. Quarter and a ball.
Q. Did you know an Alston Campbell, Sr.?
A. No.
Q. Do you know a William Campbell?
A. Yeah.

App. 114

APPENDIX C
UNITED STATES DISTRICT COURT
Northern District of Iowa
Case Number 0862 6:17CR02045-001
[Filed January 3, 2019]
_______________________________________
UNITED STATES OF AMERICA
)
)
v.
)
)
ALSTON RAY CAMPBELL, JR.
)
_______________________________________)
JUDGMENT IN A CRIMINAL CASE
USM Number: 17193-029
Alfred E. Willett and Dillon Johnathan Besser
Defendant’s Attorney
 ORIGINAL JUDGMENT
9 AMENDED JUDGMENT
Date of Most Recent Judgment:
Reason for Amendment:
THE DEFENDANT:
9 pleaded guilty to count(s) _______________________

App. 115
9 pleaded nolo contendere to count(s) ______________
which was accepted by the court.
 was found guilty on count(s)
after a plea of not guilty.
1 and 14 of the
Superseding
Indictment filed on
February 22, 2018
The defendant is adjudicated guilty of these offenses:
Title & Section
21 U.S.C. §§ 841(a)(1),
841(b)(1)(A), and 846

Nature of Offense
Conspiracy to Distribute
5 Kilograms or More of
Cocaine and 280 Grams or
More of Cocaine Base

21 U.S.C. §§ 841(a)(1)
and 841(b)(1)(c)

Possession With Intent to
Distribute Cocaine

Offense Ended
March 2017

Count
1

03/31/2017

14

The defendant is sentenced as provided in pages 2
through 7 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
9 The defendant has been found not guilty on
count(s) _______________________________________
9 Count(s)_________________________is/are dismissed
on the motion of the United States.

App. 116
It is ordered that the defendant must notify the United
States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all
fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court
and United States Attorney of material changes in
economic circumstances.
Linda R. Reade
United States District Court Judge
Name and Title of Judge
s/ Linda R. Reade___________________
Signature of Judge
January 3, 2019_____________________
Date of Imposition of Judgment
January 3, 2019
Date
PROBATION
9 The defendant is hereby sentenced to probation for
a term of:
IMPRISONMENT
 The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned
for a total term of: 262 months. This term of
imprisonment consists of a 262-month term i
mposed on Count 1 and a 240-month term

App. 117
imposed on Count 14 of the Superseding
Indictment, to be served concurrently.
 The court makes the following recommendations to
the Federal Bureau of Prisons: It is recommended
that the defendant be designated to a Bureau
of Prisons facility as close to the defendant’s
family as possible, commensurate with the
defendant’s security and custody
classification needs.
 The defendant is remanded to the custody of the
United States Marshal.
9 The defendant must surrender to the United States
Marshal for this district:
9 at _________________ 9 a.m. 9 p.m. on _______.
9 as notified by the United States Marshal.
9 The defendant must surrender for service of
sentence at the institution diesignated by the
Federal Bureau of Prisons:
9 before 2 p m. on ___________________________.
9 as notified by the United States Marshal.
9 as notified by the United States Probation or
Pretrial Services Office.
RETURN
I have executed this judgment as follows:

App. 118
Defendant delivered on ______ to _____________ at
_______________________, with a certified copy of this
judgment.
______________________________________
UNITED STATES MARSHAL
By ______________________________________
DEPUTY UNITED STATES MARSHAL
SUPERVISED RELEASE
 Upon release from imprisonment, the defendant
will be on supervised release for a term of:
5 years. This term of supervised release
consists of a 5-year term imposed on Count 1
and a 3-year term imposed on Count 14 of the
Superseding Indictment, to be served
concurrently.

MANDATORY CONDITIONS OF SUPERVISION
1) The defendant must not commit another federal,
state, or local crime.
2) The defendant must not unlawfully possess a
controlled substance.
3) The defendant must refrain from any unlawful use
of a controlled substance.
The defendant must submit to one drug test within
15 days of release from imprisonment and at least

App. 119
two periodic drug tests thereafter, as determined by
the court.
9 The above drug testing condition is
suspended, based on the court s
determination that the defendant poses a low
risk of future controlled substance abuse.
(Check, if applicable.)
4)  The defendant must cooperate in the collection
of DNA as directed by the probation officer.
(Check, if applicable.)
5) 9 The defendant must comply with the
requirements of the Sex Offender Registration
and Notification Act (34 U.S.C. § 20901, et seq.)
as directed by the probation officer, the Bureau
of Prisons, or any state sex offender registration
agency in the location where the defendant
resides, works, and/or is a student, and/or was
convicted of a qualifying offense. (Check, if
applicable.)
6) 9 The defendant must participate in an approved
program for domestic violence. (Check, if
applicable.)
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of the defendant’s supervision, the
defendant must comply with the following standard
conditions of supervision. These conditions are imposed

App. 120
because they establish the basic expectations for the
defendant’s behavior while on supervision and identify
the minimum tools needed by probation officers to keep
informed, report to the court about, and bring about
improvements in the defendant’s conduct and
condition.
1)

The defendant must report to the probation
office in the federal judicial district where the
defendant is authorized to reside within 72
hours of the time the defendant was sentenced
and/or released from imprisonment, unless the
probation officer instructs the defendant to
report to a different probation office or within a
different time frame.

2)

After initially reporting to the probation office,
the defendant will receive instructions from the
court or the probation officer about how and
when the defendant must report to the probation
officer, and the defendant must report to the
probation officer as instructed. The defendant
must also appear in court as required.

3)

The defendant must not knowingly leave the
federal judicial district where the defendant is
authorized to reside without first getting
permission from the court or the probation
officer.

4)

The defendant must answer truthfully the
questions asked by the defendant’s probation
officer.

5)

The defendant must live at a place approved by
the probation officer. If the defendant plans to

App. 121
change where the defendant lives or anything
about the defendant’s living arrangements (such
as the people the defendant lives with), the
defendant must notify the probation officer at
least 10 days before the change. If notifying the
probation officer in advance is not possible due
to unanticipated circumstances, the defendant
must notify the probation officer within 72 hours
of becoming aware of a change or expected
change.
6)

The defendant must allow the probation officer
to visit the defendant at any time at the
defendant’s home or elsewhere, and the
defendant must permit the probation officer to
take any items prohibited by the conditions of
the defendant’s supervision that he or she
observes in plain view.

7)

The defendant must work full time (at least 30
hours per week) at a lawful type of employment,
unless the probation officer excuses the
defendant from doing so. If the defendant does
not have full-time employment, the defendant
must try to find fulltime employment, unless the
probation officer excuses the defendant from
doing so. If the defendant plans to change where
the defendant works or anything about the
defendant’s work (such as the defendant’s
position or the defendant’s job responsibilities),
the defendant must notify the probation officer
at least 10 days before the change. If notifying
the probation officer at least 10 days in advance
is not possible due to unanticipated

App. 122
circumstances, the defendant must notify the
probation officer within 72 hours of becoming
aware of a change or expected change.
8)

The defendant must not communicate or
interact with someone the defendant knows is
engaged in criminal activity. If the defendant
knows someone has been convicted of a felony,
the defendant must not knowingly communicate
or interact with that person without first getting
the permission of the probation officer.

9)

If the defendant is arrested or questioned by a
law enforcement officer, the defendant must
notify the probation officer within 72 hours.

10)

The defendant must not own, possess, or have
access to a firearm, ammunition, destructive
device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific
purpose of causing bodily inj ury or death to
another person such as nunchakus or tasers).

11)

The defendant must not act or make any
agreement with a law enforcement agency to act
as a confidential human source or informant
without first getting the permission of the court.

12)

As directed by the probation officer, the
defendant must notify third parties of risks that
may be occasioned by the defendant’s criminal
record or personal history or characteristics and
must permit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement.

App. 123
13)

The defendant must follow the instructions of
the probation officer related to the conditions of
supervision.

SPECIAL CONDITIONS OF SUPERVISION
The defendant must comply with the following
special conditions as ordered by the Court and
implemented by the United States Probation
Office:
1. If not employed at a lawful type of
employment as deemed appropriate by the
United States Probation Office, the defendant
must participate in employment workshops
and report, as directed, to the United States
Probation Office to provide verification of
daily job search results or other employment
related activities. In the event the defendant
fails to secure employment, participate in the
employment workshops, or provide
verification of daily job search results, the
defendant may be required to perform up to
20 hours of community service per week until
employed.
2. The defendant must pay any fine, restitution,
and/or special assessment imposed by this
judgment.
3. For as long as the defendant owes any fine,
restitution, and/or special assessment imposed
by this judgment, the defendant must provide
the United States Probation Office with access
to any requested financial information.

App. 124
4. For as long as the defendant owes any fine,
restitution, and/or special assessment imposed
by this judgment, the defendant must not
incur new credit charges or open additional
lines of credit without the approval of the
United States Probation Office unless the
defendant is in compliance with the
installment payment schedule.
5. The defendant must submit the defendant’s
person, property, house, residence, vehicle,
papers, computers [as defined in 18 U.S.C.
§ 1030(e)(1)], other electronic communications
or data storage devices or media, or office, to
a search conducted by a United States
Probation Officer. Failure to submit to a
search may be grounds for revocation of
release. The defendant must warn any other
occupants that the premises may be subject to
searches pursuant to this condition. The
United States Probation Office may conduct a
search under this condition only when
reasonable suspicion exists that the defendant
has violated a condition of supervision and
that the areas to be searched contain evidence
of this violation. Any search must be
conducted at a reasonable time and in a
reasonable manner.
6. The defendant must participate in an
evaluation for anger management and/or
domestic violence. The defendant must
complete any recommended treatment

App. 125
program, and follow the rules and regulations
of the treatment program.
These conditions have been read to me. I fully
understand the conditions and have been provided a
copy of them. Upon a finding of a violation of
supervision, I understand the Court may: (1) revoke
supervision; (2) extend the term of supervision; and/or
(3) modify the condition of supervision.
___________________________
Defendant

___________
Date

___________________________
United States Probation
Officer/Designated Witness

___________
Date

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments on
Sheet 6.
Assessment
TOTALS

$ 200

JVTA Assessment1
$0

Fine

$ 5,000

Restitution
$0

1

Justice for Victims Trafficking Act of 2015, 19 U.S.C. § 3014.

App. 126
9 The determination of restitution is deferred until
_______. An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.
9 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Name of Payee

Total Loss2

Restitution Ordered

Priority or Percentage

TOTALS

$________________ $_________________

9 Restitution amount ordered pursuant to plea
agreement $______________
9 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C.

2

Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for the offenses
committed on or after September 13, 1994, but before April 23,
1996.

App. 127
§ 3612(f). All of the payment options on Sheet 6 may
be subject to penalties or for delinquency and
default, pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the  fine
9 restitution.
9 the interest requirement for the 9 fine
9 restitution is modified as follows:
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A  Lump sum payment of $ 200 due immediately,
balance due
9 not later than ______________, or
 in accordance with 9 C, 9 D, 9 E, or  F
below; or
B 9 Payment to begin immediately (may
combined with 9 C, 9 D, or 9 F below); or

be

C 9 Payment in equal ________ (e.g., weekly,
monthly, quarterly) installments of $_______
over a period of (e.g., months or years), to
commence __________ (e.g., 30 or 60 days) after
the date of this judgment; or

App. 128
D 9 Payment in equal ________ (e.g., weekly,
monthly, quarterly) installments of $________
over a period of ______________ (e.g., months or
years), to commence___________ (e.g., 30 or 60
days) after release from imprisonment to a term
of supervision; or
E 9 Payment during the term of supervised release
will commence within _______ (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay at
that time; or
F  Special instructions regarding the payment of
criminal monetary penalties:
If any of the defendant's court ordered
financial obligations are still owed while
the defendant is incarcerated, the
defendant must make monthly payments in
accordance with the Bureau of Prisons
Financial Responsibility Program. The
amount of the monthly payments will not
exceed 50% of the funds available to the
defendant through institution or noninstitution (community) resources and will
be at least $25 per quarter. If the defendant
still owes any portion of the financial
obligation(s) at the time of release from
imprisonment, the defendant must pay it as
a condition of supervision and the United
States Probation Office will pursue
collection of the amount due pursuant to a
payment schedule approved by the Court.

App. 129
The defendant must notify the United
States Attorney for the Northern District of
Iowa within 30 days of any change of the
defendant's mailing or residence address
that occurs while any portion of the
financial obligation(s) remains unpaid.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant will receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
9 Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.
9 The defendant must pay the cost of prosecution.
9 The defendant must pay the following court cost(s):
 The defendant must forfeit the defendant’s interest
in the following property to the United States:
As set forth in the Preliminary Order of
Forfeiture filed on November 20, 2018,
Document No. 446.

App. 130
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) JVTA assessment,
(8) penalties, and (9) costs, including cost of prosecution
and court costs.

App. 131

APPENDIX D
[SEAL]
U. S. Department of Justice
United States Attorney
Northern District of Iowa
EXHIBIT OFFERED UNDER SEAL
[Dated: February 6, 2018]
_________________________________________________
111 Seventh Avenue, SE
Box 1
Cedar Rapids, IA 52401 2101

319-363-6333
319-363-1990 (fax)
319-286-9258 (tty)
February 6, 2018

Chad R. Frese
Kaplan & Frese, LLP
111 E Church Street
Marshalltown, IA 50158
Re:

United States v. Alexander Martin,
17-CR-2045

Dear Mr. Frese:
This letter will serve as a FIRST memorandum of a
proposed plea agreement between the United States
Attorney’s Office for the Northern District of Iowa and
Alexander Martin, defendant. All references to the
“United States” or “government” in this proposed plea

App. 132
agreement refer to the United States Attorney’s Office
for the Northern District of Iowa and to no other
governmental entity. This plea offer will expire on
February 16, 2018, unless otherwise extended by the
government. The government has made no prior
plea offers in this case.
CHARGES AND PENALTIES
1. AM Defendant will plead guilty to Count 1 of the
Indictment filed on July 10, 2017. Count 1 charges
Conspiracy to Distribute Cocaine Base, in violation of
21 U.S.C. § 841(a)(1), 841(b)(1)(A), and 846. Defendant
also agrees to the entry of a judgment of forfeiture
pursuant to the forfeiture allegation included in the
Indictment. The United States has given notice of one
prior felony drug conviction pursuant to 21 U.S.C.
§ 851.
2. AM Defendant understands that Count 1 of the
Indictment is punishable by a mandatory minimum
sentence of 20 years’ imprisonment and the following
maximum penalties: (1) not more than life
imprisonment without the possibility of parole; (2) a
fine of not more than $20,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 10 years.
3. AM Defendant understands restitution and a
term of supervised release following incarceration may
be imposed in addition to any other sentence.
Defendant further acknowledges that, if defendant
violates, at any time, any condition of supervised
release, defendant could be returned to prison for the
full term of supervised release and the Court is not

App. 133
required to grant credit for any amount of time
defendant may have successfully completed on
supervised release. Defendant also understands the
U.S. Sentencing Guidelines will provide advisory
guidance to the Court in determining a sentence in this
case.
4. AM At the time the guilty plea is entered,
defendant will admit that defendant is guilty of the
charge specified in Paragraph 1 of this agreement.
After sentencing, the government will move for
dismissal of any remaining counts. The U.S. Attorney’s
Office for this District will file no additional Title 21
narcotics-related criminal charges based solely upon
information now in our possession. If this office
becomes aware of evidence of additional crimes
warranting criminal prosecution, all information in our
possession could be used in such a prosecution.
5. AM Defendant understands and agrees defendant
has the absolute right to plead guilty before a United
States District Court Judge. However, if convenient to
the Court, defendant agrees to waive and give up this
right and to plead guilty before a United States
Magistrate Judge. Defendant understands defendant
will not be found guilty unless the United States
District Court Judge accepts the plea of guilty or
adopts a recommendation of the Magistrate Judge to
accept such plea. Defendant agrees to execute the
attached consent to proceed before the United States
Magistrate Judge.
6. AM Defendant understands and agrees that,
consistent with the provisions of 18 U.S.C. § 3143,
defendant may be detained pending sentencing. This is

App. 134
regardless of whether a U.S. Magistrate Judge or U.S.
District Court Judge presides at the guilty plea hearing
and regardless of whether the guilty plea is
immediately accepted or formal acceptance is deferred
until a later date.
COOPERATION
7. AM Defendant agrees to fully and completely
cooperate with the United States Attorney’s Office and
other law enforcement agencies in the investigation of
criminal activity within the Northern District of Iowa
and elsewhere.
8. AM Full and complete cooperation with the
United States Attorney’s Office and law enforcement
agencies shall include, but is not limited to, the
following, if feasible:
A. providing information to secure search warrants;
B. providing testimony before the federal grand
jury and, if necessary, testimony before any
Court as a witness in any prosecution growing
out of this or any related investigation; in the
event defendant is called upon to testify on
behalf of the government in any trial, grand jury
or other proceeding and is incarcerated at that
time in any local, state or federal institution,
defendant agrees to waive any and all claim for
witness fees and/or expenses which might
otherwise be due under any statute, regulation
or other provision of law pertaining to such fees
and/or expenses; if, at the time of the testimony,
defendant is not incarcerated, defendant agrees

App. 135
to waive witness fees and all local travel
expenses;
C. providing any documents or other items in
defendant’s custody, possession, or under
defendant’s control that are relevant to this or
any related investigation;
D. making defendant available for interview and
debriefing sessions by government attorneys and
law enforcement agents upon request;
E. recording conversations related
investigation as requested; and

to

any

F. engaging in and conducting other activities as
directed by the law enforcement agents in
charge of the investigation.
9. AM Defendant will provide complete and truthful
information to the government, law enforcement
officers, the federal grand jury conducting this
investigation, and any court. Defendant will answer all
questions concerning this investigation and will not
withhold any information. Defendant will neither
attempt to protect any person or entity through false
information or omission nor falsely implicate any
person or entity. Defendant will at all times tell the
truth and nothing but the truth during any interviews
or as a witness regardless of who asks the questions –
the prosecutors, defense attorneys, investigating
agents, probation officers, or the judge. Since the
United States insists upon defendant telling the truth
and nothing but the truth during any court proceeding,
grand jury proceeding, or government interview related
to this case, failure to provide complete and truthful

App. 136
information at any such time will constitute a breach
of this agreement.
10. AM No testimony or other information provided
by defendant pursuant to this plea agreement or
pursuant to a proffer agreement to the United States
Attorney’s Office, federal or state law enforcement
officers, employees of the government, the federal
grand jury conducting this investigation, or to a court
will be used against defendant for the purpose of
bringing additional Title 21 criminal charges in the
Northern District of Iowa, provided defendant does not
violate or withdraw from the terms of this agreement.
However, such testimony or other information may and
will be used in the following circumstances:
A. derivatively or indirectly, including but not
limited to the following: to impeach defendant’s
credibility; to cross-examine defense witnesses;
to re-direct government witnesses; or to rebut
any evidence or argument presented by
defendant that is inconsistent with information
provided by defendant pursuant to this
agreement; to develop leads from the
information provided, including for use in
determining the applicable guideline range; and
use for all other non-evidentiary purposes;
B. by the Court or Probation Office at any time,
including at the time of defendant’s guilty plea
and sentencing in this matter, but shall not be
used in determining the applicable guideline
range in accordance with § 1B1.8, except the
information may be used derivatively or
indirectly, as provided in subparagraph A;

App. 137
C. in any proceeding concerning a breach of this
agreement;
D. at any time in any criminal prosecution against
defendant if defendant fails to provide complete
and truthful information as required by the
terms of this agreement;
E. in a subsequent prosecution for crimes or acts
that were not disclosed by defendant during an
interview conducted pursuant to this agreement
or any related proffer agreement;
F. in a subsequent prosecution for crimes or acts
committed by defendant after the date
defendant provided the testimony or
information;
G. in a subsequent prosecution for perjury or giving
a false statement;
H. in any asset forfeiture matter; and
I. in any civil proceeding.
The above restrictions on use of information and/or
testimony in this agreement extend only to acts
committed by defendant on or before the date shown at
the top of this agreement and does not apply to any
prosecution for acts committed by defendant after that
date. Defendant understands the obligation of the
United States to provide all information in its file
regarding defendant to the United States Probation
Office and the Court.
11. AM The United States agrees the information
provided by defendant to federal or state law

App. 138
enforcement officers on August 24, 2017, shall not be
used in determining the applicable guideline range in
accordance with § 1B1.8. Such information may be used
for any other purpose permitted by law, including
derivatively or indirectly as provided in paragraph 10A.
The above restriction on the use of the pre-proffer
information provided extends only to acts committed by
defendant on or before the date shown at the top of this
agreement and does not apply to any prosecution for
acts committed by defendant after that date.
12. AM It is understood that, upon request by the
government, defendant will voluntarily submit to a
polygraph examination. If performance in any
polygraph examination suggests a conscious intent to
deceive, mislead, or lie and the totality of
circumstances convinces the government defendant’s
statement is not complete and truthful, defendant will
be so informed and any and all obligations imposed on
the government by this agreement will be rendered
null and void. This decision to nullify the agreement
will be in the sole discretion of the United States
Attorney’s Office for the Northern District of Iowa.
13. AM Defendant shall not reveal or discuss the
existence or conditions of this agreement or defendant’s
cooperation to any person other than defendant’s
attorney and law enforcement personnel involved in
this investigation. Nor shall defendant or any agent of
defendant disclose to any person, directly or indirectly,
other than to defendant’s attorney, without prior
written authorization from the government, the true
identity or occupation of any law enforcement
personnel participating in this investigation in an

App. 139
undercover capacity or otherwise. Nor shall defendant
or any agent of defendant disclose to any person,
without prior written approval of the government, the
location of investigative offices, surveillance locations,
or the nature of investigative techniques used by
agents in this investigation. Nothing in this paragraph
is intended to restrict or prohibit defendant from
providing complete and truthful testimony in any court
proceeding. Furthermore, this agreement does not
prohibit defendant from speaking with an attorney for
a party adverse to the government in any litigation
concerning defendant’s possible testimony in that
litigation. While defendant is under no obligation to
speak with such an attorney, defendant is free to do so
if defendant chooses. That decision rests solely with
defendant as it does with any witness.
14. AM Nothing in this agreement requires the
government to accept any cooperation or assistance
defendant may offer or propose. The decision whether
and how to use any information and/or cooperation
defendant provides (if at all) is in the exclusive
discretion of the United States Attorney’s Office.
STIPULATION OF FACTS
15. AM By initialing each of the following
paragraphs, defendant stipulates to the following facts.
Defendant agrees these facts are true and may be used
to establish a factual basis for defendant’s guilty plea,
sentence, and any forfeiture. Defendant has been
advised by defendant’s attorney of defendant’s rights
under Federal Rule of Criminal Procedure 11(f) and
Federal Rule of Evidence 410. Defendant waives these
rights and agrees this stipulation may be used against

App. 140
defendant at any time in any proceeding should
defendant violate or refuse to follow through on this
plea agreement, regardless of whether the plea
agreement has been accepted by the Court. Defendant
agrees that the stipulation below is a summary of the
facts against defendant and does not constitute all of
the facts the government would be able to prove at trial
and may be able to prove to the Court in accordance
with this agreement.
AM A.

Beginning no later than April 2015, and
continuing through about March 2017,
two or more persons reached an
agreement to distribute cocaine base
(“crack cocaine”). Defendant voluntarily
and intentionally joined in the agreement
or understanding, either at the time it
was first reached, or at some later time
while it was still in effect. At the time the
defendant joined in the agreement or
understanding, defendant knew that the
purpose of the a g reem ent or
understanding was to distribute crack
cocaine. The agreement or understanding
included: Alston Campbell, Jr.; Alston
Campbell, Sr.; William Campbell;
defendant; J.P.; W.C.; Darius Shears; and
others. The agreement or understanding
involved the distribution of at least 280
grams of crack cocaine. In other words,
the distribution of 280 grams of crack
cocaine was a necessary or natural
consequence of the conspiracy and was
reasonably foreseeable to defendant. Acts

App. 141
in furtherance of the agreement or
understanding took place in Waterloo,
Iowa, which is in the Northern District of
Iowa.
AM B.

During in 2016, law enforcement in
Waterloo began investigating the
distribution of crack cocaine by Alston
Campbell, Jr. and his coconspirators. This
investigation included the use of
confidential informants and undercover
agents to purchase crack cocaine from
Alston Campbell, Jr. and his
coconspirators. The investigation
eventually included the use of wiretaps to
intercept phone calls and text messages.

AM C.

Defendant sold crack cocaine to a
confidential informant on March 24, 2016
(.68 grams), April 8, 2016(.73 grams),
April 26, 2016 (.35 grams), and October 6,
2016 (.21 grams). On each of these
occasions, defendant intentionally
transferred crack cocaine to another
person and knew that the substance he
transferred was crack cocaine.

AM D.

On April 28, 2016, law enforcement
executed a search warrant at defendant’s
residence on Quincy Street in Waterloo,
Iowa. At defendant’s residence, law
enforcement located 57.24 grams of crack
cocaine, $589, and a digital scale.

App. 142
AM E.

Law enforcement officers on scene
interviewed defendant and he identified
his source as J.P. Defendant said that he
owed J.P. for the crack cocaine found at
defendant’s residence. Defendant said he
had been going to J.P. for a year or two
and was paying $1,400 to $1,600 an
ounce. Defendant stated that J.P. was
getting a kilo and half that morning.
Defendant said that he had acquired
crack cocaine 10-15 or more times.

AM F.

On May 3, 2016 ($500), May 6, 2016
($2,300), and May 20, 2016 ($1,400),
defendant, while working as a
confidential informant, made controlled
payments to J.P.

AM G.

J.P. sold cocaine (55.66 grams of salt of
cocaine) to defendant, working as a
confidential informant, on May 10, 2016.
J.P. intentionally transferred cocaine to
another person and knew that the
substance he transferred was a controlled
substance.

AM H.

Defendant was previously convicted of
Possession of Cocaine with Intent to
Deliver, in case number FECR040558, in
the Iowa District Court for Black Hawk
County, on or about January 26, 1994.
SENTENCING PROVISIONS

16. AM Defendant understands and agrees to be
sentenced based on facts to be found by the sentencing

App. 143
judge by a preponderance of the evidence and agrees
facts essential to the punishment need not be
(1) charged in the Indictment; (2) proven to a jury; or
(3) proven beyond a reasonable doubt. Defendant
agrees the Court will determine the appropriate
sentence after considering a variety of factors,
including: (1) the nature and circumstances of the
offense and the history and characteristics of
defendant; (2) the need for the sentence imposed to
reflect the seriousness of the offense, to promote
respect for the law, and to provide just punishment for
the offense; (3) the need for the sentence to afford
adequate deterrence to criminal conduct; (4) the need
for the sentence to protect the public from further
crimes of defendant; (5) the need for the sentence to
provide defendant with needed educational or
vocational training, medical care, or other correctional
treatment in the most effective manner; (6) the need to
avoid unwarranted sentencing disparities among
defendants with similar criminal records who have
been found guilty of similar conduct; and (7) the need
to provide restitution to any victims of the offense.
Defendant understands the Court will also consider the
kinds of sentence and the sentencing range established
by the United States Sentencing Guidelines for the
applicable category of offense(s) committed by
defendant and will consider any pertinent policy
statements issued as part of the Guidelines. The Court
will consider relevant adjustments under the United
States Sentencing Guidelines, which will include a
review of such things as defendant’s role in the offense,
criminal history, acceptance or lack of acceptance of
responsibility, and other considerations. The Court
may also consider other information including any

App. 144
information concerning the background, character, and
conduct of defendant.
17. AM During plea negotiations the parties may
have discussed how various factors could impact the
Court’s sentencing decision and the determination of
the advisory sentencing guidelines range. The parties
agree, however, that discussions did not result in any
express or implied promise or guarantee concerning the
actual sentence to be imposed by the Court. Defendant
understands the Court is not bound by the stipulations
of the parties, nor is it bound by the sentencing range
as determined pursuant to the sentencing guidelines.
This plea agreement provides for no guarantee
concerning the actual sentence to be imposed.
Defendant further understands defendant will have no
right to withdraw defendant’s guilty plea if the
sentence imposed is other than defendant hoped for or
anticipated.
18. AM The parties stipulate and agree the United
States Sentencing Guidelines should be applied, at
least, as follows:
AM A.

Base Offense Level - Drug Trafficking
(Chapter 2): For Count 1, pursuant to
USSG §2D1.1, the appropriate base
offense level is at least 30 based upon
defendant’s involvement with at least 280
grams of a mixture or substance
containing a detectable amount of cocaine
base, a Schedule II controlled substance.
The government is free to present
evidence and arguments to support the

App. 145
stipulation and, if warranted, a higher
base offense level.
AM B.

A c c ep tance
of R esp onsib ilit y
(Chapter 3 adjustment): The United
States agrees for purposes of USSG
§3E1.1(b) that defendant timely notified
authorities of defendant’s intention to
enter a guilty plea.

AM C.

Criminal History (Chapter 4): No
agreement has been reached regarding
defendant’s criminal history. The parties
reserve the right to contest the Probation
Office’s determination of defendant’s
criminal history and criminal history
category under Chapter Four of the
sentencing guidelines. In addition,
defendant understands that, if
defendant’s criminal history would result
in a higher base offense level under any
guideline, the government is free to seek
such a base offense level.

AM D.

No other agreements have been reached,
and the parties are free to litigate any
and all other applicable adjustments,
departures, or cross-references under the
United States Sentencing Guidelines, and
any variances of any kind from the
advisory guideline range, in any amount,
in either direction.

AM E.

Defendant, defendant’s attorney, and the
United States may make whatever

App. 146
comment and evidentiary offer they deem
appropriate at the time of the guilty plea,
sentencing, or any other proceeding
related to this case, so long as the offer or
comment does not violate any other
provision of this agreement. The parties
are also free to provide all relevant
information and controlling authority to
the Probation Office and Court for use in
preparing and litigating adjustments,
enhancements, or departures scored in
the presentence report, including offering
statements made by defendant at any
time.
19. AM The parties are free to contest or defend any
ruling of the Court, unless otherwise limited by this
agreement, on appeal or in any other post-conviction
proceeding.
POTENTIAL FOR DEPARTURE OR CREDIT
20. AM The United States may, but shall not be
required to, make a motion pursuant to §5K1.1 of the
United States Sentencing Guidelines in the event
defendant provides “substantial assistance.” This
decision shall be in the sole discretion of the United
States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. No downward departure for “substantial
assistance” may be made absent a government motion
under §5K1.1.

App. 147
21. AM The United States may, but shall not be
required to, make a motion pursuant to 18 U.S.C.
§ 3553(e) allowing the Court to depart below the
mandatory minimum sentence required by statute for
any offense to which defendant has agreed to plead
guilty in the event defendant provides “substantial
assistance.” This decision shall be in the sole discretion
of the United States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. Defendant understands and agrees any
motion for “substantial assistance” under USSG
§5K1.1, as described above, is independent from a
possible motion under this paragraph. The United
States may make either, neither, or both motions with
respect to each applicable count to which defendant has
agreed to plead guilty. This decision shall be in the sole
discretion of the United States Attorney’s Office. No
downward departure below a mandatory minimum
may be made absent a government motion under 18
U.S.C. § 3553(e) separate from a motion under USSG
§5K1.1.
22. AM It is understood and agreed no motion for
downward departure based on defendant’s cooperation
shall be made, under any circumstances, unless
defendant’s cooperation is deemed “substantial” by the
United States Attorney’s Office and defendant has fully
complied with all provisions of this plea agreement.
The United States has made no promise, implied or
otherwise, that a departure motion will be made or that
defendant will be granted a departure for “substantial

App. 148
assistance.” Further, no promise has been made that a
motion will be made for departure even if defendant
complies with the terms of this agreement in all
respects, but has not, in the assessment of the United
States Attorney’s Office, provided “substantial
assistance.”
23. AM The United States will consider the totality
of the circumstances, including but not limited to the
following factors, in determining whether, in the
assessment of the United States Attorney’s Office,
defendant has provided “substantial assistance” that
would merit a government request for a downward
departure under USSG §5K1.1 and/or 18 U.S.C.
§ 3553(e), and if so, what recommendation to make to
the Court.
A. the government’s evaluation of the significance
and usefulness of any assistance rendered by
defendant;
B. the truthfulness; completeness, and reliability of
any information or testimony provided by
defendant;
C. the nature and extent of defendant’s assistance;
D. any injuries suffered or any danger or risk of
injury to defendant or family members resulting
from any assistance provided;
E. the timeliness of any assistance provided by
defendant; and
F. Other benefits received by defendant in the plea
agreement., including any decision by the

App. 149
United States to forego multiple enhancements
under 21 U.S.C. § 851 that would otherwise have
required a life sentence, a decision that already
provides a significant benefit to defendant.
24. AM Defendant understands and agrees the
government has gathered extensive evidence in the
course of its investigation, and further, no departure
motion will be made on the basis of information or
cooperation provided by defendant if such information
or cooperaton is merely cumulative of information
already in the possession of the United States.
25. AM It is understood and agreed that, if the
United States makes a motion for departure based
upon defendant’s “substantial assistance,” the Court
will decide whether to grant the motion. If the Court
grants the motion, it will be for the Court to decide,
within the limits of the law and its discretion, how
much of a reduction in sentence is warranted.
26. AM Defendant agrees and understands
defendant shall not be permitted to withdraw
defendant’s plea of guilty as to any count or otherwise
fail to comply with the terms of this agreement in the
event defendant is not satisfied with the government’s
“substantial assistance” motion decision or the Court’s
sentence in the case.
FINANCIAL MATTERS
27. AM Defendant agrees to pay a special
assessment of $100 as required by 18 U.S.C. § 3013.
Defendant may pay the special assessment to the Clerk
of Court using the enclosed payment coupon.
Defendant or defendant’s representative will send or

App. 150
deliver the special assessment payment to the U.S.
District Clerk of Court, 111 Seventh Avenue, SE, Box
12, Cedar Rapids, IA 52401. If defendant does not pay
the Clerk of Court by credit card, payment must be in
the form of a money order made out to the “U.S.
District Clerk of Court.” The special assessment must
be paid before this signed agreement is returned to the
U.S. Attorney’s Office. If defendant fails to pay the
special assessment prior to the sentencing, defendant
stipulates that a downward adjustment for acceptance
of responsibility under USSG §3E1.1 is not appropriate
unless the Court finds defendant has no ability to pay
prior to the sentencing.
FORFEITURE
28. AM Defendant agrees to forfeit and abandon any
and all claim to items seized by law enforcement from
defendant at the time of any arrest or search, including
defendant’s arrest and the search of defendant’s
residence on April 28, 2016. Defendant also waives any
right to additional notice of the forfeiture and
abandonment of such property. Defendant stipulates
this plea agreement constitutes notice under Local
Criminal Rule 57.3(c) regarding the disposal of any
exhibits or evidence related to this matter. Defendant
understands that, from this date forward, any local,
state, or federal law enforcement agency may take
custody of and use, dispose of, and transfer these items
in any way the agency deems appropriate.
29. AM Defendant agrees to voluntarily disclose,
forfeit, abandon, give up, and give away to the United
States, or any law enforcement agency designated by
the United States, prior to the date of sentencing

App. 151
herein, any right, title and interest defendant may
have in property subject to forfeiture under the United
States Code, 21 U.S.C. §§ 853 and 881, and 18 U.S.C.
§§ 924, 981 and 982, and any right, title and interest
defendant may have in the following items:
A. all controlled substances that have been
possessed in violation of federal law, all raw
materials, products, and equipment of any kind
that are or have been used, or intended for use,
in manufacturing, compounding, processing,
delivering, importing, or exporting any
controlled substance in violation of federal law;
B. all property that is or has been used or intended
for use as a container for the items referred to in
subparagraph A;
C. all conveyances, including aircraft, vehicles, or
vessels, that are or have been used, or are
intended for use, to transport or in any manner
to facilitate the transportation, sale, receipt,
possession, or concealment of items referred to
in subparagraph A;
D. all monies, negotiable instruments, securities, or
other things of value, furnished or intended to be
furnished by any person in exchange for a
controlled substance in violation of federal drug
laws, and all proceeds traceable to such an
exchange, and all monies, negotiable
instruments, and securities used or intended to
be used to facilitate any violation of federal drug
laws;

App. 152
E. all real property, including any right, title, and
interest in the whole of any lot or tract of land
and any appurtenances or improvements used,
or intended to be used, in any manner or part to
commit or to facilitate the commission of any
violation of a federal drug law that is a felony;
F. any and all firearms and ammunition in
defendant’s care, custody or control during the
time period of defendant’s illegal conduct; and
G. any other property deemed forfeitable under the
provisions of 21 U.S.C. § 853 and/or § 881.
30. AM If any of the property described in the above
paragraphs, as a result of any act or omission of
defendant:
A. cannot be located upon the exercise of due
diligence;
B. has been transferred or sold to, or deposited
with, a third party;
C. has been placed beyond the jurisdiction of the
Court;
D. has been substantially diminished in value; or
E. has been commingled with other property that
cannot be divided without difficulty;
defendant shall, prior to sentencing, provide payment
to the government by cashier’s or certified check up to
the value of such property. Alternatively, defendant
shall consent to an order of forfeiture of any other
property up to the value of any such property.

App. 153
31. AM Defendant specifically agrees to forfeit any
and all interest of the property specified in the
indictment paragraphs a-f as the proceeds of drug
activity and/or property that facilitated a drug crime.
Defendant further stipulates and agrees pursuant to
Rule 32.2(a) to the entry of a money judgment in an
amount of not more than $25,0000 due and payable
immediately. This $25,000 represents drug proceeds
received from defendant’s illegal activity. Upon
completion of the attached financial statement, and, at
the discretion of the United States, an examination of
defendant’s financial condition, defendant agrees the
United States may set the amount of the monetary
judgment in any amount of not more than $25,000 or
may, in its discretion elect to waive imposition of a
monetary judgment in this case.
32. AM Within two weeks of signing this agreement,
defendant agrees to provide the United States
Attorney’s Office for the Northern District of Iowa with
written documentation of defendant’s ownership or
right, title, or interest in the aforementioned property.
In the event defendant is unable to provide
documentation of defendant’s right, title, or interest in
such property within two weeks of signing this
agreement, defendant shall relinquish custody of that
property to the United States at that time, or at any
subsequent time agreed to by the United States, upon
demand of the government.
33. AM By this agreement defendant not only
agrees to forfeit all interests in the property referred to
in the above paragraphs, but agrees to take whatever
steps are necessary to convey any and all of defendant’s

App. 154
right, title, and interest in such property to the United
States. These steps include, but are not limited to, the
surrender of title, the signing of a quit claim deed, the
signing of a consent decree, the signing of
abandonment papers, the signing of a stipulation of
facts regarding the transfer and basis for the forfeiture,
and the signing any other documents necessary to
effectuate such transfers. Defendant further agrees to
fully assist the government in the recovery and return
to the United States of any assets or portions thereof as
described above wherever located. Defendant further
agrees to make a full and complete disclosure of all
assets over which defendant exercises control and those
held or controlled by a nominee. Defendant further
agrees to be polygraphed on the issue of assets if it is
deemed necessary by the United States before
defendant’s sentencing.
34. AM Defendant agrees not to waste, sell, dispose
of, or otherwise diminish the value of any items or
property referred to in the above paragraphs or allow
others to do so. Defendant further agrees not to contest
any forfeiture action: or proceeding brought on behalf
of any government agency involved in this
investigation-that seeks to forfeit property described in
the above paragraphs.
35. AM Defendant agrees and understands that,
should defendant fail to truthfully account for all of
defendant’s holdings, proceeds, assets, or income,
whether derived from a legal source or not, for the
period charged, defendant shall be deemed to have
materially breached this agreement. The decision as to
whether defendant has been complete, forthright, and

App. 155
truthful in this regard shall be in the sole discretion of
the United States Attorney’s Office, taking into
consideration the totality of the circumstances and the
totality of the evidence developed in the course of the
investigation.
GENERAL MATTERS
36. AM Defendant shall not violate any local, state,
or federal law during the pendency of this agreement.
Any law violation, with the exception of speeding or
parking violations, committed by defendant will
constitute a breach of this agreement and may result in
the revocation of the entire agreement or any of its
terms. Defendant or defendant’s attorney shall notify
this office within 48 hours if defendant is questioned,
charged, or arrested for any law violation.
37. AM If defendant violates any term or condition
of this plea agreement, in any respect, the entire
agreement will be deemed to have been breached and
may be rendered null and void by the United States.
Defendant understands, however, the government may
elect to proceed with the guilty plea and sentencing.
These decisions shall be in the sole discretion of the
United States. If defendant does breach this
agreement, defendant faces the following consequences:
(1) all testimony and other information defendant has
provided at any time (including any stipulations in this
agreement) to attorneys, employees, or law
enforcement officers of the government, to the Court, or
to the federal grand jury may and will be used against
defendant in any prosecution or proceeding; (2) the
United States will be entitled to reinstate previously
dismissed charges and/or pursue additional charges

App. 156
against defendant and to use any information obtained
directly or indirectly from defendant in those additional
prosecutions; and (3) the United States will be released
from any obligations, agreements, or restrictions
imposed upon it under this plea agreement.
38. AM Defendant waives all claims defendant may
have based upon the statute of limitations, the Speedy
Trial Act, and the speedy trial provisions of the Sixth
Amendment to the Constitution. Defendant also agrees
any delay between the signing of this agreement and
the final disposition of this case constitutes excludable
time under 18 U.S.C. § 3161 et seq. (the Speedy Trial
Act) and related provisions.
ACKNOWLEDGMENT OF DEFENDANT’S
UNDERSTANDING
39. AM Defendant acknowledges defendant has
read each of the provisions of this entire plea
agreement with the assistance of counsel and
understands its provisions. Defendant has discussed
the case and defendant’s constitutional and other
rights with defendant’s attorney. Defendant
understands that, by entering a plea of guilty,
defendant will be giving up the right to plead not
guilty; to trial by jury; to confront, cross-examine, and
compel the attendance of witnesses; to present evidence
in defendant’s defense; to remain silent and refuse to
be a witness by asserting defendant’s privilege against
self-incrimination; and to be presumed innocent until
proven guilty beyond a reasonable doubt. Defendant
agrees defendant’s attorney has represented defendant
in a competent manner and has no complaints about
that lawyer’s representation. Defendant states

App. 157
defendant is not now on or under the influence of, any
drug, medication, liquor, or other substance, whether
prescribed by a physician or not, that would impair
defendant’s ability to fully understand the terms and
conditions of this plea agreement.
40. AM Defendant acknowledges defendant is
entering into this plea agreement and is pleading guilty
freely and voluntarily because defendant is guilty and
for no other reason. Defendant further acknowledges
defendant is entering into this agreement without
reliance upon any discussions between the government
and defendant (other than those specifically described
in this plea agreement), without promise of benefit of
any kind (other than any matters contained in this plea
agreement), and without threats, force, intimidation, or
coercion of any kind. Defendant further acknowledges
defendant’s understanding of the nature of each offense
to which defendant is pleading guilty, including the
penalties provided by law.
41. AM Defendant further understands defendant
will be adjudicated guilty of each offense to which
defendant will plead guilty and will thereby be
deprived of certain rights, including, but not limited to,
the right to vote, to hold public office, to serve on a
jury, and to possess firearms and ammunition.
Defendant understands the government reserves the
right to notify any state or federal agency by whom
defendant is licensed, or with whom defendant does
business, of the fact of defendant’s conviction.

App. 158
VERIFICATION
42. AM This letter constitutes the entire agreement
between the parties. No other promises of any kind,
express or implied, have been made to defendant by the
United States or its agents. No additional agreement
may be entered into unless in writing and signed by all
parties. The agreement will not be deemed to be valid
unless and until all signatures appear where indicated
below.
If this agreement is acceptable, please have your
client indicate acceptance by placing initials on the line
preceding each of the above paragraphs and by signing
below where indicated. By initialing each paragraph
and signing below, defendant acknowledges defendant
has read, fully understands, and agrees to each
paragraph of this agreement. Please return all
enclosures, completed and signed, with this signed
letter to the U.S. Attorney’s Office.
Please complete the enclosed Consent to Proceed
Before the Magistrate Judge. This document is needed
to allow the Magistrate Judge to receive defendant’s
guilty plea.
Finally, please remember to pay the special
assessment as agreed above.
Thank you for your cooperation.
Sincerely,
PETER E. DEEGAN, JR.
United States Attorney
By: / s / Emily K. Nydle

App. 159
Emily K. Nydle
Assistant United States Attorney
ENCLOSURES:
Financial Statement Form
Special Assessment Payment Coupon
Abandonment Declaration
Consent to Proceed Before Magistrate Judge
The undersigned defendant, with advice of counsel,
accepts the terms of this plea agreement. The
undersigned Assistant United States Attorney accepts
the terms of the executed plea agreement.
/s/ Alexander Martin
Alexander Martin
Defendant

2/14/18
Date

/s/ Emily K. Nydle
2/15/18
Emily K. Nydle
Date
Assistant United States Attorney
/s/ Chad R. Frese
2/14/18
Chad R. Frese
Date
Attorney for Defendant

App. 160
[SEAL]
U. S. Department of Justice
United States Attorney
Northern District of Iowa
EXHIBIT OFFERED UNDER SEAL
[Dated: November 21, 2017]
_________________________________________________
111 Seventh Avenue, SE
Box 1
Cedar Rapids, IA 52401 2101

319-363-6333
319-363-1990 (fax)
319-286-9258 (tty)
November 21, 2017

John J. Bishop
222 3rd Avenue, SE
Cedar Rapids, IA 52401
Re:

United States v. Naiqondis Maurice Spates,
17-CR-2043

Dear Mr. Bishop:
This letter will serve as a FIRST memorandum of a
proposed plea agreement between the United States
Attorney’s Office for the Northern District of Iowa and
Naiqondis Maurice Spates, defendant. All references to
the “United States” or “government” in this proposed
plea agreement refer to the United States Attorney’s
Office for the Northern District of Iowa and to no other
governmental entity. This plea offer will expire on
December 11, 2017, unless otherwise extended by the

App. 161
government. The government has made no prior plea
offers in this case.
CHARGES AND PENALTIES
1. NS Defendant will plead guilty to Count 1 and
Count 11 of the Indictment filed on July 10, 2017.
Count 1 charges conspiracy to distribute cocaine base,
in violation of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(B), and
846. Count 11 charges distribution of cocaine base
within 1000 feet of a protected location, in violation of
21 U.S.C. §§ 841(a)(1), 841(b)(1)(C), and 860(a).
Pursuant to 21 U.S.C. § 851, the indictment also
contains notice of one prior felony drug conviction.
2. NS Defendant understands that Count 1 of the
Indictment is punishable by a mandatory minimum
sentence of 10 years’ imprisonment and the following
maximum penalties: (1) not more than life
imprisonment without the possibility of parole; (2) a
fine of not more than $8,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 8 years to life.
3. NS Defendant understands that Count 11 of the
Indictment is punishable by a mandatory minimum
sentence of 1 year imprisonment and the following
maximum penalties: (1) not more than 60 years’
imprisonment without the possibility of parole; (2) a
fine of not more than $4,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 6 years to life
imprisonment.
4. NS Defendant understands restitution and a
term of supervised release following incarceration may

App. 162
be imposed in addition to any other sentence.
Defendant further acknowledges that, if defendant
violates, at any time, any condition of supervised
release, defendant could be returned to prison for the
full term of supervised release and the Court is not
required to grant credit for any amount of time
defendant may have successfully completed on
supervised release. Defendant also understands the
U.S. Sentencing Guidelines will provide advisory
guidance to the Court in determining a sentence in this
case.
5. NS At the time the guilty plea is entered,
defendant will admit that defendant is guilty of the
charges specified in Paragraph 1 of this agreement.
After sentencing, the govemment will move for
dismissal of any remaining counts. The U.S. Attorney’s
Office for this District will file no additional Title 21
drug-related criminal charges based solely upon
information now in our possession or information later
provided by defendant under the conditions set forth in
the “Cooperation” section below. If this office becomes
aware of evidence of additional crimes warranting
criminal prosecution, all information in our possession
could be used in such a prosecution.
6. NS Defendant understands and agrees defendant
has the absolute right to plead guilty before a United
States District Court Judge. However, if convenient to
the Court, defendant agrees to waive and give up this
right and to plead guilty before a United States
Magistrate Judge. Defendant understands defendant
will not be found guilty unless the United States
District Court Judge accepts the plea of guilty or

App. 163
adopts a recommendation of the Magistrate Judge to
accept such plea. Defendant agrees to execute the
attached consent to proceed before the United States
Magistrate Judge.
COOPERATION
7. NS Defendant agrees to fully and completely
cooperate with the United States Attorney’s Office and
other law enforcement agencies in the investigation of
criminal activity within the Northern District of Iowa
and elsewhere.
8. NS Full and complete cooperation with the
United States Attorney’s Office and law enforcement
agencies shall include, but is not limited to, the
following, if feasible:
A. providing information to secure search warrants;
B. providing testimony before the federal grand
jury and, if necessary, testimony before any
Court as a witness in any prosecution growing
out of this or any related investigation; in the
event defendant is called upon to testify on
behalf of the government in any trial, grand jury
or other proceeding and is incarcerated at that
time in any local, state or federal institution,
defendant agrees to waive any and all claim for
witness fees and/or expenses which might
otherwise be due under any statute, regulation
or other provision of law pertaining to such fees
and/or expenses; if, at the time of the testimony,
defendant is not incarcerated, defendant agrees
to waive witness fees and all local travel
expenses;

App. 164
C. providing any documents or other items in
defendant’s custody, possession, or under
defendant’s control that are relevant to this or
any related investigation;
D. making defendant available for interview and
debriefing sessions by government attorneys and
law enforcement agents upon request;
E. recording conversations related
investigation as requested; and

to

any

F. engaging in and conducting other activities as
directed by the law enforcement agents in
charge of the investigation.
9. NS Defendant will provide complete and truthful
information to the government, law enforcement
officers, the federal grand jury conducting this
investigation, and any court. Defendant will answer all
questions concerning this investigation and will not
withhold any information. Defendant will neither
attempt to protect any person or entity through false
information or omission nor falsely implicate any
person or entity. Defendant will at all times tell the
truth and nothing but the truth during any interviews
or as a witness regardless of who asks the questions –
the prosecutors, defense attorneys, investigating
agents, probation officers, or the judge. Since the
United States insists upon defendant telling the truth
and nothing but the truth during any court proceeding,
grand jury proceeding, or government interview related
to this case, failure to provide complete and truthful
information at any such time will constitute a breach
of this agreement.

App. 165
10. NS No testimony or other information provided
by defendant pursuant to this plea agreement or
pursuant to a proffer agreement to the United States
Attorney’s Office, federal or state law enforcement
officers, employees of the government, the federal
grand jury conducting this investigation, or to a court
will be used against defendant for the purpose of
bringing additional Title 21 criminal charges in the
Northern District of Iowa, provided defendant does not
violate or withdraw from the terms of this agreement.
However, such testimony or other information may and
will be used in the following circumstances:
A. derivatively or indirectly, including but not
limited to the following: to impeach defendant’s
credibility; to cross-examine defense witnesses;
to re-direct government witnesses; or to rebut
any evidence or argument presented by
defendant that is inconsistent with information
provided by defendant pursuant to this
agreement; to develop leads from the
information provided, including for use in
determining the applicable guideline range; and
use for all other non-evidentiary purposes;
B. by the Court or Probation Office at any time,
including at the time of defendant’s guilty plea
and sentencing in this matter, but shall not be
used in determining the applicable guideline
range in accordance with §1B1.8, except the
information may be used derivatively or
indirectly, as provided in subparagraph A;
C. in any proceeding concerning a breach of this
agreement;

App. 166
D. at any time in any criminal prosecution against
defendant if defendant fails to provide complete
and truthful information as required by the
terms of this agreement;
E. in a subsequent prosecution for crimes or acts
that were not disclosed by defendant during an
interview conducted pursuant to this agreement
or any related proffer agreement;
F. in a subsequent prosecution for crimes or acts
committed by defendant after the date
defendant provided the testimony or
information;
G. in a subsequent prosecution for perjury or giving
a false statement;
H. in any asset forfeiture matter; and
I. in any civil proceeding.
The above restrictions on use of information and/or
testimony in this agreement extend only to acts
committed by defendant on or before the date shown at
the top of this agreement and does not apply to any
prosecution for acts committed by defendant after that
date. Defendant understands the obligation of the
United States to provide all information in its file
regarding defendant to the United States Probation
Office and the Court.
11. NS The United States agrees the information
provided by defendant to federal or state law
enforcement officers on September 8, 2017, and October
25, 2017, shall not be used in determining the

App. 167
applicable guideline range in accordance with §1B1.8.
Such information may be used for any other purpose
permitted by law, including derivatively or indirectly
as provided in paragraph 10A. The above restriction on
the use of the pre-proffer information provided extends
only to acts committed by defendant on or before the
date shown at the top of this agreement and does not
apply to any prosecution for acts committed by
defendant after that date.
12. NS It is understood that, upon request by the
government, defendant will voluntarily submit to a
polygraph examination. If performance in any
polygraph examination suggests a conscious intent to
deceive, mislead, or lie and the totality of
circumstances convinces the government defendant’s
statement is not complete and truthful, defendant will
be so informed and any and all obligations imposed on
the government by this agreement will be rendered
null and void. This decision to nullify the agreement
will be in the sole discretion of the United States
Attorney’s Office for the Northern District of Iowa.
13. NS Defendant shall not reveal or discuss the
existence or conditions of this agreement or defendant’s
cooperation to any person other than defendant’s
attorney and law enforcement personnel involved in
this investigation. Nor shall defendant or any agent of
defendant disclose to any person, directly or indirectly,
other than to defendant’s attorney, without prior
written authorization from the government, the true
identity or occupation of any law enforcement
personnel participating in this investigation in an
undercover capacity or otherwise. Nor shall defendant

App. 168
or any agent of defendant disclose to any person,
without prior written approval of the government, the
location of investigative offices, surveillance locations,
or the nature of investigative techniques used by
agents in this investigation. Nothing in this paragraph
is intended to restrict or prohibit defendant from
providing complete and truthful testimony in any court
proceeding. Furthermore, this agreement does not
prohibit defendant from speaking with an attorney for
a party adverse to the government in any litigation
concerning defendant’s possible testimony in that
litigation. While defendant is under no obligation to
speak with such an attorney, defendant is free to do so
if defendant chooses. That decision rests solely with
defendant as it does with any witness.
14. NS Nothing in this agreement requires the
government to accept any cooperation or assistance
defendant may offer or propose. The decision whether
and how to use any information and/or cooperation
defendant provides (if at all) is in the exclusive
discretion of the United States Attorney’s Office.
STIPULATION OF FACTS
15. NS By initialing each of the following
paragraphs, defendant stipulates to the following facts.
Defendant agrees these facts are true and may be used
to establish a factual basis for defendants guilty plea,
sentence, and any forfeiture. Defendant has been
advised by defendant’s attorney of defendant’s rights
under Federal Rule of Criminal Procedure 11(f) and
Federal Rule of Evidence 410. Defendant waives these
rights and agrees this stipulation may be used against
defendant at any time in any proceeding should

App. 169
defendant violate or refuse to follow through on this
plea agreement, regardless of whether the plea
agreement has been accepted by the Court. Defendant
agrees that the stipulation below is a summary of the
facts against defendant and does not constitute all of
the facts the government would be able to prove at trial
and may be able to prove to the Court in accordance
with this agreement.
NS A.

On or about August 5, 2004, defendant
was convicted of Delivery of Controlled
Substance – Cocaine Base, in the Iowa
District Court for Black Hawk County in
case number FECR112698. This was a
felony drug offense.

NS B.

Beginning no later than January 2015,
and continuing through about March
2017, two or more persons reached an
agreement to distribute cocaine base
(“crack cocaine”). Defendant voluntarily
and intentionally joined in the agreement
or understanding, either at the time it
was first reached, or at some later time
while it was still in effect. At the time the
defendant joined in the agreement or
understanding, defendant knew that
the purpose of the agreement or
understanding was to distribute crack
cocaine. The agreement or understanding
included defendant, Devonte Jenkins,
Gary Krueger, and others. The agreement
or understanding involved the
distribution of at least 28 grams of crack

App. 170
cocaine. Acts in furtherance of the
agreement or understanding took place in
Waterloo, Iowa, which is in the Northern
District of Iowa.
NS C.

Beginning in early 2015, law enforcement
in Waterloo began investigating the
distribution of crack cocaine by
defendant, Jenkins, Krueger, and others.
This investigation included the use of
confidential informants and undercover
officers to purchase crack cocaine from
defendant, Jenkins, and Kruger. The
investigation eventually included the use
of wiretaps to intercept phone calls and
text messages.

NS D.

Defendant sold crack cocaine to a
confidential informant or an undercover
officer on February 19, 2016 (.61 grams),
September 27, 2016 (.61 grams), October
11, 2016 (.56 grams), and October 24,
2016 (.64 grams). On each of these
occasions, defendant intentionally
transferred crack cocaine to another
person and knew that the substance he
transferred was crack cocaine. The sale
on February 19, 2016, as charged in
Count 11 of the Indictment, took place
within 1000 feet of East High School in
Waterloo, Iowa. In total, defendant
distributed at least 2.42 grams of crack
cocaine during these controlled
purchases.

App. 171
NS E.

From no later than January 2015 through
about March 2017, B.P., a user of crack
cocaine, regularly purchased crack
cocaine from defendant. During this time
period, B.P. purchased at least one gram
of crack cocaine per week from defendant.
During this time period, B.P. purchased
at least 112 grams of crack cocaine from
defendant.

NS F.

From no later than October 2016 through
about April 2017, T.R., a user of crack
cocaine, regularly purchased crack
cocaine from defendant. During this time
period, T.R. purchased at least .5 grams
of crack cocaine per week from defendant.
During this time period, defendant
purchased at least 12 grams of crack
cocaine from defendant.

NS G.

From December 13, 2016, through
February 10, 2017, federal law
enforcement officials intercepted
communications over phones used by
defendant and Jenkins. During this time
period, defendant and Jenkins regularly
used these phones to discuss crack
cocaine transactions with one another.
other crack cocaine distributors, and their
customers. Krueger was intercepted
speaking to both defendant and Jenkins
regarding crack cocaine distribution.

App. 172
SENTENCING PROVISIONS
16. NS Defendant understands and agrees to be
sentenced based on facts to be found by the sentencing
judge by a preponderance of the evidence and agrees
facts essential to the punishment need not be
(1) charged in the Indictment; (2) proven to a jury; or
(3) proven beyond a reasonable doubt. Defendant
agrees the Court will determine the appropriate
sentence after considering a variety of factors,
including: (1) the nature and circumstances of the
offense and the history and characteristics of
defendant; (2) the need for the sentence imposed to
reflect the seriousness of the offense, to promote
respect for the law, and to provide just punishment for
the offense; (3) the need for the sentence to afford
adequate deterrence to criminal conduct; (4) the need
for the sentence to protect the public from further
crimes of defendant; (5) the need for the sentence to
provide defendant with needed educational or
vocational training, medical care, or other correctional
treatment in the most effective manner; (6) the need to
avoid unwarranted sentencing disparities among
defendants with similar criminal records who have
been found guilty of similar conduct; and (7) the need
to provide restitution to any victims of the offense.
Defendant understands the Court will also consider the
kinds of sentence and the sentencing range established
by the United States Sentencing Guidelines for the
applicable category of offense(s) committed by
defendant and will consider any pertinent policy
statements issued as part of the Guidelines. The Court
will consider relevant adjustments under the United
States Sentencing Guidelines, which will include a

App. 173
review of such things as defendant’s role in the offense,
criminal history, acceptance or lack of acceptance of
responsibility, and other considerations. The Court
may also consider other information including any
information concerning the background, character, and
conduct of defendant.
17. NS During plea negotiations the parties may
have discussed how various factors could impact the
Court’s sentencing decision and the determination of
the advisory sentencing guidelines range. The parties
agree, however, that discussions did not result in any
express or implied promise or guarantee concerning the
actual sentence to be imposed by the Court. Defendant
understands the Court is not bound by the stipulations
of the parties, nor is it bound by the sentencing range
as determined pursuant to the sentencing guidelines.
This plea agreement provides for no guarantee
concerning the actual sentence to be imposed.
Defendant further understands defendant will have no
right to withdraw defendant’s guilty plea if the
sentence imposed is other than defendant hoped for or
anticipated.
18. NS The parties stipulate and agree the United
States Sentencing Guidelines should be applied, at
least, as follows:
NS H.

Base Offense Level - Drug Trafficking
(Chapter 2): For Count 1 and Count 11,
pursuant to USSG §2D1.1, the
appropriate base offense level is at least
26 based upon defendant’s involvement
with at least 112 grams of a mixture or
substance containing a detectable amount

App. 174
of cocaine base, a Schedule II controlled
substance. The government is free to
present evidence and arguments to
support the stipulation and, if warranted,
a higher base offense level.
NS I.

Drug Base Offense Level - Protected
Location (Chapter 2): For Count 1 and
Count 11, pursuant to USSG §2D1.2(a),
the appropriate base offense level is one
plus the offense level from §2D1.1
applicable to the total quantity of
controlled substances involved in the
offense.

NS J.

Acceptan ce
of R esp on sib ility
(Chapter 3 adjustment): The United
States agrees for purposes of USSG
§3E1.1(b) that defendant timely notified
authorities of defendant’s intention to
enter a guilty plea.

NS K.

Criminal History (Chapter 4): No
agreement has been reached regarding
defendant’s criminal history. The parties
reserve the right to contest the Probation
Office’s determination of defendant’s
criminal history and criminal history
category under Chapter Four of the
sentencing guidelines. In addition,
defendant understands that, if
defendant’s criminal history would result
in a higher base offense level under any
guideline, the government is free to seek
such a base offense level.

App. 175
NS L.

No other agreements have been reached,
and the parties are free to litigate any
and all other applicable adjustments,
departures, or cross-references under the
United States Sentencing Guidelines, and
any variances of any kind from the
advisory guideline range, in any amount,
in either direction.

19. NS Defendant, defendant’s attorney, and the
United States may make whatever comment and
evidentiary offer they deem appropriate at the time of
the guilty plea, sentencing, or any other proceeding
related to this case, so long as the offer or comment
does not violate any other provision of this agreement.
The parties are also free to provide all relevant
information and controlling authority to the Probation
Office and Court for use in preparing and litigating
adjustments, enhancements, or departures scored in
the presentence report, including offering statements
made by defendant at any time.
20. NS The parties are free to contest or defend any
ruling of the Court, unless otherwise limited by this
agreement, on appeal or in any other post-conviction
proceeding.
CONDITIONS OF SUPERVISION
21. NS If probation or a term of supervised release
is ordered, the parties are free to seek whatever
conditions they deem appropriate.

App. 176
POTENTIAL FOR DEPARTURE OR CREDIT
22. NS The United States may, but shall not be
required to, make a motion pursuant to §5K1.1 of the
United States Sentencing Guidelines in the event
defendant provides “substantial assistance.” This
decision shall be in the sole discretion of the United
States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. No downward departure for “substantial
assistance” may be made absent a government motion
under §5K1.1.
23. NS The United States may, but shall not be
required to, make a motion pursuant to 18 U.S.C.
§ 3553(e) allowing the Court to depart below the
mandatory minimum sentence required by statute for
any offense to which defendant has agreed to plead
guilty in the event defendant provides “substantial
assistance.” This decision shall be in the sole discretion
of the United States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. Defendant understands and agrees any
motion for “substantial assistance” under USSG
§5K1.1, as described above, is independent from a
possible motion under this paragraph. The United
States may make either, neither, or both motions with
respect to each applicable count to which defendant has

App. 177
agreed to plead guilty. This decision shall be in the sole
discretion of the United States Attorney’s Office. No
downward departure below a mandatory minimum
may be made absent a government motion under 18
U.S.C. § 3553(e) separate from a motion under USSG
§5K1.1.
24. NS It is understood and agreed no motion for
downward departure based on defendant’s cooperation
shall be made. under any circumstances, unless
defendant’s cooperation is deemed “substantial” by the
United States Attorney’s Office and defendant has fully
complied with all provisions of this plea agreement.
The United States has made no promise, implied or
otherwise, that a departure motion will be made or that
defendant will be granted a departure for “substantial
assistance.” Further, no promise has been made that a
motion will be made for departure even if defendant
complies with the terms of this agreement in all
respects, but has not, in the assessment of the United
States Attorney’s Office, provided “substantial
assistance.”
25. NS The United States will consider the totality
of the circumstances, including but not limited to the
following factors, in determining whether, in the
assessment of the United States Attorney’s Office,
defendant has provided “substantial assistance” that
would merit a government request for a downward
departure under USSG §5K1.1 and/or 18 U.S.C.
§ 3553(e), and if so, what recommendation to make to
the Court.

App. 178
A. the government’s evaluation of the significance
and usefulness of any assistance rendered by
defendant;
B the truthfulness, completeness, and reliability of
any information or testimony provided by
defendant;
C. the nature and extent of defendant’s assistance;
D. any injuries suffered or any danger or risk of
injury to defendant or family members resulting
from any assistance provided;
E. the timeliness of any assistance provided by
defendant; and
F. Other benefits received by defendant in the plea
agreement.
26. NS Defendant understands and agrees the
government has gathered extensive evidence in the
course of its investigation, and further, no departure
motion will be made on the basis of information or
cooperation provided by defendant if such information
or cooperation is merely cumulative of information
already in the possession of the United States.
27. NS It is understood and agreed that, if the
United States makes a motion for departure based
upon defendant’s “substantial assistance,” the Court
will decide whether to grant the motion. If the Court
grants the motion, it will be for the Court to decide,
within the limits of the law and its discretion, how
much of a reduction in sentence is warranted.

App. 179
28. NS Defendant agrees and understands
defendant shall not be permitted to withdraw
defendant’s plea of guilty as to any count or otherwise
fail to comply with the terms of this agreement in the
event defendant is not satisfied with the government’s
“substantial assistance” motion decision or the Court’s
sentence in the case.
FINANCIAL MATTERS
29. NS Defendant agrees to pay a special
assessment of $100 per count, for a total of $200, as
required by 18 U.S.C. § 3013. Defendant may pay the
special assessment to the Clerk of Court using the
enclosed payment coupon. Defendant or defendant’s
representative will send or deliver the special
assessment payment to the U.S. District Clerk of
Court, 111 Seventh Avenue, SE, Box 12, Cedar Rapids,
IA 52401.
30. NS Defendant understands the Court may order
defendant to pay restitution to all identifiable victims
of the offense(s) to which defendant is pleading guilty.
Defendant agrees to cooperate in the investigation of
the amount of loss and the identification of victims.
31. NS Defendant agrees to fully and truthfully
complete the enclosed financial statement form.
Further, upon request, defendant agrees to provide the
U.S. Attorney’s Office with any information or
documentation in defendant’s possession or control
regarding defendant’s financial affairs and agrees to
submit to a debtor’s examination when requested.
Defendant agrees to provide this information whenever
requested until such time any judgment or claim

App. 180
against defendant, including principal and interest, is
satisfied in full. This information will be used to
evaluate defendant’s capacity to pay any claim or
judgment against defendant.
FORFEITURE
32. NS Defendant agrees to forfeit and abandon any
and all claim to items seized by law enforcement from
defendant at the time of any arrest or search, including
defendant’s arrest and the search of defendant’s arrest
on July 18, 2017. Defendant also waives-fmy right to
additional notice of the forfeiture and abandonment of
such property. Defendant stipulates this plea
agreement constitutes notice under Local Criminal
Rule 57.3(c) regarding the disposal of any exhibits or
evidence related to this matter. Defendant understands
that, from this date forward, any local, state, or federal
law enforcement agency may take custody of and use,
dispose of, and transfer these items in any way the
agency deems appropriate.
33. NS Defendant agrees to voluntarily disclose,
forfeit, abandon, give up, and give away to the United
States, or any law enforcement agency designated by
the United States, prior to the date of sentencing
herein, any right, title and interest defendant may
have in property subject to forfeiture under the United
States Code, including 21 U.S.C. §§ 853 and 881, and
18 U.S.C. §§ 924, 981 and 982, and any right, title and
interest defendant may have in the following items:
A. all controlled substances that have been
possessed in violation of federal law, all raw
materials, products, and equipment of any kind

App. 181
that are or have been used, or intended for use,
in manufacturing, compounding, processing,
delivering, importing, or exporting any
controlled substance in violation of federal law;
B. all property that is or has been used or intended
for use as a container for the items referred to in
subparagraph A;
C. all conveyances, including aircraft, vehicles, or
vessels, that are or have been used, or are
intended for use, to transport or in any manner
to facilitate the transportation, sale, receipt,
possession, or concealment of items referred to
in subparagraph A;
D. all monies, negotiable instruments, securities, or
other things of value, furnished or intended to be
fu1·nished by any person in exchange for a
controlled substance in violation of federal drug
laws, and all proceeds traceable to such an
exchange, and all monies, negotiable
instruments, and securities used or intended to
be used to facilitate any violation of federal drug
laws;
E. all real property, including any light, title, and
interest in the whole of any lot or tract of land
and any appurtenances or improvements used,
or intended to be used, in any manner or part to
commit or to facilitate the commission of any
violation of a federal drug law that is a felony;
F. any and all firearms and ammunition in
defendant’s care, custody or control during the
time pe1iod of defendant’s illegal conduct; and

App. 182
G. any other property deemed forfeitable under the
provisions of 21 U.S.C. § 853 and/or § 881.
34. NS If any of the property described in the above
paragraphs, as a result of any act or omission of
defendant:
A. cannot be located upon the exercise of due
diligence;
B. has been transferred or sold to, or deposited
with, a third party;
C. has been placed beyond the jurisdiction of the
Court;
D. has been substantially diminished in value; or
E. has been commingled with other property that
cannot be divided without difficulty;
defendant shall, prior to sentencing, provide payment
to the government by cashier’s or certified check up to
the value of such property. Alternatively, defendant
shall consent to an order of forfeiture of any other
property up to the value of any such property.
35. NS Within two weeks of signing this agreement,
defendant agrees to provide the United States
Attorney’s Office for the Northern District of Iowa with
written documentation of defendant’s ownership or
right, title, or interest in the aforementioned property.
In the event defendant is unable to provide
documentation of defendant’s right, title, or interest in
such property within two weeks of signing this
agreement, defendant shall relinquish custody of that
property to the United States at that time, or at any

App. 183
subsequent time agreed to by the United States, upon
demand of the government.
36. NS By this agreement defendant not only agrees
to forfeit all interests in the property referred to in the
above paragraphs, but agrees to take whatever steps
are necessary to convey any and all of defendant’s
right, title, and interest in such property to the United
States. These steps include, but are not limited to, the
surrender of title, the signing of a quit claim deed, the
signing of a consent decree, the signing of
abandonment papers, the signing of a stipulation of
facts regarding the transfer and basis for the forfeiture,
and the signing any other documents necessary to
effectuate such transfers. Defendant further agrees to
fully assist the government in the recovery and return
to the United States of any assets or portions thereof as
described above wherever located. Defendant further
agrees to make a full and complete disclosure of all
assets over which defendant exercises control and those
held or controlled by a nominee. Defendant further
agrees to be polygraphed on the issue of assets if it is
deemed necessary by the United States before
defendant’s sentencing.
37. NS Defendant agrees not to waste, sell, dispose
of, or otherwise diminish the value of any items or
property referred to in the above paragraphs or allow
others to do so. Defendant further agrees not to contest
any forfeiture action or proceeding brought on behalf of
any government agency involved in this investigation
that seeks to forfeit property described in the above
paragraphs.

App. 184
38. NS Defendant agrees and understands that,
should defendant fail to truthfully account for all of
defendant’s holdings, proceeds, assets, or income,
whether derived from a legal source or not, for the
period charged, defendant shall be deemed to have
materially breached this agreement. The decision as to
whether defendant has been complete, forthright, and
truthful in this regard shall be in the sole discretion of
the United States Attorney’s Office, taking into
consideration the totality of the circumstances and the
totality of the evidence developed in the course of the
investigation.
GENERAL MATTERS
39. NS Defendant shall not violate any local, state,
or federal law during the pendency of this agreement.
Any law violation, with the exception of speeding or
parking violations, committed by defendant will
constitute a breach of this agreement and may result in
the revocation of the entire agreement or any of its
terms. Defendant or defendant’s attorney shall notify
this office within 48 hours if defendant is questioned,
charged, or arrested for any law violation.
40. NS If defendant violates any term or condition
of this plea agreement, in any respect, the entire
agreement will be deemed to have been breached and
may be rendered null and void by the United States.
Defendant understands, however, the government may
elect to proceed with the guilty plea and sentencing.
These decisions shall be in the sole discretion of the
United States. If defendant does breach this
agreement, defendant faces the following consequences:
(1) all testimony and other information defendant has

App. 185
provided at any time (including any stipulations in this
agreement) to attorneys, employees, or law
enforcement officers of the government, to the Court, or
to the federal grand jury may and will be used against
defendant in any prosecution or proceeding; (2) the
United States will be entitled to reinstate previously
dismissed charges and/or pursue additional charges
against defendant and to use any information obtained
directly or indirectly from defendant in those additional
prosecutions; and (3) the United States will be released
from any obligations, agreements, or restrictions
imposed upon it under this plea agreement.
41. NS Defendant waives all claims defendant may
have based upon the statute of limitations, the Speedy
Trial Act, and the speedy trial provisions of the Sixth
Amendment to the Constitution. Defendant also agrees
any delay between the signing of this agreement and
the final disposition of this case constitutes excludable
time under 18 U.S.C. § 3161 et seq. (the Speedy Trial
Act) and related provisions.
42. NS Any dismissal of counts or agreement to
forego filing charges is conditional upon final resolution
of this matter. If this agreement is revoked or
defendant’s conviction is ultimately overturned, the
United States retains the right to reinstate previously
dismissed counts and to file charges that were not filed
because of this agreement. Dismissed counts may be
reinstated and uncharged offenses may be filed if:
(1) the plea agreement is revoked, or (2) defendant
successfully challenges defendant’s conviction through
a final order in any appeal, cross-appeal, habeas corpus
action, or other post-conviction relief matter. A final

App. 186
order is an order not subject to further review or an
order that no party challenges. The United States may
reinstate any dismissed counts or file any uncharged
offenses within 90 days of the filing date of the final
order. Defendant waives all constitutional and
statutory speedy trial rights defendant may have.
Defendant also waives all statute of limitations or
other objections or defenses defendant may have
related to the timing or timeliness of the filing or
prosecution of charges referred to in this paragraph.
ACKNOWLEDGMENT OF DEFENDANT’S
UNDERSTANDING
43. NS Defendant acknowledges defendant has read
each of the provisions of this entire plea agreement
with the assistance of counsel and understands its
provisions. Defendant has discussed the case and
defendant’s constitutional and other rights with
defendant’s attorney. Defendant understands that, by
entering a plea of guilty, defendant will be giving up
the right to plead not guilty; to trial by jury; to
confront, cross-examine, and compel the attendance of
witnesses; to present evidence in defendant’s defense;
to remain silent and refuse to be a witness by asserting
defendant’s privilege against self-incrimination; and to
be presumed innocent until proven guilty beyond a
reasonable doubt. Defendant agrees defendant’s
attorney has represented defendant in a competent
manner and has no complaints about that lawyer’s
representation. Defendant states defendant is not now
on or under the influence of, any drug, medication,
liquor, or other substance, whether prescribed by a
physician or not, that would impair defendant’s ability

App. 187
to fully understand the terms and conditions of this
plea agreement.
44. NS Defendant acknowledges defendant is
entering into this plea agreement and is pleading guilty
freely and voluntarily because defendant is guilty and
for no other reason. Defendant further acknowledges
defendant is entering into this agreement without
reliance upon any discussions between the government
and defendant (other than those specifically described
in this plea agreement), without promise of benefit of
any kind (other than any matters contained in this plea
agreement), and without threats, force, intimidation, or
coercion of any kind. Defendant further acknowledges
defendant’s understanding of the nature of each offense
to which defendant is pleading guilty, including the
penalties provided by law.
45. NS Defendant further understands defendant
will be adjudicated guilty of each offense to which
defendant will plead guilty and will thereby be
deprived of certain rights, including, but not limited to,
the right to vote, to hold public office, to serve on a
jury, and to possess firearms and ammunition.
Defendant understands the government reserves the
right to notify any state or federal agency by whom
defendant is licensed, or with whom defendant does
business, of the fact of defendant’s conviction.
VERIFICATION
46. NS This letter constitutes the entire agreement
between the parties. No other promises of any kind,
express or implied, have been made to defendant by the
United States or its agents. No additional agreement

App. 188
may be entered into unless in writing and signed by all
parties. The agreement will not be deemed to be valid
unless and until all signatures appear where indicated
below.
If this agreement is acceptable, please have your
client indicate acceptance by placing initials on the line
preceding each of the above paragraphs and by signing
below where indicated. By initialing each paragraph
and signing below, defendant acknowledges defendant
has read, fully understands, and agrees to each
paragraph of this agreement. Please return all
enclosures, completed and signed with this signed
letter to the U.S. Attorney’s Office.
Please complete the enclosed Consent to Proceed
Before the Magistrate Judge. This document is needed
to allow the Magistrate Judge to receive defendant’s
guilty plea. Finally, please remember to pay the special
assessment as agreed above.
Sincerely,
PETER E. DEEGAN, JR.
United States Attorney
By: / s / Ravi T. Narayan
RAVI T. NARAYAN
EMILY K. NYDLE
Assistant United States Attorneys
ENCLOSURES:
Financial Statement Form
Special Assessment Payment Coupon
Consent to Proceed Before Magistrate Judge

App. 189
The undersigned defendant, with advice of counsel,
accepts the terms of this plea agreement. The
undersigned Assistant United States Attorney accepts
the terms of the executed plea agreement.
/s/ Naiqondis Spates
11-28-17
NAIQONDIS MAURICE SPATES Date
Defendant
/s/ Ravi Narayan
RAVI T. NARAYAN
EMILY K. NYDLE
Assistant United States Attorneys
/s/ John Bishop
JOHN J. BISHOP
Attorney for Defendant

11-28-17
Date

12/4/17
Date

App. 190
[SEAL]
U. S. Department of Justice
United States Attorney
Northern District of Iowa
EXHIBIT OFFERED UNDER SEAL
[Dated: March 21, 2018]
_________________________________________________
111 Seventh Avenue, SE
Box 1
Cedar Rapids, IA 52401 2101

319-363-6333
319-363-1990 (fax)
319-286-9258 (tty)
March 21, 2018

Pamela Wingert
1212 18th St.
Spirit Lake, Iowa 51360
Re:

United States v. Samuel Lavar Landfair,
Case No. 17-CR-02047

Dear Ms. Wingert:
This letter will serve as a memorandum of a
proposed cooperation agreement between the United
States Attorney’s Office for the Northern District of
Iowa and Samuel Lavar Landfair, defendant. All
references to the “United States” or “government” in
this proposed plea agreement refer to the United States
Attorney’s Office for the Northern District of Iowa and
to no other governmental entity.

App. 191
CHARGES AND PENALTIES
1. SL On December 15, 2017, defendant pled guilty
to Counts 1-6 of the Indictment filed on July 10, 2017.
In Count 1 of the Indictment, defendant is charged
with conspiracy to distribute cocaine base, in violation
of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(B), and 846. Counts
2-5, defendant is charged with distribution of cocaine
base, in violation of in violation of 21 U.S.C. § 841(a)(1)
and 841(b)(1)(C). In Count 6, defendant is possession
with intent to distribute cocaine base near a protected
location, in violation of 21 U.S.C. §§ 841(a)(1),
841(b)(1)(C), and 860(a). The parties did not have a
plea agreement. The United States included a notice of
one prior felony drug conviction in the indictment
pursuant to 21 U.S.C. § 851.
2. SL Defendant understands that Count 1 of the
Indictment is punishable by a mandatory minimum
sentence of 10 years’ imprisonment and the following
maximum penalties: (1) not more than life
imprisonment without the possibility of parole; (2) a
fine of not more than $8,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 8 years to life.
3. SL Defendant understands that Counts 2-5 of the
Indictment are each punishable by the following
maximum. penalties: (1) not more than 30 years’
imprisonment without the possibility of parole; (2) a
fine of not more than $2,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 6 years to life

App. 192
4. SL Defendant understands that Count 6 of the
Indictment is punishable by a mandatory minimum
sentence of 1 year imprisonment and the following
maximum penalties: (1) not more than 60 years’
imprisonment without the possibility of parole; (2) a
fine of not more than $4,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 6 years to life
imprisonment.
COOPERATION
5. SL Defendant agrees to fully and completely
cooperate with the United States Attorney’s Office and
other law enforcement agencies in the investigation of
criminal activity within the Northern District of Iowa
and elsewhere.
6. SL Full and complete cooperation with the United
States Attorney’s Office and law enforcement agencies
shall include, but is not limited to, the following, if
feasible:
A. providing information to secure search warrants;
B. providing testimony before the federal grand
jury and, if necessary, testimony before any
Court as a witness in any prosecution growing
out of this or any related investigation; in the
event defendant is called upon to testify on
behalf of the government in any trial, grand jury
or other proceeding and is incarcerated at that
time in any local, state or federal institution,
defendant agrees to waive any and all claim for
witness fees and/or expenses which might
otherwise be due under any statute, regulation

App. 193
or other provision of law pertaining to such fees
and/or expenses; if, at the time of the testimony,
defendant is not incarcerated, defendant agrees
to waive witness fees and all local travel
expenses;
C. providing any documents or other items in
defendant’s custody, possession, or under
defendant’s control that are relevant to this or
any related investigation;
D. making defendant available for interview and
debriefing sessions by government attorneys and
law enforcement agents upon request;
E. recording conversations related
investigation as requested; and

to

any

F. engaging in and conducting other activities as
directed by the law enforcement agents in
charge of the investigation.
7. SL Defendant will provide complete and truthful
information to the government, law enforcement
officers, the federal grand jury conducting this
investigation, and any court. Defendant will answer all
questions concerning this investigation and will not
withhold any information. Defendant will neither
attempt to protect any person or entity through false
information or omission nor falsely implicate any
person or entity. Defendant will at all times tell the
truth and nothing but the truth during any interviews
or as a witness regardless of who asks the questions –
the prosecutors, defense attorneys, investigating
agents, probation officers, or the judge. Since the
United States insists upon defendant telling the truth

App. 194
and nothing but the truth during any court proceeding,
grand jury proceeding, or government interview related
to this case, failure to provide complete and truthful
information at any such time will constitute a breach
of this agreement.
8. SL No testimony or other information provided by
defendant pursuant to this plea agreement or pursuant
to a proffer agreement to the United States Attorney’s
Office, federal or state law enforcement officers,
employees of the government, the federal grand jury
conducting this investigation, or to a court will be used
against defendant for the purpose of bringing
additional Title 18 or Title 21 drug related criminal
charges in the Northern District of Iowa, provided
defendant does not violate or withdraw from the terms
of this agreement. However, such testimony or other
information may and will be used in the following
circumstances:
A. derivatively or indirectly, including but not
limited to the following: to impeach defendant’s
credibility; to cross-examine defense witnesses;
to re-direct government witnesses; or to rebut
any evidence or argument presented by
defendant that is inconsistent with information
provided by defendant pursuant to this
agreement; to develop leads from the
information provided, including for use in
determining the applicable guideline range; and
use for all other non-evidentiary purposes;
B. by the Court or Probation Office at any time,
including at the time of defendant’s guilty plea
and sentencing in this matter; but shall not be

App. 195
used in determining the applicable guideline
range in accordance with §1B1.8, except the
information may be used derivatively or
indirectly, as provided in subparagraph A:,
C. in any proceeding concerning a breach of this
agreement;
D. at any time in any criminal prosecution against
defendant if defendant fails to provide complete
and truthful information as required by the
terms of this agreement;
E. in a subsequent prosecution for crimes or acts
that were not disclosed by defendant during an
interview conducted pursuant to this agreement
or any related proffer agreement;
F. in a subsequent prosecution for crimes or acts
committed by defendant after the date
defendant provided the testimony or
information;
G. in a subsequent prosecution for perjury or giving
a false statement;
H. in any asset forfeiture matter; and
I. in any civil proceeding.
The above restrictions on use of information and/or
testimony in this agreement extend only to acts
committed by defendant on or before the date shown at
the top of this agreement and does not apply to any
prosecution for acts committed by defendant after that
date. Defendant understands the obligation of the
United States to provide all information in its file

App. 196
regarding defendant to the United States Probation
Office and the Court.
9. SL It is understood that, upon request by the
government, defendant will voluntarily submit to a
polygraph examination. If performance in any
polygraph examination suggests a conscious intent to
deceive, mislead, or lie and the totality of
circumstances convinces the government defendant’s
statement is not complete and truthful, defendant will
be so informed and any and all obligations imposed on
the government by this agreement will be rendered
null and void. This decision to nullify the agreement
will be in the sole discretion of the United States
Attorney’s Office for the Northern District of Iowa.
10. SL Defendant shall not reveal or discuss the
existence or conditions of this agreement or defendant’s
cooperation to any person other than defendant’s
attorney and law enforcement personnel involved in
this investigation. Nor shall defendant or any agent of
defendant disclose to any person, directly or indirectly,
other than to defendant’s attorney, without prior
written authorization from the government, the true
identity or occupation of any law enforcement
personnel participating in this investigation in an
undercover capacity or otherwise. Nor shall defendant
or any agent of defendant disclose to any person,
without prior written approval of the government, the
location of investigative offices, surveillance locations,
or the nature of investigative techniques used by
agents in this investigation. Nothing in this paragraph
is intended to restrict or prohibit defendant from
providing complete and truthful testimony in any court

App. 197
proceeding. Furthermore, this agreement does not
prohibit defendant from speaking with an attorney for
a party adverse to the government in any litigation
concerning defendant’s possible testimony in that
litigation. While defendant is under no obligation to
speak with such an attorney, defendant is free to do so
if defendant chooses. That decision rests solely with
defendant as it does with any witness.
11. SL Nothing in this agreement requires the
government to accept any cooperation or assistance
defendant may offer or propose. The decision whether
and how to use any information and/or cooperation
defendant provides (if at all) is in the exclusive
discretion of the United States Attorney’s Office.
POTENTIAL FOR DEPARTURE OR CREDIT
12. SL The United States may, but shall not be
required to, make a motion pursuant to §5K1.1 of the
United States Sentencing Guidelines in the event
defendant provides “substantial assistance.” This
decision shall be in the sole discretion of the United
States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. No downward departure for “substantial
assistance” may be made absent a government motion
under §5K1.1.
13. SL The United States may, but shall not be
required to, make a motion pursuant to 18 U.S.C.
§ 3553(e) allowing the Court to depart below the

App. 198
mandatory minimum sentence required by statute for
any offense to which defendant has agreed to plead
guilty in the event defendant provides “substantial
assistance.” This decision shall be in the sole discretion
of the United States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. Defendant understands and agrees any
motion for “substantial assistance” under USSG
§5K1.1, as described above, is independent from a
possible motion under this paragraph. The United
States may make either, neither, or both motions with
respect to each applicable count to which defendant has
agreed to plead guilty. This decision shall be in the sole
discretion of the United States Attorney’s Office. No
downward departure below a mandatory minimum
may be made absent a government motion under 18
U.S.C. § 3553(e) separate from a motion under USSG
§5K1.1.
14. SL It is understood and agreed no motion for
downward departure based on defendant’s cooperation
shall be made, under any circumstances, unless
defendant’s cooperation is deemed “substantial” by the
United States Attorney’s Office and defendant has fully
complied with all provisions of this plea agreement.
The United States has made no promise, implied or
otherwise, that a departure motion will be made or that
defendant will be granted a departure for “substantial
assistance.” Further, no promise has been made that a
motion will be made for departure even if defendant
complies with the terms of this agreement in all

App. 199
respects, but has not, in the assessment of the United
States Attorney’s Office, provided “substantial
assistance.”
15. SL The United States will consider the totality
of the circumstances, including but not limited to the
following factors, in determining whether, in the
assessment of the United States Attorney’s Office,
defendant has provided “substantial assistance” that
would merit a government request for a downward
departure under USSG §5K1.1 and/or 18 U.S.C.
§ 3553(e), and if so, what recommendation to make to
the Court.
A. the government’s evaluation of the significance
and usefulness of any assistance rendered by
defendant;
B. the truthfulness, completeness, and reliability of
any information or testimony provided by
defendant;
C. the nature and extent of defendant’s assistance;
D. any injuries suffered or any danger or risk of
injury to defendant or family members resulting
from any assistance provided;
E. the timeliness of any assistance provided by
defendant; and
F. Other benefits received by defendant in the plea
agreement.
16. SL Defendant understands and agrees the
government has gathered extensive evidence in the
course of its investigation, and further, no departure

App. 200
motion will be made on the basis of information or
cooperation provided by defendant if such information
or cooperation is merely cumulative of information
already in the possession of the United States.
17. SL It is understood and agreed that, if the
United States makes a motion for departure based
upon defendant’s “substantial assistance,” the Court
will decide whether to grant the motion. If the Court
grants the motion, it will be for the Court to decide,
within the limits of the law and its discretion, how
much of a reduction in sentence is warranted.
18. SL Defendant agrees and understands
defendant shall not be permitted to withdraw
defendant’s plea of guilty as to any count or otherwise
fail to comply with the terms of this agreement in the
event defendant is not satisfied with the government’s
“substantial assistance” motion decision or the Court’s
sentence in the case.
SENTENCING PROVISIONS
19. SL Defendant understands and agrees to be
sentenced based on facts to be found by the sentencing
judge by a preponderance of the evidence and agrees
facts essential to the punishment need not be
(1) charged in the Indictment; (2) proven to a jury; or
(3) proven beyond a reasonable doubt. Defendant
agrees the Court will determine the appropriate
sentence after considering a variety of factors,
including: (1) the nature and circumstances of the
offense and the history and characteristics of
defendant; (2) the need for the sentence imposed to
reflect the seriousness of the offense, to promote

App. 201
respect for the law, and to provide just punishment for
the offense; (3) the need for the sentence to afford
adequate deterrence to criminal conduct; (4) the need
for the sentence to protect the public from further
crimes of defendant; (5) the need for the sentence to
provide defendant with needed educational or
vocational training, medical care, or other correctional
treatment in the most effective manner; (6) the need to
avoid unwarranted sentencing disparities among
defendants with similar criminal records who have
been found guilty of similar conduct; and (7) the need
to provide restitution to any victims of the offense.
Defendant understands the Court will also consider the
kinds of sentence and the sentencing range established
by the United States Sentencing Guidelines for the
applicable category of offense(s) committed by
defendant and will consider any pertinent policy
statements issued as part of the Guidelines. The Court
will consider relevant adjustments under the United
States Sentencing Guidelines, which will include a
review of such things as defendant’s role in the offense,
criminal history, acceptance or lack of acceptance of
responsibility, and other considerations. The Court
may also consider other information including any
information concerning the background, character, and
conduct of defendant.
20. SL During plea negotiations the parties may
have discussed how various factors could impact the
Court’s sentencing decision and the determination of
the advisory sentencing guidelines range. The parties
agree, however, that discussions did not result in any
express or implied promise or guarantee concerning the
actual sentence to be imposed by the Court. Defendant

App. 202
understands the Court is not bound by the stipulations
of the parties, nor is it bound by the sentencing range
as determined pursuant to the sentencing guidelines.
This plea agreement provides for no guarantee
concerning the actual sentence to be imposed.
Defendant further understands defendant will have no
right to withdraw defendant’s guilty plea if the
sentence imposed is other than defendant hoped for or
anticipated.
21. SL The parties stipulate and agree the United
States Sentencing Guidelines should be applied, at
least, as follows:
SL A. Base Offense Level - Drug Trafficking
(Chapter 2): For Counts 1-6, pursuant to USSG
§2D1.1, the appropriate base offense level is at least
24 based upon defendant’s involvement with at
based upon defendant’s involvement with at least
28 grams of a mixture or substance containing a
detectable amount of cocaine base. The government
is free to present evidence and arguments to
support the stipulation and, if warranted, a higher
base offense level. For Count 6, pursuant to USSG
§2D1.2(a), the appropriate base offense level is one
plus the offense level from §2D1.1 applicable to the
total quantity of controlled substances involved in
the offense.
SL B. Acceptance of Responsibility (Chapter 3
adjustment): The United States agrees for
purposes of USSG §3E1.1(b) that defendant timely
notified authorities of defendant’s intention to enter
a guilty plea.

App. 203
SL C. Offense Level (Chapter 4): As to Counts 16, pursuant to the Career Offender Guideline,
USSG §4B1.1(a), defendant is a career offender and
defendant’s criminal history category is VI, based
upon defendant’s criminal history (which includes
two prior felony convictions for crimes of violence or
controlled substance offenses). Defendant’s offense
level will be either level 37 (level applicable under
USSG §4B1.1(b)) or the offense level that is
otherwise applicable, whichever is greater.
SL D. No other agreements have been reached, and
the parties are free to litigate any and all other
applicable adjustments, departures, or crossreferences under the United States Sentencing
Guidelines,
GENERAL MATTERS
22. SL Defendant shall not violate any local, state,
or federal law during the pendency of this agreement.
Any law violation, with the exception of speeding or
parking violations, committed by defendant will
constitute a breach of this agreement and may result in
the revocation of the entire agreement or any of its
terms. Defendant or defendant’s attorney shall notify
this office within 48 hours if defendant is questioned,
charged, or arrested for any law violation.
23. SL If defendant violates any term or condition
of this cooperation agreement, in any respect, the
entire agreement will be deemed to have been breached
and may be rendered null and void by the United
States. Defendant understands, however, the
government may elect to proceed with the guilty plea

App. 204
and sentencing. These decisions shall be in the sole
discretion of the United States. If defendant does
breach this agreement, defendant faces the following
consequences: (1) all testimony and other information
defendant has provided at any time (including any
stipulations in this agreement) to attorneys, employees,
or law enforcement officers of the government, to the
Court, or to the federal grand jury may and will be
used against defendant in any prosecution or
proceeding; (2) the United States will be entitled to
reinstate previously dismissed charges and/or pursue
additional charges against defendant and to use any
information obtained directly or indirectly from
defendant in those additional prosecutions; and (3) the
United States will be released from any obligations,
agreements, or restrictions imposed upon it under this
plea agreement.
ACKNOWLEDGMENT OF DEFENDANT’S
UNDERSTANDING
24. SL Defendant acknowledges defendant has read
each of the provisions of this entire agreement with the
assistance of counsel and understands its provisions.
Defendant has discussed the case and defendant’s
constitutional and other rights with defendant’s
attorney. Defendant agrees defendant’s attorney has
represented defendant in a competent manner and has
no complaints about that lawyer’s representation.
Defendant states defendant is not now on or under the
influence of, any drug, medication, liquor, or other
substance, whether prescribed by a physician or not,
that would impair defendant’s ability to fully

App. 205
understand the terms and conditions of this plea
agreement.
25. SL Defendant acknowledges defendant is
entering into this agreement freely and voluntarily.
Defendant further acknowledges defendant is entering
into this agreement without reliance upon any
discussions between the government and defendant
(other than those specifically described in this
agreement), without promise of benefit of any kind
(other than any matters contained in this agreement),
and without threats, force, intimidation, or coercion of
any kind.
VERIFICATION
26. SL This letter constitutes the entire agreement
between the parties. No other promises of any kind,
express or implied, have been made to defendant by the
United States or its agents. No additional agreement
may be entered into unless in writing and signed by all
parties. The agreement will not be deemed to be valid
unless and until all signatures appear where indicated
below.
If this cooperation agreement is acceptable, please
have your client indicate acceptance by placing initials
on the line preceding each of the above paragraphs and
by signing below where indicated. By initialing each
paragraph and signing below, defendant acknowledges
defendant has read, fully understands, and agrees to
each paragraph of this agreement.

App. 206
Sincerely,
PETER E. DEEGAN, JR
United States Attorney
By, s/ Emily K. Nydle
Emily K. Nydle
Assistant United States Attorney
/s/ Samuel Landfair
Samuel Lavar Landfair
Defendant

3/22/18
Date

/s/ Emily K. Nydle
Emily K. Nydle
Assistant United States
Attorney

3/_/18 [illigible]
Date

/s/ Pamela Wingert
Pamela A. Wingert
Attorney for Defendant

3/22/18
Date

App. 207
[SEAL]
U. S. Department of Justice
United States Attorney
Northern District of Iowa
EXHIBIT OFFERED UNDER SEAL
[Dated: March 15, 2018]
_________________________________________________
111 Seventh Avenue, SE
Box 1
Cedar Rapids, IA 52401 2101

319-363-6333
319-363-1990 (fax)
319-286-9258 (tty)
March 15, 2018

Michael K. Lahammer
Lahammer Law Firm
425 2nd Street SE, Suite 1010
Cedar Rapids, IA 52401
Re:

United States v. John Dwayne Phillips,
17-CR-2045

Dear Mr. Lahammer:
This letter will serve as a memorandum of a
SECOND proposed plea agreement between the United
States Attorney’s Office for the Northern District of
Iowa and John Dwayne Phillips, defendant. All
references to the “United States” or “government” in
this proposed plea agreement refer to the United States
Attorney’s Office for the Northern District of Iowa and
to no other governmental entity. This plea offer will
expire at 9:00 a.m. on March 16, 2018, unless the

App. 208
deadline is otherwise extended in writing by the
government. The government made one prior plea
offer dated February 6, 2018. That offer was
rejected by defendant.
CHARGES AND PENALTIES
1. JP Defendant will plead guilty to Count 1 of the
Superseding Indictment filed on February 22, 2018.
Count 1 charges Conspiracy to Distribute Cocaine and
Cocaine Base, in violation of 21 U.S.C. § 841(a)(1),
841(b)(1)(A), and 846. Defendant also agrees to the
entry of a judgment of forfeiture pursuant to the drug
forfeiture allegation included in the Superseding
Indictment, except that the drug proceeds amount to be
forfeited pursuant to subparagraph (g) of the
Superseding Indictment shall be as set forth in the
forfeiture section below.
2. JP Solely for purposes of defendant’s plea to
Count 1 of the Superseding Indictment, the United
States will move to withdraw its Notice of Prior Felony
Drug Convictions from the Superseding Indictment, as
they relate to defendant (following Count 14 of the
Superseding Indictment), and will not seek to enhance
the mandatory minimum sentence on Count 1 pursuant
to 21 U.S.C. § 851 on account of defendant’s prior
felony drug convictions.
3. JP Defendant understands that because Count 1
involved 280 grams or more of a mixture or substance
containing cocaine base (‘crack cocaine”), pursuant to
21 U.S.C. § 841(a)(1)(b), Count 1 of the Superseding
Indictment is punishable by a mandatory minimum
sentence of 10 years’ imprisonment and the following

App. 209
maximum penalties: (1) not more than life
imprisonment without the possibility of parole; (2) a
fine of not more than $10,000,000; (3) a mandatory
special assessment of $100; and (4) a term of
supervised release of at least 5 years.
4. JP Defendant understands restitution and a term
of supervised release following incarceration may be
imposed in addition to any other sentence. Defendant
further acknowledges that, if defendant violates, at any
time, any condition of supervised release, defendant
could be returned to prison for the full term of
supervised release and the Court is not required to
grant credit for any amount of time defendant may
have successfully completed on supervised release.
Defendant also understands the U.S. Sentencing
Guidelines will provide advisory guidance to the Court
in determining a sentence in this case.
5. JP At the time the guilty plea is entered,
defendant will admit that defendant is guilty of the
charge specified in Paragraph 1 of this agreement. The
U.S. Attorney’s Office for this District will file no
additional Title 21 narcotics-related criminal charges
based solely upon information now in our possession. If
this office becomes aware of evidence of additional
crimes warranting criminal prosecution, all
information in our possession could be used in such a
prosecution.
6. JP Defendant understands and agrees defendant
has the absolute right to plead guilty before a United
States District Court Judge. However, if convenient to
the Court, defendant agrees to waive and give up this
right and to plead guilty before a United States

App. 210
Magistrate Judge. Defendant understands defendant
will not be found guilty unless the United States
District Court Judge accepts the plea of guilty or
adopts a recommendation of the Magistrate Judge to
accept such plea. Defendant agrees to execute the
attached consent to proceed before the United States
Magistrate Judge.
7. JP Defendant understands and agrees that,
consistent with the provisions of 18 U.S.C. § 3143,
defendant may be detained pending sentencing. This is
regardless of whether a U.S. Magistrate Judge or U.S.
District Court Judge presides at the guilty plea hearing
and regardless of whether the guilty plea is
immediately accepted or formal acceptance is deferred
until a later date.
COOPERATION
8. JP Defendant agrees to fully and completely
cooperate with the United States Attorney’s Office and
other law enforcement agencies in the investigation of
criminal activity within the Northern District of Iowa
and elsewhere.
9. JP Full and complete cooperation with the United
States Attorney’s Office and law enforcement agencies
shall include, but is not limited to, the following, if
feasible:
A. providing information to secure search warrants;
B. providing testimony before the federal grand
jury and, if necessary, testimony before any
Court as a witness in any prosecution growing
out of this or any related investigation; in the

App. 211
event defendant is called upon to testify on
behalf of the government in any trial, grand jury
or other proceeding and is incarcerated at that
time in any local, state or federal institution,
defendant agrees to waive any and all claim for
witness fees and/or expenses which might
otherwise be due under any statute, regulation
or other provision of law pertaining to such fees
and/or expenses; if, at the time of the testimony,
defendant is not incarcerated, defendant agrees
to waive witness fees and all local travel
expenses;
C. providing any documents or other items in
defendant’s custody, possession, or under
defendant’s control that are relevant to this or
any related investigation;
D. making defendant available for interview and
debriefing sessions by government attorneys and
law enforcement agents upon request;
E. recording conversations related
investigation as requested; and

to

any

F. engaging in and conducting other activities as
directed by the law enforcement agents in
charge of the investigation.
10. JP Defendant will provide complete and truthful
information to the government, law enforcement
officers, the federal grand jury conducting this
investigation, and any court. Defendant will answer all
questions concerning this investigation and will not
withhold any information. Defendant will neither
attempt to protect any person or entity through false

App. 212
information or omission nor falsely implicate any
person or entity. Defendant will at all times tell the
truth and nothing but the truth during any interviews
or as a witness regardless of who asks the questions –
the prosecutors, defense attorneys, investigating
agents, probation officers, or the judge. Since the
United States insists upon defendant telling the truth
and nothing but the truth during any court proceeding,
grand jury proceeding, or government interview related
to this case, failure to provide complete and truthful
information at any such time will constitute a breach
of this agreement.
11. JP No testimony or other information provided
by defendant pursuant to this plea agreement or
pursuant to a proffer agreement to the United States
Attorney’s Office, federal or state law enforcement
officers, employees of the government, the federal
grand jury conducting this investigation, or to a court
will be used against defendant for the purpose of
bringing additional Title 21 criminal charges in the
Northern District of Iowa, provided defendant does not
violate or withdraw from the terms of this agreement.
However, such testimony or other information may and
will be used in the following circumstances:
A. derivatively or indirectly, including but not
limited to the following: to impeach defendant’s
credibility; to cross-examine defense witnesses;
to re-direct government witnesses; or to rebut
any evidence or argument presented by
defendant that is inconsistent with information
provided by defendant pursuant to this
agreement; to develop leads from the

App. 213
information provided, including for use in
determining the applicable guideline range; and
use for all other non-evidentiary purposes;
B. by the Court or Probation Office at any time,
including at the time of defendant’s guilty plea
and sentencing in this matter, but shall not be
used in determining the applicable guideline
range in accordance with USSG §1B1.8, except
the information may be used derivatively or
indirectly, as provided in subparagraph A;
C. in any proceeding concerning a breach of this
agreement;
D. at any time in any criminal prosecution against
defendant if defendant fails to provide complete
and truthful information as required by the
terms of this agreement;
E. in a subsequent prosecution for crimes or acts
that were not disclosed by defendant during an
interview conducted pursuant to this agreement
or any related proffer agreement;
F. in a subsequent prosecution for crimes or acts
committed by defendant after the date
defendant provided the testimony or
information;
G. in a subsequent prosecution for perjury or giving
a false statement;
H. in any asset forfeiture matter; and
I. in any civil proceeding.

App. 214
The above restrictions on use of information and/or
testimony in this agreement extend only to acts
committed by defendant on or before the date shown at
the top of this agreement and does not apply to any
prosecution for acts committed by defendant after that
date. Defendant understands the obligation of the
United States to provide all information in its file
regarding defendant to the United States Probation
Office and the Court.
12. JP The United States agrees the information
provided by defendant to federal or state law
enforcement officers on October 11, 2017, shall not be
used in determining the applicable guideline range in
accordance with USSG §1B1.8. Such information may
be used for any other purpose permitted by law,
including derivatively or indirectly as provided above.
The above restriction on the use of the pre-proffer
information provided extends only to acts committed by
defendant on or before the date shown at the top of this
agreement and does not apply to any prosecution for
acts committed by defendant after that date.
13. JP It is understood that, upon request by the
government, defendant will voluntarily submit to a
polygraph examination. If performance in any
polygraph examination suggests a conscious intent to
deceive, mislead, or lie and the totality of
circumstances convinces the government defendant’s
statement is not complete and truthful, defendant will
be so informed and any and all obligations imposed on
the government by this agreement will be rendered
null and void. This decision to nullify the agreement

App. 215
will be in the sole discretion of the United States
Attorney’s Office for the Northern District of Iowa.
14. JP Defendant shall not reveal or discuss the
existence or conditions of this agreement or defendant’s
cooperation to any person other than defendant’s
attorney and law enforcement personnel involved in
this investigation. Nor shall defendant or any agent of
defendant disclose to any person, directly or indirectly,
other than to defendant’s attorney, without prior
written authorization from the government, the true
identity or occupation of any law enforcement
personnel participating in this investigation in an
undercover capacity or otherwise. Nor shall defendant
or any agent of defendant disclose to any person,
without prior written approval of the government, the
location of investigative offices, surveillance locations,
or the nature of investigative techniques used by
agents in this investigation. Nothing in this paragraph
is intended to restrict or prohibit defendant from
providing complete and truthful testimony in any court
proceeding. Furthermore, this agreement does not
prohibit defendant from speaking with an attorney for
a party adverse to the government in any litigation
concerning defendant’s possible testimony in that
litigation. While defendant is under no obligation to
speak with such an attorney, defendant is free to do so
if defendant chooses. That decision rests solely with
defendant as it does with any witness.
15. JP Nothing in this agreement requires the
government to accept any cooperation or assistance
defendant may offer or propose. The decision whether
and how to use any information and/or cooperation

App. 216
defendant provides (if at all) is in the exclusive
discretion of the United States Attorney’s Office.
STIPULATION OF FACTS
16. JP By initialing each of the following
paragraphs, defendant stipulates to the following facts.
Defendant agrees these facts are true and may be used
to establish a factual basis for defendant’s guilty plea,
sentence, and any forfeiture. Defendant has been
advised by defendant’s attorney of defendant’s rights
under Federal Rule of Criminal Procedure 11(f) and
Federal Rule of Evidence 410. Defendant waives these
rights and agrees this stipulation may be used against
defendant at any time in any proceeding should
defendant violate or refuse to follow through on this
plea agreement, regardless of whether the plea
agreement has been accepted by the Court. Defendant
agrees that the stipulation below is a summary of the
facts against defendant and does not constitute all of
the facts the government would be able to prove at trial
and may be able to prove to the Court in accordance
with this agreement.
JP A. Beginning no later than April 2015, and
continuing through about March 2017, two or
more persons reached an agreement to
distribute cocaine base (“crack cocaine”).
Defendant voluntarily and intentionally
joined in the agreement or understanding,
either at the time it was first reached, or at
some later time while it was still in effect. At
the time the defendant joined in the
agreement or understanding, defendant
knew that the purpose of the agreement or

App. 217
understanding was to distribute cocaine and
crack cocaine. The agreement or
understanding included: Alston Campbell,
Jr.; Alston Campbell, Sr.; William Campbell;
A.M.; defendant, W.C., Darius Shears; and
others. The agreement or understanding
involved the distribution of at least 280
grams of crack cocaine. In other words, the
distribution of 280 grams of crack cocaine
was a necessary or natural consequence of
the conspiracy and was reasonably
foreseeable to defendant. Acts in furtherance
of the agreement or understanding took place
in Waterloo, Iowa, which is in the Northern
District of Iowa.
JP B. During in 2016, law enforcement in Waterloo
began investigating the distribution of crack
cocaine by Alston Campbell, Jr. and his
coconspirators. This investigation included
the use of confidential informants and
undercover agents to purchase crack cocaine
from Alston Campbell, Jr. and his
coconspirators. The investigation eventually
included the use of wiretaps to intercept
phone calls and text messages.
JP C. A.M. sold crack cocaine to a confidential
informant on March 24, 2016 (.68 grams),
April 8, 2016(.73 grams), April 26, 2016 (.35
grams), and October 6, 2016 (.21 grams). On
each of these occasions, A.M. intentionally
transferred crack cocaine to another person

App. 218
and knew that the substance he transferred
was crack cocaine.
JP D. On April 28, 2016, law enforcement executed
a search warrant at A.M.’s residence on
Quincy Street in Waterloo, Iowa. At A.M.’s
residence, law enforcement located 57.24
grams of crack cocaine, $589, and a digital
scale.
JP E. Law enforcement officers on scene
interviewed A.M. and he identified his source
as defendant. A.M. said that he owed
defendant for the crack cocaine found at
A.M.’s residence. A.M. said he had been
going to defendant for a year or two and was
paying $1,400 to $1,600 an ounce. A.M.
stated that defendant was getting to receive
a kilo and half that morning. A.M. said that
he had acquired crack cocaine 10-15 or more
times from defendant. Defendant
acknowledges he sold cocaine to A.M. but
denies he sold A.M. crack cocaine and denies
he was to receive a large quantity of cocaine
on April 28, 2016.
JP F. On May 3, 2016 ($500), May 6, 2016 ($2,300),
and May 20, 2016 ($1,400), A.M., while
working as a confidential informant, made
controlled payments to defendant for money
owed to defendant for drugs previously
provided to A.M. for distribution by A.M..
JP G. Defendant sold cocaine (55.66 grams of salt
of cocaine) to A.M., working as a confidential

App. 219
informant, on May 10, 2016. Defendant
intentionally transferred cocaine to another
person and knew that the substance he
transferred was a controlled substance.
JP H. On May 16, 2016, law enforcement officers
conducted three search warrants at locations
associated with defondant. At a residence on
Kern Street, defendant began cooperating
with law enforcement and named his source
at Alston Campbell Jr. and said Campbell Jr.
had a kilogram level supplier of cocaine.
During the search of the residence, law
enforcement officers recovered 86.41
grams of cocaine, 21.78 grams of a white
powdery substance containing no controlled
substance, 9 grams of marijuana, U.S.
currency, business notes, and pre-serialized
cash from previous transactions. At the New
World Lounge located on Riehl Street, in
Waterloo, law enforcement recovered $7,400.
JP I. On May 20, 2016 ($1,400), June 8, 2016
($1,400), June 30, 2016 ($2,000), and July 27,
2016 ($2,000), defendant, working as a
confidential informant, made a controlled
payment to Alston Campbell, Jr. for money
owed to Campbell, Jr., for cocaine previously
provided to defendant by Campbell, Jr..
JP J. Between about May 30, 2016 and November
27, 2016, defendant and Alston Campbell,
Jr., communicated by phone with each other
at least 90 times.

App. 220
JP K. On March 31, 2017, law enforcement officers
conducted search warrants at multiple
locations including; William Campbell’s
residence on Kern where law enforcement
recovered powder cocaine residue, a firearm,
$3,064 in cash, a 2006 Lexus, and a 2004
Mercedes Benz; Alston Campbell, Jr.’s
residence where law enforcement recovered
a gram of cocaine residue, 77.57 grams of
lidocaine and caffeine, drug cookware, 6
handguns, and ammunition; a storage unit
used by Alston Campbell, Jr. on Logan
Avenue in Waterloo where 58 grams of
cocaine and 3 grams of crack cocaine were
found, and a residence belonging to W.C.
where officers found a paraphernalia and a
digital scale. All of these items represented
proceeds or were used to facilitate the drug
conspiracy.
JP L Although the following convictions will not be
used to enhance the statutory penalty for
Count 1, defendant agrees he was previously
convicted of: Delivery of a Controlled
Substance, in case number FECR047150, in
the Iowa District Court for Black Hawk
County, on or about April 20, 1995; Delivery
of a Controlled Substance, Second Offender,
in case number FECR076232, in the Iowa
District Court for Black Hawk County, on or
about March 12, 1999; and Possession of
Marijuana, Second Offense, in case number
OWCR189967, in the Iowa District Court for

App. 221
Black Hawk County, on or about August 2,
2013.
SENTENCING PROVISIONS
17. JP Defendant understands and agrees to be
sentenced based on facts to be found by the sentencing
judge by a preponderance of the evidence and agrees
facts essential to the punishment need not be
(1) charged in the Indictment; (2) proven to a jury; or
(3) proven beyond a reasonable doubt. Defendant
agrees the Court will determine the appropriate
sentence after considering a variety of factors,
including: (1) the nature and circumstances of the
offense and the history and characteristics of
defendant; (2) the need for the sentence imposed to
reflect the seriousness of the offense, to promote
respect for the law, and to provide just punishment for
the offense; (3) the need for the sentence to afford
adequate deterrence to criminal conduct; (4) the need
for the sentence to protect the public from further
crimes of defendant; (5) the need for the sentence to
provide defendant with needed educational or
vocational training, medical care, or other correctional
treatment in the most effective manner; (6) the need to
avoid unwarranted sentencing disparities among
defendants with similar criminal records who have
been found guilty of similar conduct; and (7) the need
to provide restitution to any victims of the offense.
Defendant understands the Court will also consider the
kinds of sentence and the sentencing range established
by the United States Sentencing Guidelines for the
applicable category of offense(s) committed by
defendant and will consider any pertinent policy

App. 222
statements issued as part of the Guidelines. The Court
will consider relevant adjustments under the United
States Sentencing Guidelines, which will include a
review of such things as defendant’s role in the offense,
criminal history, acceptance or lack of acceptance of
responsibility, and other considerations. The Court
may also consider other information including any
information concerning the background, character, and
conduct of defendant.
18. JP During plea negotiations the parties may
have discussed how various factors could impact the
Court’s sentencing decision and the determination of
the advisory sentencing guidelines range. The parties
agree, however, that discussions did not result in any
express or implied promise or guarantee concerning the
actual sentence to be imposed by the Court. Defendant
understands the Court is not bound by the stipulations
of the parties, nor is it bound by the sentencing range
as determined pursuant to the sentencing guidelines.
This plea agreement provides for no guarantee
concerning the actual sentence to be imposed.
Defendant further understands defendant will have no
right to withdraw defendant’s guilty plea if the
sentence imposed is other than defendant hoped for or
anticipated.
19 . JP The parties stipulate and agree the United
States Sentencing Guidelines should be applied, at
least, as follows:
JP A. For Count 1, pursuant to USSG §.2D1.1,
the appropriate base offense level is at least
30 based upon defendant’s involvement with
at least 280 grams of a mixture or substance

App. 223
containing a detectable amount of cocaine
base, a Schedule II controlled substance. The
government is free to present evidence and
arguments to support the stipulation and, if
warranted, a higher base offense level and
defendant understands the United States
asserts based on information currently
known that offense level is likely at least a
level 34 based on defendant’s involvement
with at least 2.8 kilograms of a mixture or
substance containing a detectable amount of
cocaine base, a Schedule II controlled
substance.
JP B. Acceptance of Responsibility (Chapter 3
adjustment): The defendant agrees for
purposes of USSG §3E1.1(b) that defendant
id not timely notified authorities of
defendant’s intention to enter a guilty plea
and understands the government will not be
filing a motion for the third level of
acceptance.
JP C. Criminal History (Chapter 4): No
agreement has been reached regarding
defendant’s criminal history. The parties
reserve the right to contest the Probation
Office’s determination of defendant’s
criminal history and criminal history
category under Chapter Four of the
sentencing guidelines. In addition, defendant
understands that, if defendant’s criminal
history would result in a higher base offense

App. 224
level under any guideline, the government is
free to seek such a base offense level.
JP D. No other agreements have been reached, and
the parties are free to litigate any and all
other applicable adjustments, departures, or
cross-references under the United States
Sentencing Guidelines, and any variances of
any kind from the advisory guideline range,
in any amount, in either direction.
20. JP Defendant, defendant’s attorney, and the
United States may make whatever comment and
evidentiary offer they deem appropriate at the time of
the guilty plea, sentencing, or any other proceeding
related to this case, so long as the offer or comment
does not violate any other provision of this agreement.
The parties are also free to provide all relevant
information and controlling authority to the Probation
Office and Court for use in preparing and litigating
adjustments, enhancements, or departures scored in
the presentence report, including offering statements
made by defendant at any time.
21. JP The parties are free to contest or defend any
ruling of the Court, unless otherwise limited by this
agreement, on appeal or in any other postconviction
proceeding.
POTENTIAL FOR DEPARTURE OR CREDIT
22. JP The United States may, but shall not be
required to, make a motion pursuant to §5K1.1 of the
United States Sentencing Guidelines in the event
defendant provides “substantial assistance.” This
decision shall be in the sole discretion of the United

App. 225
States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. No downward departure for “substantial
assistance” may be made absent a government motion
under §5K1.1.
23. JP The United States may, but shall not be
required to, make a motion pursuant to 18 U.S.C.
§ 3553(e) allowing the Court to depart below the
mandatory minimum sentence required by statute for
any offense to which defendant has agreed to plead
guilty in the event defendant provides “substantial
assistance.” This decision shall be in the sole discretion
of the United States Attorney’s Office and will be made
independently with respect to each applicable count to
which defendant has agreed to plead guilty. The
government may make this motion as to any, all, or
none of the counts to which defendant has agreed to
plead guilty. Defendant understands and agrees any
motion for “substantial assistance” under USSG
§5K1.1, as described above, is independent from a
possible motion under this paragraph. The United
States may make either, neither, or both motions with
respect to each applicable count to which defendant has
agreed to plead guilty. This decision shall be in the sole
discretion of the United States Attorney’s Office. No
downward departure below a mandatory minimum
may be made absent a government motion under 18
U.S.C. § 3553(e) separate from a motion under USSG
§5K1.1.

App. 226
24. JP It is understood and agreed no motion for
downward departure based on defendant’s cooperation
shall be made, under any circumstances, unless
defendant’s cooperation is deemed “substantial” by the
United States Attorney’s Office and defendant has fully
complied with all provisions of this plea agreement.
The United States has made no promise, implied or
otherwise, that a departure motion will be made or that
defendant will be granted a departure for “substantial
assistance.” Further, no promise has been made that a
motion will be made for departure even if defendant
complies with the terms of this agreement in all
respects, but has not, in the assessment of the United
States Attorney’s Office, provided “substantial
assistance.”
25. JP The United States will consider the totality
of the circumstances, including hut not limited to the
following factors, in determining whether, in the
assessment of the United States Attorney’s Office,
defendant has provided “substantial assistance” that
would merit a government request for a downward
departure under USSG §5K1.1 and/or 18 U.S.C.
§ 3553(e), and if so, what recommendation to make to
the Court:
A. the government’s evaluation of the significance
and usefulness of any assistance rendered by
defendant;
B. the truthfulness, completeness, and reliability of
any information or testimony provided by
defendant;
C. the nature and extent of defendant’s assistance;

App. 227
D. any injuries suffered or any danger or risk of
injury to defendant or family members resulting
from any assistance provided;
E. the timeliness of any assistance provided by
defendant; and
F. Other benefits received by defendant in the plea
agreement. including any decision by the United
States to forego multiple enhancements under
21 U.S.C. § 851 that would otherwise have
required a life sentence, a decision that already
provides a significant benefit to defendant.
26. JP Defendant understands and agrees the
government has gathered extensive evidence in the
course of its investigation, and further, no departure
motion will be made on the basis of information or
cooperation provided by defendant if such information
or cooperation is merely cumulative of information
already in the possession of the United States.
27. JP It is understood and agreed that, if the
United States makes a motion for departure based
upon defendant’s “substantial assistance,” the Court
will decide whether to grant the motion. If the Court
grants the motion, it will be for the Court to decide,
within the limits of the law and its discretion, how
much of a reduction in sentence is warranted.
28. JP Defendant agrees and understands
defendant shall not be permitted to withdraw
defendant’s plea of guilty as to any count or otherwise
fail to comply with the terms of this agreement in the
event defendant is not satisfied with the government’s

App. 228
“substantial assistance” motion decision or the Court’s
sentence in the case.
FINANCIAL MATTERS
29. JP Defendant agrees to pay a special assessment
of $100 as required by 18 U.S.C. § 3013. Defendant
may pay the special assessment to the Clerk of Court
using the enclosed payment coupon. Defendant or
defendant’s representative will send or deliver the
special assessment payment to the U.S. District Clerk
of Court, 111 Seventh Avenue, SE, Box 12, Cedar
Rapids, IA 52401. If defendant does not pay the Clerk
of Court by credit card, payment must be in the form of
a money order made out to the “U.S. District Clerk of
Court.” The special assessment must be paid before
this signed agreement is returned to the U.S.
Attorney’s Office. If defendant fails to pay the special
assessment prior to the sentencing, defendant
stipulates that a downward adjustment for acceptance
of responsibility under USSG §3E1.1 is not appropriate
unless the Court finds defendant has no ability to pay
‘prior to the sentencing.
FORFEITURE
30. JP Defendant agrees to forfeit and abandon any
and all claim to items or cash seized by law
enforcement from defendant at the time of any arrest
or search, including defendant’s arrest and the search
of defendant’s residence and business on May 16, 2016,
or in any of the vehicles or currency alleged in the drug
forfeiture allegation of the Superseding Indictment
(except that the “drug proceeds” amount shall be as set
out below, and not the amount alleged in subparagraph

App. 229
(g) in the Superseding Indictment). Defendant also
waives any right to additional notice of the forfeiture
and abandonment of any such money or property.
Defendant stipulates this plea agreement constitutes
notice under Local Criminal Rule 57.3(c) regarding the
disposal of any exhibits or evidence related to this
matter. Defendant understands that, from this date
forward, any local, state, or federal law enforcement
agency may take custody of and use, dispose of, and
transfer these items in any way the agency deems
appropriate.
31. JP Defendant agrees to voluntarily disclose,
forfeit, abandon, give up, and give away to the United
States, or any law enforcement agency designated by
the United States, prior to the date of sentencing
herein, any right, title and interest defendant may
have in property subject to forfeiture under the United
States Code, including 21 U.S.C. §§ 853 and 881, and
18 U.S.C. §§ 924, 981 and 982, and any right, title and
interest defendant may have in the following items:
A. all controlled substances that have been
possessed in violation of federal law, all raw
materials, products, and equipment of any kind
that are or have been used, or intended for use,
in manufacturing, compounding, processing,
delivering, importing, or exporting any
controlled substance in violation of federal law;
B. all property that is or has been used or intended
for use as a container for the items referred to in
subparagraph A;

App. 230
C. all conveyances, including aircraft, vehicles, or
vessels, that are or have been used, or are
intended for use, to transport or in any manner
to facilitate the transportation, sale, receipt,
possession, or concealment of items referred to
in subparagraph A;
D. all monies, negotiable instruments, securities, or
other things of value, furnished or intended to be
furnished by any person in exchange for a
controlled substance in violation of federal drug
laws, and all proceeds traceable to such an
exchange, and all monies, negotiable
instruments, and securities used or intended to
be used to facilitate any violation of federal drug
laws;
E. all real property, including any right, title, and
interest in the whole of any lot or tract of land
and any appurtenances or improvements used,
or intended to be used, in any manner or part to
commit or to facilitate the commission of any
violation of a federal drug law that is a felony;
F. any and all firearms and ammunition in
defendant’s care, custody or control during the
time period of defendant’s illegal conduct; and
G. any other property deemed forfeitable under the
provisions of 21 U.S.C. § 853 and/or § 881.
32. JP Defendant specifically agrees to forfeit any
and all interest in the property specified in the
Superseding Indictment drug forfeiture allegation,
subparagraphs (a)-(f), as the proceeds of drug activity
and/or property that facilitated a drug crime.

App. 231
Defendant further stipulates and agrees pursuant to
Rule 32.2(a) to the entry of a forfeiture money
judgment in an amount of up to $25,000, in lieu of the
amount alleged in Superseding Indictment
subparagraph (g), which sum shall be ordered due and
payable immediately. This $25,000 represents drug
proceeds received from defendant’s illegal activity.
Upon completion of the attached financial statement,
and, in the sole discretion of the United States,
following an examination of defendant’s financial
condition, defendant agrees the United States may set
the amount of the forfeiture monetary judgment to be
paid by defendant, in lieu of the amount alleged in the
Superseding Indictment subparagraph (g), in any
amount no to exceed $25,000, or may, in its sole
discretion elect to waive imposition of a forfeiture
monetary judgment in this case.
33. JP If any of the property described in the above
paragraphs, as a result of any act or omission of
defendant:
A. cannot be located upon the exercise of due
diligence;
B. has been transferred or sold to, or deposited
with, a third party;
C. has been placed beyond the jurisdiction of the
Court;
D. has been substantially diminished in value; or
E. has been commingled with other property that
cannot be divided without difficulty;

App. 232
defendant shall, prior to sentencing, provide payment
to the government by cashier’s or certified check up to
the value of such property. Alternatively, defendant
shall consent to an order of forfeiture of any other
property up to the value of any such property.
34. JP Within two weeks of signing this agreement,
defendant agrees to provide the United States
Attorney’s Office for the Northern District of Iowa with
written documentation of defendant’s ownership or
right, title, or interest in the aforementioned property.
In the event defendant is unable to provide
documentation of defendant’s right, title, or interest in
such property within two weeks of signing this
agreement, defendant shall relinquish custody of that
property to the United States at that time, or at any
subsequent time agreed to by the United States, upon
demand of the government.
35. JP By this agreement defendant not only agrees
to forfeit all interests in the property referred to in the
above paragraphs, but agrees to take whatever steps
are necessary to convey any and all of defendant’s
right, title, and interest in such property to the United
States. These steps include, but are not limited to, the
surrender of title, the signing ofa quit claim deed, the
signing of a consent decree, the signing of
abandonment papers, the signing of a stipulation of
facts regarding the transfer and basis for the forfeiture,
and the signing any other documents necessary to
effectuate such transfers. Defendant further agrees to
fully assist the government in the recovery and return
to the United States of any assets or portions thereof as
described above wherever located. Defendant further

App. 233
agrees to make a full and complete disclosure of all
assets over which defendant exercises control and those
held or controlled by a nominee. Defendant further
agrees to be polygraphed on the issue of assets if it is
deemed necessary by the United States before
defendant’s sentencing.
36. JP Defendant agrees not to waste, sell, dispose
of, or otherwise diminish the value of any items or
property referred to in the above paragraphs or allow
others to do so. Defendant further agrees not to contest
any forfeiture action or proceeding brought on behalf of
any government agency involved in this investigation
that seeks to forfeit property described in the above
paragraphs.
37. JP Defendant agrees and understands that,
should defendant fail to truthfully account for all of
defendant’s holdings, proceeds, assets, or income,
whether derived from a legal source or not, for the
period charged, defendant shall be deemed to have
materially breached this agreement. The decision as to
whether defendant has been complete, forthright, and
truthful in this regard shall be in the sole discretion of
the United States Attorney’s Office, taking into
consideration the totality of the circumstances and the
totality of the evidence developed in the course of the
investigation.
GENERAL MATTERS
38. JP Defendant shall not violate any local, state,
or federal law during the pendency of this agreement.
Any law violation, with the exception of speeding or
parking violations, committed by defendant will

App. 234
constitute a breach of this agreement and may result in
the revocation of the entire agreement or any of its
terms. Defendant or defendant’s attorney shall notify
this office within 48 hours if defendant is questioned,
charged, or arrested for any law violation.
39. JP If defendant violates any term or condition
of this plea agreement, in any respect, the entire
agreement will be deemed to have been breached and
may be rendered null and void by the United States.
Defendant understands, however, the government may
elect to proceed with the guilty plea and sentencing.
These decisions shall be in the sole discretion of the
United States. If defendant does breach this
agreement, defendant faces the following consequences:
(1) all testimony and other information defendant has
provided at any time (including any stipulations in this
agreement) to attorneys, employees, or law
enforcement officers of the government, to the Court, or
to the federal grand jury may and will be used against
defendant in any prosecution or proceeding; (2) the
United States will be entitled to reinstate previously
dismissed charges and/or pursue additional charges
against defendant and to use any information obtained
directly or indirectly from defendant in those additional
prosecutions; and (3) the United States will be released
from any obligations, agreements, or restrictions
imposed upon it under this plea agreement.
40. JP Defendant waives all claims defendant may
have based upon the statute of limitations, the Speedy
Trial Act, and the speedy trial provisions of the Sixth
Amendment to the Constitution. Defendant also agrees
any delay between the signing of this agreement and

App. 235
the final disposition of this case constitutes excludable
time under 18 U.S.C. § 3161 et seq. (the Speedy Trial
Act) and related provisions.
ACKNOWLEDGMENT OF DEFENDANT’S
UNDERSTANDING
41. JP Defendant acknowledges defendant has read
each of the provisions of this entire plea agreement
with the assistance of counsel and understands its
provisions, Defendant has discussed the case and
defendant’s constitutional and other rights with
defendant’s attorney. Defendant understands that, by
entering a plea of guilty, defendant will be giving up
the right to plead not guilty; to trial by jury; to
confront, cross-examine, and compel the attendance of
witnesses; to present evidence in defendant’s defense;
to remain silent and refuse to be a witness by asserting
defendant’s privilege against self-incrimination; and to
be presumed innocent until proven guilty beyond a
reasonable doubt. Defendant agrees defendant’s
attorney has represented defendant in a competent
manner and has no complaints about that lawyer’s
representation. Defendant states defendant is not now
on or under the influence of, any drug, medication,
liquor, or other substance, whether prescribed by a
physician or not, that would impair defendant’s ability
to fully understand the terms and conditions of this
plea agreement.
42. JP Defendant acknowledges defendant is
entering into this plea agreement and is pleading guilty
freely and voluntarily because defendant is guilty and
for no other reason. Defendant further acknowledges
defendant is entering into this agreement without

App. 236
reliance upon any discussions between the government
and defendant (other than those specifically described
in this plea agreement), without promise of benefit of
any kind (other than any matters contained in this plea
agreement), and without threats, force, intimidation, or
coercion of any kind. Defendant further acknowledges
defendant’s understanding of the nature of each offense
to which defendant is pleading guilty, including the
penalties provided by law.
43. JP Defendant further understands defendant
will be adjudicated guilty of each offense to which
defendant will plead guilty and will thereby be
deprived of certain rights, including, but not limited to,
the right to vote, to hold public office, to serve on a
jury, and to possess firearms and ammunition.
Defendant understands the government reserves the
right to notify any state or federal agency by whom
defendant is licensed, or with whom defendant does
business, of the fact of defendant’s conviction.
VERIFICATION
44. JP This letter constitutes the entire agreement
between the parties. No other promises of any kind,
express or implied, have been made to defendant by the
United States or its agents. No additional agreement
may be entered into unless in writing and signed by all
parties. The agreement will not be deemed to be valid
unless and until all signatures appear where indicated
below.
If this agreement is acceptable, please have your
client indicate acceptance by placing initials on the line
preceding each of the above paragraphs and by signing

App. 237
below where indicated. By initialing each paragraph
and signing below, defendant acknowledges defendant
has read, fully understands, and agrees to each
paragraph of this agreement. Please return all
enclosures, completed and signed, with this signed
letter to the U.S. Attorney’s Office.
Please complete the enclosed Consent to Proceed
Before the Magistrate Judge. This document is needed
to allow the Magistrate Judge to receive defendant’s
guilty plea.
Finally, please remember to pay the special
assessment as agreed above.
Thank you for your cooperation.
Sincerely,
PETER E. DEEGAN, JR.
United States Attorney
By: /s/ Emily K. Nydle
Emily K. Nydle
Assistant United States Attorney
ENCLOSURES:
Financial Statement Form
The undersigned defendant, with advice of counsel,
accepts the terms of this plea agreement. The
undersigned Assistant United States Attorney accepts
the terms of the executed plea agreement.

App. 238
/s/ John Phillips
John Dwayne Phillips
Defendant

3/15/18
Date

/s/ Emily K Nydle
3/16/18
Emily K. Nydle
Date
Assistant United States Attorney
/s/ Michael K. Lahammer
Michael K. Lahammer
Attorney for Defendant

3/15/18
Date

